                                                                         MINE SAFETY AND HEALTH

U.S. Department of Labor                                                 ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         MSHA IS MAKING PROGRESS TO IMPLEMENT THE
                                                                         UPPER BIG BRANCH INTERNAL REVIEW
                                                                         RECOMMENDATIONS AND IS UNDERTAKING ACTIONS
                                                                         ON THE INDEPENDENT PANEL REPORT




                                                                                             Date Issued:     March 31, 2013
                                                                                          Report Number:    05-13-003-06-001
U.S. Department of Labor                                  March 2013
Office of Inspector General
Office of Audit                                           MSHA IS MAKING PROGRESS TO IMPLEMENT THE
                                                          UPPER BIG BRANCH INTERNAL REVIEW
                                                          RECOMMENDATIONS AND IS UNDERTAKING
BRIEFLY…                                                  ACTIONS ON THE INDEPENDENT PANEL REPORT
Highlights of Report Number 05-13-003-06-001 to the
Assistant Secretary for Mine Safety and Health            WHAT OIG FOUND

WHY READ THE REPORT                                       UBB Internal Review

On April 29, 2010, MSHA’s Assistant Secretary initiated   The OIG found that MSHA informally prioritized the
an Internal Review of the agency’s actions at the Upper   recommendations based on several factors, including
Big Branch (UBB) mine where, on April 5, 2010, a          risk, availability of resources, and ease and expediency.
massive coal dust explosion claimed the lives of 29
miners. This was also the deadliest United States coal    We confirmed that MSHA had implemented 38
mine disaster in 40 years. The Internal Review team       recommendations as of September 2012. In addition,
evaluated MSHA’s actions relative to the UBB explosion    MSHA reported it had implemented a total of 56
and issued a report that contained 100                    recommendations as of February 11, 2013. MSHA
recommendations to improve the agency’s performance       seems to be on track to meet its milestones for
in order to better protect the Nation’s miners from       implementation of the remaining 44 recommendations
similar disasters in the future.                          that have due dates. MSHA has however not set due
                                                          dates for implementation of recommendations involving
WHY OIG CONDUCTED THE AUDIT
                                                          factors outside of its control, such as those involving
In response to concerns raised by Representative John     rulemaking, research, legal reviews, and funding
Kline (R-MN), Chairman of the United States House of      contingencies.
Representatives, Committee on Education and the
Workforce, the OIG conducted an audit to assess           Independent Panel Assessment
MSHA’s progress in implementing the
recommendations in the Internal Review report as well     Although MSHA did not formally rank or prioritize the
as another report issued by an external independent       Independent Panel recommendations, the agency
panel on the same subject. The OIG performed work to      combined many of the recommendations into the
answer the following questions:                           Internal Review actions and plans already underway.
                                                          The Independent Panel report contains four
    1. 	 What methodology did MSHA use to prioritize      recommendations. MSHA intends to implement
         the recommendations for implementation?          recommendations 2 and 4, and intends to implement
                                                          portions of recommendations 1 and 3. MSHA has
    2. 	 Can MSHA document the recommendations            provided the OIG with documentation in support of
         reported as completed?                           actions both completed and in progress to address
                                                          these recommendations.
    3. 	 Is MSHA on track to meet its milestones for
         implementation of recommendations?               On March 20, 2013, MSHA met with the Independent
                                                          Panel to discuss the findings and recommendations
We tested 38 of the 100 recommendations in the            included in its report.
Internal Review report completed between February
2012 and September 2012. We also discussed with           WHAT OIG RECOMMENDED
MSHA their plans to implement recommendations from
the Independent Panel report.                             We recommended that the Assistant Secretary for Mine
                                                          Safety and Health direct MSHA to: (a) build a process
READ THE FULL REPORT                                      into its Internal Review framework to rank and prioritize
                                                          recommendations; and (b) continue work on those
To view the report, including the scope, methodology,     recommendations that do not currently have anticipated
and full agency response go to:                           due dates to ensure they are being diligently pursued.
http://www.oig.dol.gov/public/reports/oa/2013/05-13-
003-06-001.pdf                                            Although MSHA expressed concerns regarding their
                                                          ability to set due dates for actions they cannot fully
                                                          control, MSHA agreed with the OIG’s findings and
                                                          recommendations.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
                                    Report No. 05-13-003-06-001
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents
Assistant Inspector General’s Report ......................................................................... 1

Results in Brief .............................................................................................................. 2

Objective 1 — What methodology did MSHA use to prioritize the
              recommendations for implementation?............................................. 4
         MSHA exposes itself to the unnecessary risk that recommendations in
                future Internal Review reports will not be appropriately prioritized
                because it has not formally defined its prioritization methods. ............... 4

         Finding 1 — A defined approach for prioritizing Internal Review report
                  recommendations for implementation will prove beneficial .................... 6

Objective 2 — Can MSHA document the recommendations reported as
              completed?........................................................................................... 6
         MSHA provided sufficient documentation to support implementation of the
                Internal Review report recommendations reported as completed,
                along with the Independent Panel recommendations it has fully
                implemented. ......................................................................................... 6

Objective 3 — Is MSHA on track to meet its milestones for implementation of
               recommendations? .............................................................................. 7
         Barring unforeseen circumstances, MSHA appears to be on track to meet
                  its milestones for implementing most of the Internal Review
                  report recommendations. The agency has also been undertaking
                  actions on the Independent Panel report. .............................................. 7

Recommendations ...................................................................................................... 10

Exhibits
         Exhibit 1 Listing of 38 Internal Review Recommendations Reviewed by
                   OIG ...................................................................................................... 13
         Exhibit 2 Listing of all 100 Recommendations in Internal Review Report ........... 35
         Exhibit 3 Independent Panel Report Recommendations .................................... 77

Appendices
         Appendix A Background ..................................................................................... 89
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 93
         Appendix C Acronyms and Abbreviations .......................................................... 97
         Appendix D MSHA's Response to Draft Report .................................................. 99
         Appendix E Acknowledgements ....................................................................... 107

                                                          MSHA Making Progress To Implement Recommendations
                                                                                   Report No. 05-13-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
                                    Report No. 05-13-003-06-001
                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




March 31, 2013

                        Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, VA 22209

In response to concerns raised by Representative John Kline (R-MN), Chairman of the
United States House of Representatives, Committee on Education and the Workforce,
the Office of Inspector General (OIG) conducted an audit to determine whether the Mine
Safety and Health Administration (MSHA) implemented recommendations contained in
the Internal Review of MSHA’s Actions at the Upper Big Branch Mine-South (Internal
Review report, issued March 6, 2012). Specifically, the OIG conducted an audit to
assess MSHA’s progress in implementing the recommendations in this report and the
Independent Panel Assessment of an Internal Review of MSHA Enforcement Actions at
the Upper Big Branch Mine South (Independent Panel report, issued March 22, 2012).
Thus, we asked the following questions:

    1. What methodology did MSHA use to prioritize the recommendations for
       implementation?

    2. Can MSHA document the recommendations reported as completed?

    3. Is MSHA on track to meet its milestones for implementation of
       recommendations?

Our audit work covered all recommendations included in the two reports. We
interviewed key MSHA headquarters officials and reviewed recommendations,
corrective actions, supporting documentation, MSHA policies and procedures, and
federal laws and regulations. We conducted all audit work at MSHA’s headquarters
located in Arlington, VA. Exhibit 1 contains a summary of the 38 Internal Review report
recommendations MSHA implemented as of September 30, 2012, while Exhibit 2
contains a listing of all 100 recommendations contained in the Internal Review report.

For the Internal Review, we obtained an understanding of MSHA’s process for
prioritizing recommendations for implementation, reviewed 38 recommendations
claimed by MSHA as completed between February 2012 and September 2012, and

                                          MSHA Making Progress To Implement Recommendations
                                      1                            Report No. 05-13-003-06-001
                                             U.S. Department of Labor – Office of Inspector General



obtained the status of all recommendations MSHA has yet to implement. For the
Independent Panel report, we interviewed Independent Panel (“Panel”) members to
gain an understanding of the four recommendations contained in the report and
discussed with MSHA officials their implementation status.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

MSHA has made significant progress in implementing the recommendations in the
Internal Review report and select Independent Panel report recommendations. Even
before the Internal Review report was published, MSHA took actions on issues it
identified as highest risk, including, among others, issuing temporary rules on coal dust,
dividing District 4 (where the disaster occurred) into two separate districts to enhance
enforcement, and introducing impact inspections to leverage MSHA’s authority at mines
that merit increased attention and enforcement. Following its initial response, MSHA
adopted a risk- and expediency-based approach to implementing the recommendations
in the Internal Review report, but had no formal prioritization mechanism. MSHA also
put into place an aggressive implementation schedule for the Internal Review report
recommendations intending to implement most recommendations by December 31,
2013.

In the nine and a half months since the Internal Review report was issued, MSHA has
implemented over half the recommendations in the report. Given MSHA’s progress so
far, nothing came to our attention indicating that MSHA would not meet its schedule.

We recommended that MSHA (1) build a process into its Internal Review framework to
rank and prioritize recommendations and (2) continue work on those recommendations
that do not currently have anticipated due dates to ensure they are being diligently
pursued.

MSHA’s RESPONSE

In response to our draft report, the Assistant Secretary for Mine Safety and Health
agreed with all of our recommendations and stated that MSHA was fully committed to
addressing the issues that are identified in this report. His response acknowledged that
MSHA was facing some significant challenges just prior to the UBB disaster. This
included severe losses of managerial and inspection experience through attrition.




                                           MSHA Making Progress To Implement Recommendations
                                       2                            Report No. 05-13-003-06-001
                                              U.S. Department of Labor – Office of Inspector General



The Assistant Secretary agreed with our recommendation that MSHA should prioritize
the implementation of the Internal Review recommendations but opined that MSHA
needs the ability to respond quickly and wants to be careful that any new processes do
not hamstring agency actions. While we agree that the agency needs the ability to
respond quickly to emergencies, we also believe that the time taken to prioritize
recommendations would ensure that MSHA responds more quickly to higher risk issues,
thereby decreasing the risk to miners.

The Assistant Secretary also agreed with our recommendation that MSHA should
continue to work diligently on those recommendations that do not have due dates. He
noted that there are a number of Internal Review recommendations for which MSHA
cannot reasonably set due dates (such as those involving rulemaking, research, legal
reviews, and funding contingencies). While the OIG understands the constraints under
which the agency operates, we believe MSHA must set target dates for engaging
responsible officials to take such actions as rulemaking, research, legal reviews, and
funding contingencies.

Finally, although MSHA maintains that the agency has been in regular communication
with the executive secretary of the Panel, our audit work indicates that this
communication, while at times concerned with matters related to issues identified in the
Independent Panel report, was not directly related to, or resulting from, the report itself.
In addition, MSHA did not meet with the full panel until March 20, 2013.

The Assistant Secretary’s entire response is contained in Appendix D.




                                            MSHA Making Progress To Implement Recommendations
                                        3                            Report No. 05-13-003-06-001
                                              U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective 1 — What methodology did MSHA use to prioritize the
              recommendations for implementation?

       MSHA exposes itself to the unnecessary risk that recommendations in future
       Internal Review reports will not be appropriately prioritized because it has not
       formally defined its prioritization methods.

MSHA informally prioritized the recommendations in the Internal Review report based
on several factors including risk, availability of resources, expediency, and ease of
implementation. However, MSHA did not rank or otherwise prioritize the Independent
Panel report recommendations.

MSHA informally prioritized the Internal Review report recommendations

MSHA informally prioritized the recommendations in the Internal Review report based
on several factors including risk, availability of resources, expediency, and ease of
implementation. Specifically, MSHA determined that recommendations involving
deficiencies in Districts 4 and 12 were the most critical and most likely to recur. As a
result, MSHA gave these recommendations high priority. MSHA also prioritized
recommendations involving specific types of training (such as training related to the
approval of mine and training plans, respirable dust, and mine rescue and recovery).
MSHA Took Actions Prior to Report’s Issuance
Instead of waiting for the Internal Review team to complete its work, MSHA took action
immediately after the tragedy to implement a number of actions, initiatives, and key
reforms. According to MSHA, it:
   •   Issued an Emergency Temporary Standard, which became a final rule on June
       21, 2011, that increased the minimum incombustible content of mine dust to at
       least 80 percent throughout a coal mine.
   •   Aggressively enhanced enforcement in a number of areas identified early,
       including advance notice of inspections, miner’s claims of discrimination, mine
       ventilation and prevention of coal dust explosions.
   •   Divided District 4 into two separate districts in June 2011. The creation of the
       new District 12 doubled the number of specialist departments.
   •   Introduced impact inspections to leverage MSHA’s authority at mines that merit
       increased attention and enforcement due to poor compliance histories or
       particular compliance concerns.
   •   Strengthened MSHA’s potential pattern of violation (PPOV) process to hold mine
       operators to a higher standard.
   •   Began overhauling agency inspection policies to improve the quality of
       inspections.

MSHA believes that these actions have resulted in improvements to mine safety and
health by reducing the number of chronic violators identified as PPOV mines. Further,

                                            MSHA Making Progress To Implement Recommendations
                                        4                            Report No. 05-13-003-06-001
                                                    U.S. Department of Labor – Office of Inspector General



MSHA noted that the number of mining fatalities and injuries in 2011 were at their
lowest levels since MSHA began compiling statistics.

MSHA also considered the degree of expediency and ease of implementation of
recommendations as they related to the availability of resources. For example, MSHA
determined that some types of training (such as that related to ventilation and roof
control plans) would be easier and faster to implement than making revisions to policies
and procedures, which would necessitate collaboration with external stakeholders, such
as the National Council of Field Labor Locals. By September 30, 2012, MSHA had
implemented 80 percent of training-related recommendations, but only 20 percent of
policy and procedure-related recommendations.
To gain a better understanding of how MSHA prioritized the 100 recommendations in
the Internal Review report for implementation, the OIG classified them into six broad
categories: (1) training; (2) information systems; (3) policies and procedures; (4) human
resources and succession planning; (5) rulemaking; and (6) collaboration with external
entities. Table 1 shows the broad categories of recommendations MSHA implemented
by September 30, 2012, December 31, 2012, February 11, 2013, and those
recommendations that remain to be implemented.

Table 1: Implementation of Recommendations by Broad Category Identified



                                                                                                         #
                                                                                            Implemented
                                                                        #               #   by 2/11/13 or
         Broad Category of                   Total # of      Implemented    Implemented        Still to be
#        Recommendation                Recommendations         by 9/30/12     by 12/31/12   implemented
1        Training                                       20            16               1                3
2        Information Systems                            13             9               1                3
3        Policies and Procedures                        55            11              14               30
         Human Resources and
4        Succession Planning                             5             1               --               4
5        Rulemaking                                      5             --              --               5
         Collaboration with External
6        Entities                                        2             1               --               1
                                                                                                         1
Totals                                                 100            38              16              46



MSHA combined many of the Independent Panel report recommendations into the
Internal Review actions and plans already underway but did not rank or prioritize
them

While MSHA did not formally rank or prioritize the Independent Panel report
recommendations, the agency combined many of these recommendations into the
Internal Review actions and plans already underway. MSHA intends to partially

1
 Two recommendations categorized as related to Human Resources and Succession Planning were implemented on
February 11, 2013.

                                                  MSHA Making Progress To Implement Recommendations
                                              5                            Report No. 05-13-003-06-001
                                             U.S. Department of Labor – Office of Inspector General



implement recommendation 1, fully implement recommendations 2 and 4, and has
implemented an alternative to recommendation 3.

Exhibit 3 shows the four Independent Panel report recommendations, the suggested
goals underlying each recommendation, which goals MSHA believes have merit, and
MSHA’s response.

Finding 1 — A defined approach for prioritizing Internal Review report
              recommendations for implementation will prove beneficial

While MSHA informally prioritized the Internal Review report recommendations for
implementation based on a number of factors, including risk, MSHA’s policies and
procedures do not currently include a requirement for a defined prioritization approach.
The OIG believes that the agency should revise its internal review policies and
procedures to require that corrective actions be prioritized for implementation using a
defined, but flexible (for example, risk-based) approach at the time an internal review is
performed so it does not expose itself to the unnecessary risk that recommendations in
future internal review reports will not be appropriately prioritized. The authors of the
internal review report will be most familiar with the criticality of individual
recommendations, and thus best positioned to assess the appropriate prioritization for
implementation.

Objective 2 — Can MSHA document the recommendations reported as
              completed?

       MSHA provided sufficient documentation to support implementation of the
      Internal Review report recommendations reported as completed, along with the
      Independent Panel recommendations it has fully implemented.

MSHA provided sufficient documentation to support the implementation of all 38
recommendations the agency reported it completed by September 30, 2012. Moreover,
MSHA has taken partial corrective action on three additional recommendations; these,
however, were not reported as complete because the recommendations contained more
than one required action. To its credit, MSHA has adopted a transparent web-based
public reporting mechanism and robust process for verifying the implementation of
recommendations before reporting them as complete.

Since MSHA has not yet taken all planned action on the Independent Panel report
recommendations it intends to implement, no documentation supporting their
implementation is required at this time. However, MSHA has provided the OIG with
documentation in support of actions both completed and in progress to address these
recommendations.




                                           MSHA Making Progress To Implement Recommendations
                                       6                            Report No. 05-13-003-06-001
                                                  U.S. Department of Labor – Office of Inspector General



Objective 3 — Is MSHA on track to meet its milestones for implementation of
              recommendations?

      Barring unforeseen circumstances, MSHA appears to be on track to meet its
      milestones for implementing most of the Internal Review report
      recommendations. The agency has also been undertaking actions on the
      Independent Panel report.

In the nine and a half months since the Internal Review report was issued, MSHA has
implemented well over half the recommendations in the report. To accomplish this,
MSHA convenes weekly meetings at various levels of the agency, including at the
highest level of the Assistant Secretary, to monitor the status and progress of
implementation. Nothing came to our attention that would indicate that MSHA will not
meet its current implementation schedule.

Although it issued a brief public response to the report, MSHA had not engaged in
substantive discussions with the Panel until March 20, 2013, and does not intend to fully
implement two of the Independent Panel report’s four recommendations.

MSHA appears to be on track to meet its Internal Review report implementation
milestones

In our opinion, MSHA seems to be on track to meet its milestones for implementation of
the remaining recommendations that have due dates. As of February 11, 2013, MSHA
indicated it had implemented 56 of the 100 recommendations (56 percent); further,
MSHA had implemented several recommendations ahead of schedule. As of February
11, 2013, MSHA told the OIG it was moving steadily forward in implementing the 44
remaining recommendations, and shared some of its ongoing work with the OIG. MSHA
has not set due dates for implementation of recommendations, such as those involving
rulemaking, funding contingencies, research, and legal reviews.

Table 2 shows MSHA’s progress in implementing the 100 recommendations.

        Table 2: Implementation Schedule

                                                                Number      Remaining to be
        Projected Implementation Date                      Implemented        Implemented
        June 2012                                                   22                    -
        September 2012                                              16                    -
                      Sub-total (Sept 30)                           38                    -
        December 2012                                               16                    -
        February 2013                                                2
        December 2013                                                                    35
        No Date Set                                                   -                   9
                      Total                                          56                  44




                                                MSHA Making Progress To Implement Recommendations
                                            7                            Report No. 05-13-003-06-001
                                             U.S. Department of Labor – Office of Inspector General



MSHA is undertaking actions on the Independent Panel report

Our review found that although MSHA was planning to implement much of what was
recommended in the Independent Panel's report, it was not planning to implement all of
the recommendations, and we believed that MSHA had been somewhat slow to engage
the Panel in order to clarify the meaning and underlying intent of the report’s
recommendations. However, based on this observation during our audit, MSHA did
engage the Panel to discuss and clarify certain recommendations. As noted below, of
the four recommendations, MSHA is adopting two and partially adopting the other two.

MSHA intends to implement Independent Panel recommendations 2 and 4

MSHA concurs with the substance of and intends to implement the second and fourth
recommendations of the Independent Panel report.

The Panel’s second recommendation calls for the improvement of the scope and value
of MSHA’s internal reviews. MSHA agrees with this recommendation and is already in
the process of revising its Administrative Policy and Procedures Manual (APPM) which
governs its internal review procedures. In this regard, MSHA believes that its internal
review interviews could be better, and it is exploring options, such as greater
involvement by the Office of the Solicitor (SOL) in providing special training on interview
techniques for those who conduct interviews. MSHA plans to finalize revisions to the
APPM by the end of Fiscal Year (FY) 2013.

The Panel’s fourth recommendation asks MSHA to address technical deficiencies in
current mining practice that could compromise safety. While the Independent Panel
report itself states that this recommendation is outside the scope of the Internal Review,
MSHA believes that the six goals underlying this recommendation have merit and it has
either taken or plans to take some action on them. For example, one goal calls for
MSHA to develop best practices for employing monitoring systems to detect unexpected
changes to ventilation systems and to identify and forecast potentially dangerous
conditions. In response, MSHA acknowledged that the application of improved
atmospheric monitoring technology is long overdue and MSHA supports improvements
in this technology to enhance the safety of underground miners. It further indicated it
provided technical advice on this technology to congressional drafters of the Robert C.
Byrd Safety Protection Act (Byrd Act), introduced in both the U.S. Senate and House of
Representatives in 2010.

MSHA intends to implement portions of Independent Panel recommendations 1 and 3

MSHA does not intend to fully implement the first and third recommendations of the
Independent Panel report. However, MSHA believes that a number of goals underlying
these recommendations have merit and it has either taken or plans to take some action
on them.




                                           MSHA Making Progress To Implement Recommendations
                                       8                            Report No. 05-13-003-06-001
                                             U.S. Department of Labor – Office of Inspector General



The Panel’s first recommendation calls for the modification of the strategic paradigm
that informs MSHA’s enforcement framework. While the Independent Panel report
acknowledges that this recommendation is outside the scope of its charge, MSHA
believes that six of the eight goals underlying this recommendation have merit and it
has either taken or plans to take some action on them. However, MSHA disagrees in
substance with two of the goals the Panel suggested. For example, the Panel
suggested that an independent panel of experts be convened to examine changes to
MSHA’s existing enforcement paradigm. In response, MSHA believes that making some
of the Federal Mine Safety and Health Act of 1977 (Mine Act) changes the Panel
suggested this panel consider would not be in the interest of miner safety. According to
MSHA, the requirement to conduct the currently mandated inspections at underground
mines is central to the effectiveness of the Mine Act given that frequent MSHA
inspections identify and require the correction of hazards and violations that have not
been corrected by the mine operator, thereby protecting miners from harm. As such,
MSHA believes that making this change suggested by the Panel could well reverse the
long-term safety and health gains made under the current approach. The OIG also
notes that the United Mine Workers of America concurred with MSHA with respect to
this issue.

Prior to the issuance of our draft audit report, the OIG made a recommendation to
MSHA that it convene a meeting with the Panel to discuss and clarify the Panel’s
recommendations. Following this, MSHA met with the Panel to discuss its report. The
OIG also interviewed the executive secretary of the Panel shortly after the meeting took
place. The Panel clarified to the OIG its intent regarding the first recommendation with
regard to replacing technical goals with performance standards, and changing the
frequency of mine inspections, stating these represented examples of actions that
MSHA could take to inform its paradigm. The Panel further stated that the goals it
proposed were suggestions, rather than specific actions required in order to accomplish
the recommendation’s intent. The Panel underlined the fact that it did not expect MSHA
to adhere to a specific prescription with respect to this recommendation, but instead
view the recommendation as a broad and flexible goal. As a result of the meeting, the
Panel was encouraged that it and MSHA would continue working together to effect
action on the Panel’s recommendations.

The Panel’s third recommendation asks MSHA to ensure that corrective actions
associated with internal review recommendations are effectively implemented.
Specifically, the Panel suggested that an independent monitor be appointed to oversee
implementation of MSHA’s corrective actions. MSHA disagrees with this
recommendation and does not support the need for an independent monitor. However,
it should be noted that MSHA has put in place a number of alternative measures to hold
itself accountable for the implementation of the corrective actions. In this regard, MSHA
has set up a review process to ensure its program areas are implementing corrective
actions and reporting their results timely. According to MSHA, the final review of the
implementation of all corrective actions is made by the Office of the Assistant Secretary
(OAS). In addition, MSHA’s newly organized Office of Assessments, Accountability,
Special Enforcement and Investigations (OAASEI) has been charged with evaluating

                                           MSHA Making Progress To Implement Recommendations
                                       9                            Report No. 05-13-003-06-001
                                          U.S. Department of Labor – Office of Inspector General



the effectiveness of MSHA’s corrective actions. OAASEI is developing a plan to
evaluate the effectiveness of MSHA’s corrective actions which MSHA says should be
completed in FY 2013. The Panel stated that the intent of this recommendation was to
ensure that actions required as a result of future MSHA internal reviews were
completed. According to the Panel, previous internal reviews had repeatedly made
recommendations of a similar nature to MSHA. Because of this, the Panel concluded
that past Internal Review recommendations had not been implemented.

CONCLUSION

Overall, we found that MSHA has taken concerted action, beginning well before the
issuance of the Internal Review report, to address the shortcomings in its processes.
MSHA has implemented an aggressive implementation schedule for the
recommendations in the Internal Review report, and has so far met its targets.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Mine Safety and Health direct MSHA to:

   1. Build a process into its internal review framework to rank and prioritize
      recommendations; and
   2. Continue work on those recommendations that do not currently have anticipated
      due dates to ensure they are being diligently pursued.
We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                       MSHA Making Progress To Implement Recommendations
                                      10                        Report No. 05-13-003-06-001
              U.S. Department of Labor – Office of Inspector General




Exhibits




            MSHA Making Progress To Implement Recommendations
           11                        Report No. 05-13-003-06-001
                         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       MSHA Making Progress To Implement Recommendations
        12                                      Report No. 05-13-003-06-001
                                                                                                                         U.S. Department of Labor – Office of Inspector General



                                                                                                                                                                               Exhibit 1
 Listing of 38 Internal Review Recommendations Reviewed by OIG

                                                                                                                                                                      Revised
                                                                                                                                                         Expected                     Actual
                                                                                                                                                                      Expected
Count     Category 2    Lead                 Recommendation                                    Corrective Action Taken                       Status     Completion                  Completion
                                                                                                                                                                     Completion
                                                                                                                                                           Date                        Date
                                                                                                                                                                        Date
                                                                                  The Director of EPD determined that it was feasible
                                                                                  to require that a representative number of
                                                                                  independent contractor training classes be
                                                                                  monitored by EFS. The Administrator for Coal
                                The Director of Educational Policy and
                                                                                  Mine Safety and Health (CMS&H) issued a
                                Development (EPD) should evaluate the
                                                                                  memorandum to the district managers with
                                feasibility of requiring a representative
  1           PP        EPD                                                       instructions for mine operators, contractors, and         Completed    04/30/12        ---         05/03/12
                                number of independent contractor training
                                                                                  contract trainers to provide notification of training
                                classes to be monitored by Educational Field
                                                                                  under Part 48 to EPD. EPD established an email
                                Services (EFS).
                                                                                  address for the mining industry to use to provide
                                                                                  their upcoming training schedules. This will give
                                                                                  EPD training specialists the opportunity to monitor
                                                                                  training classes.

                                                                                  On April 4, 2012, Educational Field Specialists
                                                                                  participated in a joint training program for District 4
                                                                                  and 12 inspectors, specialists, and management at
                                                                                  the National Mine Health and Safety Academy.
                                The Administrator for CMS&H should
                                                                                  The EFS staff developed and delivered a program
                                collaborate with the Director of EPD to
                                                                                  entitled; “Part 48.3 Enforcement, Training Plan
                                update the training programs for entry-level
                                                                                  Reviews and Miner Training.” The training covered
                                and journeyman inspectors to emphasize the
                                                                                  an overview of Part 48 and Part 48 inspection
                                value of a purposeful examination of training
                                                                                  procedures and emphasized a purposeful
                                records and to guide inspectors on how to
                                                                                  examination of training records and guidance to
  2           T         EPD     effectively determine compliance with Part 48                                                               Completed    06/30/12        ---         06/29/12
                                                                                  inspectors on how to effectively determine
                                and other training requirements. The
                                                                                  compliance with Part 48 and other training
                                guidance in CMS&H Memo No. HQ-08-055-
                                                                                  requirements. The guidance in CMS&H Memo No.
                                A that directs inspectors to question miners
                                                                                  HQ-08-055-A was also addressed in the April
                                on their training related to roof control plans
                                                                                  training. The training program was distributed to all
                                and documents such information should also
                                                                                  CMS&H districts. District personnel completed the
                                be addressed in this training.
                                                                                  training by June 29, 2012. EPD also developed
                                                                                  two online annual refresher training courses
                                                                                  covering Part 48 and Part 48 inspection
                                                                                  procedures.



 2
     See Legend at the end of Exhibit 2.

                                                                                                                     MSHA Making Progress To Implement Recommendations
                                                                                  13                                                          Report No. 05-13-003-06-001
                                                                                                                   U.S. Department of Labor – Office of Inspector General


                                                                                                                                                              Revised
                                                                                                                                                 Expected                   Actual
                   2                                                                                                                                          Expected
Count   Category       Lead                Recommendation                                  Corrective Action Taken                   Status     Completion                Completion
                                                                                                                                                             Completion
                                                                                                                                                   Date                      Date
                                                                                                                                                                Date




                                                                              PEIR collaborated with CMS&H to modify the MPA
                                                                              database system to track operator responses to
                                                                              MSHA requests for plan revisions. The
                                                                              modifications were deployed on August 3, 2012.

                              The Director of Program Evaluation and          On August 30, 2012, the Administrator for CMS&H
                              Information Resources (PEIR) should             directed district managers to use the MPA
                              collaborate with the Administrator for CMS&H    database system to identify overdue responses
                              to revise the Mine Plan Approval (MPA)          from operators and take appropriate actions.
  3        IS          PEIR   database system to track operator responses                                                           Completed    08/03/12        ---       08/30/12
                              to MSHA requests for plan revisions. The        NOTE: The recommendation also provided that
                              Administrator should direct district managers   the Administrator for CMS&H should direct District
                              to use MPA to identify overdue responses        4 and 12 managers to develop and follow a
                              from operators and take appropriate actions.    process for ensuring that operators submit revised
                                                                              plans when requested, and taking appropriate
                                                                              enforcement actions when operators fail to do so.
                                                                              This recommendation was satisfied by PEIR’s
                                                                              development of the online tool for use by districts
                                                                              for tracking plan due dates.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                              14                                                         Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                                                                               Revised
                                                                                                                                                  Expected                   Actual
                   2                                                                                                                                           Expected
Count   Category       Lead                 Recommendation                                 Corrective Action Taken                    Status     Completion                Completion
                                                                                                                                                              Completion
                                                                                                                                                    Date                      Date
                                                                                                                                                                 Date




                                                                               This recommendation was addressed during the
                                                                               District 4 and 12 training sessions at the National
                                                                               Mine Health and Safety Academy on April 3 and 4,
                                                                               2012. This training will also be provided to all
                                                                               CMS&H districts.

                               The Administrator for CMS&H should direct       Enforcement personnel were instructed that MSHA
                               that District 4 and 12 managers reinforce       policy only allows violations of 30 CFR 48.5, 48.6,
                               MSHA policy and procedure concerning            48.7, 48.8, and 48.11 to be cited under Section
  4        T           CMS&H   standards that can be cited as Section          104(g)(1) of the Mine Act for untrained miners at     Completed    04/30/12        ---       04/04/12
                               104(g)(1) training orders and on records that   underground mines.
                               must be inspected to ensure that an operator
                               is providing all required training.             Enforcement personnel also were trained on
                                                                               records that must be inspected to ensure that an
                                                                               operator is providing all required training. This
                                                                               includes checking training records for Atmospheric
                                                                               Monitoring System (AMS) operators, responsible
                                                                               persons, and persons who sample atmospheres
                                                                               behind seals.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                               15                                                        Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                                                                               Revised
                                                                                                                                                  Expected                   Actual
                   2                                                                                                                                           Expected
Count   Category       Lead                Recommendation                                  Corrective Action Taken                    Status     Completion                Completion
                                                                                                                                                              Completion
                                                                                                                                                    Date                      Date
                                                                                                                                                                 Date




                                                                              On April 3 and 4, 2012, District 4 and 12
                                                                              inspectors, specialists, and management were
                                                                              provided training on longwall electrical
                                                                              permissibility. The training took place at the
                                                                              National Mine Health and Safety Academy. The
                                                                              training program was distributed to all CMS&H
                              The Assistant Secretary should instruct the     districts. To better administratively manage the
                              Directors of EPD and Technical Support (TS)     agency workload, this training was added to
                              to develop and provide advanced technical       district-wide training of personnel and completed by
  5        T           EPD    training on longwall mining equipment. This     September 30, 2012. In May 2012, the expected          Completed    09/01/12     09/30/12     09/30/12
                              training should be provided to MSHA regular     completion date of the training was extended to
                              inspectors who are qualified electricians and   September 30, 2012, so this training could occur at
                              electrical specialists agency-wide.             the same time as training on other internal review
                                                                              recommendations. District personnel completed
                                                                              this training by September 30, 2012.

                                                                              In addition, the updates have been incorporated
                                                                              into all training programs relating to electrical
                                                                              inspections of longwall mining equipment.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                              16                                                         Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                Revised
                                                                                                                                                   Expected                   Actual
                   2                                                                                                                                            Expected
Count   Category       Lead                Recommendation                                  Corrective Action Taken                     Status     Completion                Completion
                                                                                                                                                               Completion
                                                                                                                                                     Date                      Date
                                                                                                                                                                  Date



                              The Administrator for CMS&H should
                              collaborate with the Director of EPD to revise
                              the curriculum at the National Mine Health
                              and Safety Academy regarding inspection
                              procedures for evaluating operator
                              compliance with examination standards. The
                              training should explain the purpose and
                              utilization of an inspector’s review of mine
                              examination records. This training should be
                                                                               EPD, in collaboration with CMS&H, revised the
                              provided to entry-level inspectors,
                                                                               curriculum regarding inspection procedures for
                              journeyman inspectors, specialists,
                                                                               evaluating operator compliance with examination
                              supervisors, and assistant district managers.
                                                                               standards. The training also explained the purpose
                              The training should provide instructions on:
                                                                               and utilization of an inspector’s review of mine
                                                                               examination records. The training provides
                              • determining whether adequate
                                                                               instructions on each of the items contained in this
                              examinations have been conducted;
                                                                               recommendation and will continue to be included in
                              • determining whether the operator has
                                                                               the journeyman, specialist, supervisory, and entry-
                              recorded in the examination book the specific
  6        T           EPD                                                     level training.                                        Completed    08/31/12     09/30/12     09/28/12
                              corrective action taken to eliminate the
                              hazard;
                              • identifying incomplete records of
                                                                               CMS&H provided training on this topic during the
                              examinations, including missing air quantities
                                                                               District 4 and 12 training sessions at the National
                              and air quality measurements;
                                                                               Mine Health and Safety Academy on April 3 and 4,
                              • using examination records to aid in the
                                                                               2012. To better administratively manage the
                              enforcement of 30 CFR 75.360, 75.362,
                                                                               agency workload, this training was added to
                              75.363, and 75.364;
                                                                               district-wide training of personnel and completed by
                              • traveling with and evaluating at least one
                                                                               September 30, 2012.
                              preshift examiner, one on-shift examiner, and
                              one weekly examiner during each regular
                              inspection;
                              • determining whether the operator
                              conducted on-shift examinations of dust
                              control parameters; and
                              • using examination records in the evaluation
                              of the operator’s negligence for violations of
                              other safety and health standards.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                               17                                                        Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                Revised
                                                                                                                                                   Expected                   Actual
                   2                                                                                                                                            Expected
Count   Category       Lead                 Recommendation                                  Corrective Action Taken                    Status     Completion                Completion
                                                                                                                                                               Completion
                                                                                                                                                     Date                      Date
                                                                                                                                                                  Date


                                                                                The National Mine Health and Safety Academy
                                                                                held a three-day training session for CMS&H
                                                                                supervisors in August 2012. The training, in part,
                                                                                stressed the importance of rock dusting to prevent
                                                                                coal mine dust explosions and included instructions
                                                                                on the proper use of the rock dust database and
                               The Administrator for CMS&H should direct
                                                                                using sampling oversight reports to ensure
                               that training be provided to supervisors on
                                                                                inspectors have valid reasons for not collecting
                               using standard oversight reports to ensure
                                                                                rock dust samples, including visiting some areas
  7        T           CMS&H   inspectors have valid reasons for not                                                                  Completed    09/30/12        ---       09/30/12
                                                                                that inspectors indicated were too wet to sample.
                               collecting samples, including visiting some
                               areas that inspectors indicated were too wet
                                                                                The Administrator for CMS&H also directed all field
                               to sample.
                                                                                office supervisors to review PowerPoint
                                                                                presentations on the utilization of the rock dust
                                                                                database and the importance of maintaining the
                                                                                incombustible content of rock dust mine-wide. Field
                                                                                office personnel completed the training by
                                                                                September 30, 2012.




                               The Administrator for CMS&H should
                               collaborate with the Director of TS and the      On May 24, 2012, MSHA and NIOSH experts held
                               National Institute for Occupational Safety and   an in-person meeting to discuss MSHA’s proposed
                               Health (NIOSH) to develop a standard             revised rock dust sampling method, which involves
                               method for collecting mine dust samples for      several substantial improvements from previous
  8        PP           TS     operators and inspectors to use to determine     practice and meets the goal of the internal review    Completed    06/01/12        ---       05/24/12
                               compliance with 30 CFR 75.403. The agency        recommendation. This proposed method takes into
                               should consider recent research regarding        consideration recent research regarding sample
                               sample collection methodology, including that    collection methods, and MSHA is continuing to
                               related to sample depth and elevated             work with NIOSH on refining it.
                               surfaces.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                18                                                        Report No. 05-13-003-06-001
                                                                                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                     Revised
                                                                                                                                                        Expected                   Actual
                   2                                                                                                                                                 Expected
Count   Category       Lead                  Recommendation                                    Corrective Action Taken                      Status     Completion                Completion
                                                                                                                                                                    Completion
                                                                                                                                                          Date                      Date
                                                                                                                                                                       Date

                                                                                  This recommendation was addressed during the
                                                                                  District 4 and 12 training sessions at the National
                                                                                  Mine Health and Safety Academy on April 3 and 4,
                                                                                  2012. This training will also be provided to all
                                                                                  CMS&H districts.
                               The Administrator for CMS&H should direct
                               the District 4 and 12 Managers to reinstruct
                                                                                  Inspectors were reinstructed to review required
                               inspectors in the General Coal Mine
                                                                                  records and postings, including Mine Accident,
                               Inspection Procedures and Inspection
                                                                                  Injury, and Illness Reports (MSHA Form 7000-1)
                               Tracking System Handbook directive to
  9        T           CMS&H                                                      and Quarterly Employment and Coal Production             Completed    04/30/12        ---       04/04/12
                               check and document checking Part 50
                                                                                  Reports (MSHA Form 7000-2) during each regular
                               records during every regular inspection. The
                                                                                  inspection. This will help identify mine operators
                               district managers should hold inspection
                                                                                  that routinely underreport or inaccurately report
                               supervisors accountable for enforcing
                                                                                  accidents, injuries, illnesses, employment, and
                               compliance with this directive.
                                                                                  production.

                                                                                  The district managers were instructed to hold
                                                                                  supervisors accountable for enforcing compliance
                                                                                  with this directive.




                                                                                  The Electrical Safety Division of TS provided
                               The Administrator for CMS&H should
                                                                                  refresher training on the recognition of electrical
                               collaborate with the Directors of EPD and TS
                                                                                  violations to regular inspectors during the District 4
                               to provide refresher training for District 4 and
 10        T            EPD                                                       and 12 training sessions at the National Mine            Completed    04/30/12        ---       04/04/12
                               12 regular inspectors to assure they have
                                                                                  Health and Safety Academy on April 3 and 4, 2012.
                               appropriate skills to ensure uniform
                                                                                  This training will also be provided to all CMS&H
                               recognition of electrical violations.
                                                                                  districts.




                                                                                                                     MSHA Making Progress To Implement Recommendations
                                                                                  19                                                          Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                Revised
                                                                                                                                                   Expected                   Actual
                   2                                                                                                                                            Expected
Count   Category       Lead                Recommendation                                  Corrective Action Taken                     Status     Completion                Completion
                                                                                                                                                               Completion
                                                                                                                                                     Date                      Date
                                                                                                                                                                  Date
                                                                               MSHA held the Mine Rescue Summit at the
                                                                               National Mine Health and Safety Academy on May
                                                                               7 and 8, 2012. Nearly 150 people participated
                                                                               during the two-day event, which was planned to
                                                                               coincide with the West Virginia Alliance Mine
                                                                               Rescue Skills Contest. The Assistant Secretary
                                                                               convened a panel of experts at the Summit to
                                                                               address critical mine rescue emergency topics,
                                                                               including:

                                                                                    •    Command center operations
                                                                                    •    Command center personnel and family
                                                                                         contacts
                                                                                    •    Improving and preserving mine rescue
                                                                                         programs
                              The Assistant Secretary should convene a              •    Body recovery and use of the special
                              panel of mine rescue experts from industry,                medical response team
                              state and federal government, labor, and              •    Preparation for mine emergencies and
                              academia to review, refine, and develop mine               prevention of mine emergencies
                              rescue and recovery protocol to address               •    Refuge chambers and how they impact
 11        C           OAS    lessons learned from the Upper Big Branch                  mine rescue operations                       Completed      N/A           ---       05/07/12
                              (UBB) disaster. The panel should also                 •    Promoting use of improved technology
                              consider the conditions and events                         for mine rescue
                              surrounding other recent mine accidents,
                                                                                    •    Mine rescue training
                              including events occurring in other countries.
                                                                                    •    Skills training and facilities
                              The panel should include mine rescue team
                                                                                    •    Briefings/Debriefings
                              members or trainers.
                                                                                    •    Whether to require a “firewall” to prevent
                                                                                         personnel who have had contact with
                                                                                         family members from participating in
                                                                                         command center decisions

                                                                               On July 11, 2012, MSHA held a stakeholder
                                                                               meeting concerning mine rescue contests, mine
                                                                               rescue guidance, and other matters. MSHA is in
                                                                               the process of establishing a mechanism where
                                                                               mine emergency guidance and best practices can
                                                                               be updated on an ongoing basis.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                               20                                                        Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                  Revised
                                                                                                                                                     Expected                   Actual
                   2                                                                                                                                              Expected
Count   Category       Lead                 Recommendation                                   Corrective Action Taken                     Status     Completion                Completion
                                                                                                                                                                 Completion
                                                                                                                                                       Date                      Date
                                                                                                                                                                    Date




                                                                                The CMS&H Safety Division provided training on
                                                                                the procedures outlined in the Mine Ventilation Plan
                               The Administrator for CMS&H should direct        Approval Procedures Handbook regarding six-
                               District 4 and 12 managers to provide            month plan reviews to all inspectors and specialists
                               inspectors and specialists with training to      during the District 4 and 12 training sessions at the
                               ensure that six-month reviews are conducted      National Mine Health and Safety Academy on April
                               and documented in accordance with the Mine       3 and 4, 2012 to help ensure that the in-mine
 12        T           CMS&H                                                                                                            Completed    04/30/12        ---       04/04/12
                               Ventilation Plan Approval Procedures             physical inspection of the mine ventilation system is
                               Handbook. District managers should monitor       properly conducted and documented. This training
                               the six-month reviews after the training is      will also be provided to all CMS&H districts.
                               completed to verify its effectiveness and take
                               follow-up corrective action if necessary.        District managers were instructed to monitor the
                                                                                six-month reviews to verify their effectiveness and
                                                                                take follow-up corrective action if necessary.




                                                                                Districts 4 and 12 revised and implemented their
                                                                                ventilation SOPs to incorporate explicit provisions
                               The Administrator for CMS&H should direct        on inter-department communication, maintenance
                               District 4 and 12 managers to revise             of correspondence files, and plan review
                               Standard Operating Procedures (SOP) to           documentation. This will ensure that both the
 13        PP          CMS&H   ensure that both the Health and Ventilation      Health and Ventilation Departments contribute to        Completed    06/30/12        ---       06/28/12
                               Departments contribute to the                    the correspondence sent to mine operators after
                               correspondence sent to mine operators after      each six-month ventilation plan review. District 4’s
                               each six-month ventilation plan review.          SOP was issued and implemented on June 27,
                                                                                2012. District 12’s SOP was issued and
                                                                                implemented on June 28, 2012.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                21                                                         Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                Revised
                                                                                                                                                   Expected                   Actual
                   2                                                                                                                                            Expected
Count   Category       Lead                 Recommendation                                   Corrective Action Taken                   Status     Completion                Completion
                                                                                                                                                               Completion
                                                                                                                                                     Date                      Date
                                                                                                                                                                  Date




                               The Administrator for CMS&H should direct
                               the District 4 and 12 managers to revise the
                                                                                Districts 4 and 12 revised and implemented their
                               technical department SOPs to provide for the
                                                                                technical department SOPs to incorporate explicit
                               review of each proposed plan or revision by
                                                                                provisions on inter-department communication,
                               appropriate technical departments to check
                                                                                maintenance of correspondence files, and plan
                               for consistency with other plans approved for
                                                                                review documentation. Additionally, both district
                               the mine. A method for documenting this
 14        PP          CMS&H                                                    SOPs prohibit stand-alone Methane and Dust            Completed    06/30/12        ---       06/28/12
                               process should be established. These SOPs
                                                                                Control Plans and require them to be incorporated
                               should direct specialists to maintain a record
                                                                                in a single mine ventilation plan. District 4’s SOP
                               of all written correspondence with mine
                                                                                was issued and implemented on June 27, 2012.
                               operators regarding proposed plan reviews,
                                                                                District 12’s SOP was issued and implemented on
                               particularly regarding changes to proposed
                                                                                June 28, 2012.
                               plans submitted by operators during the
                               review process.




                               The Administrator for CMS&H should direct
                                                                                In April 2012, the Administrator for CMS&H revised
                               the revision of the Program Policy Manual
                                                                                the PPM provision governing the establishment of
                               (PPM) to apply reduced respirable dust
                                                                                MMU numbers under 30 CFR 70.207. The revised
                               standards, including those from deactivated
 15        PP          CMS&H                                                    policy provides that the reduced respirable dust      Completed    06/30/13        ---       04/25/12
                               Mechanized Mining Units (MMU), to other
                                                                                standard, due to the presence of quartz, will not
                               MMUs working in the same section of the
                                                                                change when the operator changes equipment on a
                               mine with similar mining equipment, until
                                                                                mining section.
                               sampling establishes a new standard.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                22                                                         Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                   Revised
                                                                                                                                                      Expected                   Actual
                   2                                                                                                                                               Expected
Count   Category       Lead                  Recommendation                                  Corrective Action Taken                      Status     Completion                Completion
                                                                                                                                                                  Completion
                                                                                                                                                        Date                      Date
                                                                                                                                                                     Date


                                                                                The Administrator for CMS&H directed staff to
                               The Administrator for CMS&H should direct        monitor the implementation of new regulations to
                               staff to monitor the implementation of new       ensure districts enforce the provisions of final rules
 16        PP          CMS&H   regulations to ensure districts enforce the      within the effective dates specified. This will be       Completed    04/30/12        ---       04/03/12
                               provisions of final rules within the effective   tracked through Field Activity Reviews,
                               dates specified.                                 Accompanied Activities, Second Level Reviews,
                                                                                and District Peer Reviews.




                                                                                District 4 and 12 inspectors, specialists, and
                                                                                management were provided training on inspections
                               The Administrator for CMS&H should direct        of haulage ventilation controls including
                               that training be provided to enforcement         construction, maintenance, and equipment doors
 17        T           CMS&H   personnel, including supervisors and             during the training sessions at the National Mine        Completed    06/30/12        ---       06/29/12
                               managers, to apply the policy during             Health and Safety Academy on April 3 and 4, 2012.
                               inspections of haulage ventilation controls.     The training program was distributed to all CMS&H
                                                                                districts. District personnel completed the training
                                                                                by June 29, 2012.




                                                                                Districts 4 and 12 revised the roof control plan
                                                                                SOPs to comply with the established PPM
                                                                                requirements as identified by the OIG report and to
                               The Administrator for CMS&H should direct        address deficiencies identified in the Internal
                               the District 4 and 12 managers to revise the     Review report. The SOPs were revised to check
 18        PP          CMS&H   roof control plan SOP to comply with the         that required information is submitted, check for        Completed    04/30/12        ---       04/30/12
                               established PPM requirements as identified       communication with other plan approval groups,
                               by the OIG report.                               assure that designated MSHA personnel contact
                                                                                the operator for additional information, and discuss
                                                                                results of on-site evaluations with the operator and
                                                                                identified miners’ representatives.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                23                                                          Report No. 05-13-003-06-001
                                                                                                                   U.S. Department of Labor – Office of Inspector General


                                                                                                                                                              Revised
                                                                                                                                                 Expected                   Actual
                   2                                                                                                                                          Expected
Count   Category       Lead                 Recommendation                                 Corrective Action Taken                   Status     Completion                Completion
                                                                                                                                                             Completion
                                                                                                                                                   Date                      Date
                                                                                                                                                                Date




                                                                               The CMS&H Safety Division provided training on
                                                                               the six-month reviews of roof control plans as
                               The Administrator for CMS&H should direct       required by 30 CFR 75.223(d) to all inspectors and
                               the District 4 and 12 managers to provide       specialists during the District 4 and 12 training
                               training to inspectors and specialists          sessions at the National Mine Health and Safety
 19        T           CMS&H                                                                                                        Completed    04/30/12        ---       04/03/12
                               regarding the use of the required checklists    Academy on April 3 and 4, 2012. This will help
                               and proper documentation of six-month plan      ensure that the in-mine physical evaluation of the
                               reviews.                                        roof control plan is properly conducted and
                                                                               documented. This training will also be provided to
                                                                               all CMS&H districts.




                                                                               MSHA issued Procedure Instruction Letter No. I11-
                                                                               V-1 on January 25, 2011 to provide guidance on
                                                                               when six-month reviews of complex roof control
                                                                               plans should be forwarded to TS for evaluation.
                               The Administrator for CMS&H should direct
                               the District 4 and 12 managers to ensure that
                                                                               The CMS&H Safety Division provided training on
                               the six-month reviews of roof control plans
                                                                               the six-month reviews of roof control plans as
                               for complex mines be conducted by roof
 20        T           CMS&H                                                   required by 30 CFR 75.223(d) to all inspectors and   Completed    04/30/12        ---       04/04/12
                               control specialists. When deemed
                                                                               specialists during the District 4 and 12 training
                               appropriate, complex mine plans should
                                                                               sessions at the National Mine Health and Safety
                               continue to be forwarded to TS for
                                                                               Academy on April 3 and 4, 2012. This included
                               evaluation.
                                                                               guidance that reviews of plans for complex mines
                                                                               should be completed by roof control specialists or
                                                                               forwarded to TS when appropriate. This training
                                                                               will also be provided to all CMS&H districts.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                               24                                                        Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                    Revised
                                                                                                                                                       Expected                   Actual
                   2                                                                                                                                                Expected
Count   Category        Lead                 Recommendation                                  Corrective Action Taken                       Status     Completion                Completion
                                                                                                                                                                   Completion
                                                                                                                                                         Date                      Date
                                                                                                                                                                      Date
                                The Administrators for CMS&H and Metal
                                and Nonmetal Mine Safety and Health
                                (MNMS&H) should re-instruct family liaisons     The Administrator for CMS&H through his district
                                to keep a log of significant events. The        managers and assistant district managers
                                Administrators should direct revisions to the   instructed family liaisons to keep a log of significant
                                instructions in the Headquarters Mine           events and clarified with them handbook
                       CMS&H/
 21        PP                   Emergency Response Guidelines and the           instructions regarding their duties. This instruction     Completed    07/31/12        ---       06/19/12
                       MNMS&H
                                Accident/Illness Investigations Procedures      was provided to all districts between June 8, 2012
                                Handbooks to clarify that notes should be       and June 19, 2012. MNMS&H instructed its family
                                recorded privately away from the areas          liaisons between March 20, 2012, and March 23,
                                where families are gathered and at a time       2012.
                                that does not disrupt the interaction between
                                the liaisons and the family members.




                                                                                CMS&H, MNMS&H, OAASEI, and PEIR developed
                                                                                a management tool to monitor the resources
                                The Administrators for CMS&H and
                                                                                districts devote to special investigations. This tool
                                MNMS&H, the Director of OAASEI, and the
                                                                                tracks the time supervisory, full-time, and collateral
                                Director of PEIR should collaborate in
 22        IS          OAASEI                                                   duty special investigators devote to special              Completed    07/31/12        ---       07/31/12
                                developing a management tool to monitor the
                                                                                investigation activities and allows management to
                                resources districts devote to special
                                                                                monitor personnel resources by program area,
                                investigations.
                                                                                district, field office, and individual. This was
                                                                                completed on July 31, 2012.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                25                                                          Report No. 05-13-003-06-001
                                                                                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                     Revised
                                                                                                                                                        Expected                   Actual
                   2                                                                                                                                                 Expected
Count   Category       Lead                  Recommendation                                    Corrective Action Taken                      Status     Completion                Completion
                                                                                                                                                                    Completion
                                                                                                                                                          Date                      Date
                                                                                                                                                                       Date




                                                                                  The Administrator for CMS&H discussed Special
                                                                                  Investigations (SI) resources and consulted the
                               The Administrator for CMS&H should consult         district managers on staffing needs in their districts
                               with district managers to determine whether        during a meeting on June 12, 2012. The
                               the additional staffing is sufficient to address   Administrator and district managers reviewed the
 23        HR          CMS&H                                                                                                               Completed    06/30/12        ---       06/12/12
                               Section 110(c) special investigation               number of current full-time and collateral duty SI
                               demands, particularly at highly noncompliant       positions, temporary inter-district assignments, and
                               mines.                                             ongoing investigations. The Administrator
                                                                                  approved additional full-time and collateral duty SI
                                                                                  positions in 6 districts.




                                                                                  The Technical Compliance and Investigations
                                                                                  Office of OAASEI provided training on special
                               The Administrator for CMS&H should direct
                                                                                  investigations during the District 4 and 12 training
                               the District 4 and District 12 managers to
                                                                                  sessions at the National Mine Health and Safety
                               require their supervisory special investigators
                                                                                  Academy on April 3 and 4, 2012. The training
                               to prepare and maintain a memorandum
                                                                                  included specific instructions to prepare and
 24        T           CMS&H   detailing the reasons for not conducting a                                                                  Completed    04/30/12        ---       04/03/12
                                                                                  maintain a memorandum detailing the reasons for
                               special investigation in cases where the
                                                                                  not conducting a special investigation when the
                               district manager decides to take no further
                                                                                  district manager decides to take no further action,
                               action, in accordance with the Special
                                                                                  in accordance with the Special Investigations
                               Investigations Procedures Handbook.
                                                                                  Procedures Handbook. This training will also be
                                                                                  provided to all CMS&H districts.




                                                                                                                     MSHA Making Progress To Implement Recommendations
                                                                                  26                                                          Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                 Revised
                                                                                                                                                    Expected                   Actual
                   2                                                                                                                                             Expected
Count   Category       Lead                 Recommendation                                 Corrective Action Taken                      Status     Completion                Completion
                                                                                                                                                                Completion
                                                                                                                                                      Date                      Date
                                                                                                                                                                   Date




                                                                              The Administrator for CMS&H directed revisions to
                                                                              MSHA Form 2000-142 ("MMU/DA/DWP Data") to
                                                                              eliminate the reference “Headquarters Only” for
                                                                              Item 7C. This form is used when assigning new
                                                                              MMUs or updating existing MMUs. The CMS&H
                                                                              Health Division instructed district personnel that the
                               The Administrator for CMS&H should direct
                                                                              applicable dust standard can be manually adjusted
                               revisions to MSHA Form 2000-142 to
                                                                              to maintain a reduced dust standard when the
                               eliminate the reference “Headquarters Only”
                                                                              operator changes equipment on a mining section.
                               for Item 7C and to require the serial number
 25        IS          CMS&H                                                  MSHA distributed the revised form to inspectors via      Completed    05/30/12        ---       04/25/12
                               of the mining machine(s) and an explicit
                                                                              the Inspectors’ Portable Application for Laptops
                               reference to the section or location in the
                                                                              (IPAL) Computer Resources program.
                               mine for each MMU to be recorded for Item
                               11 (Remarks).
                                                                              The revised PPM (April 2012) provides guidance
                                                                              on recording the MMU location in the re-engineered
                                                                              health computer system. The Administrator for
                                                                              CMS&H determined that recording the specific
                                                                              MMU location makes it unnecessary to record
                                                                              individual mining machine serial numbers.




                                                                              From July 24-26, 2012, the CMS&H Health
                                                                              Division, in collaboration with EPD, provided a
                                                                              three-day training to CMS&H health supervisors
                               The Administrator for CMS&H should
                                                                              and health clerks on the revised health policies,
                               collaborate with the Director of EPD to
                                                                              MSHA Form 2000-142, and the new “Abatement
                               provide training on the revised policies for
                                                                              Times for Respirable Dust Citations” report. The
                               district health department supervisors,
 26        T            EPD                                                   training took place at the National Mine Health and      Completed    07/31/12        ---       07/26/12
                               assistant district managers–technical, and
                                                                              Safety Academy. With regard to the district
                               other appropriate CMS&H personnel. This
                                                                              training, on August 1, 2012, the CMS&H Health
                               training should also include procedures for
                                                                              Division confirmed that the training had been
                               using the revised MSHA Form 2000-142.
                                                                              completed by all districts. Additionally, EPD
                                                                              developed course content on the revised MSHA
                                                                              Form 2000-142 for training of potential supervisors.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                              27                                                          Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                   Revised
                                                                                                                                                      Expected                   Actual
                   2                                                                                                                                               Expected
Count   Category       Lead                 Recommendation                                    Corrective Action Taken                     Status     Completion                Completion
                                                                                                                                                                  Completion
                                                                                                                                                        Date                      Date
                                                                                                                                                                     Date


                                                                                 In April 2012, the Administrator for CMS&H revised
                                                                                 the PPM provision governing the establishment of
                                                                                 MMU numbers under 30 CFR 70.207. The revised
                               The Administrator for CMS&H should                policy provides that the reduced respirable dust
                               consider whether it is appropriate to store       standard, due to the presence of quartz, will not
 27        IS          CMS&H   serial numbers and the section/location           change when the operator changes equipment on a         Completed    03/31/12     04/18/12     04/18/12
                               designations for each MMU in the MSHA             mining section. The Administrator for CMS&H
                               enterprise database.                              determined that the revised policy makes it
                                                                                 unnecessary to store the individual mining machine
                                                                                 serial numbers in the respirable coal mine dust
                                                                                 database.




                               The Administrator for CMS&H should direct         The CMS&H Health Division provided training on
                               that training be provided to District 4 and 12    proper procedures for conducting, documenting,
                               inspectors, specialists, supervisors, assistant   and reviewing MSHA respirable dust surveys
 28        T           CMS&H   district managers, and other appropriate          during the District 4 and 12 training sessions at the   Completed    04/30/12        ---       04/04/12
                               personnel on proper procedures for                National Mine Health and Safety Academy on April
                               conducting, documenting, and reviewing            3 and 4, 2012. This training will also be provided to
                               MSHA respirable dust surveys.                     all CMS&H districts.




                                                                                 PEIR developed and implemented a standard
                                                                                 report to track abatement times for respirable dust
                               The Director of PEIR should develop and           violations. The “Abatement Times for Respirable
                               implement a standard report to track              Dust Citations” report allows managers and
                               abatement times for respirable dust               enforcement personnel to track respirable dust
 29        IS          PEIR                                                                                                              Completed    05/30/12        ---       05/30/12
                               violations, and the Administrator for CMS&H       violations from issuance to termination to reduce
                               should direct the Health Division to use the      miners’ exposure to respirable coal mine dust. The
                               report to monitor district performance.           Administrator for CMS&H directed the Health
                                                                                 Division via memorandum to monitor district
                                                                                 performance.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                 28                                                         Report No. 05-13-003-06-001
                                                                                                                   U.S. Department of Labor – Office of Inspector General


                                                                                                                                                              Revised
                                                                                                                                                 Expected                   Actual
                   2                                                                                                                                          Expected
Count   Category       Lead                 Recommendation                                Corrective Action Taken                    Status     Completion                Completion
                                                                                                                                                             Completion
                                                                                                                                                   Date                      Date
                                                                                                                                                                Date
                                                                              The Internal Review report concluded that
                                                                              supervisors did not always identify or require
                                                                              corrections to inspection deficiencies. This topic
                               The Administrator for CMS&H should direct
                                                                              was addressed during the District 4 and 12 training
                               the District 4 and 12 managers to conduct
                                                                              sessions at the National Mine Health and Safety
                               follow-up reviews of inspection reports to
 30        T           CMS&H                                                  Academy on April 3 and 4, 2012. District 4 and 12     Completed    04/30/12        ---       04/04/12
                               evaluate the effectiveness of training
                                                                              managers were directed to conduct follow-up
                               provided and take appropriate corrective
                                                                              reviews of inspection reports to evaluate the
                               actions for any deficiencies identified.
                                                                              effectiveness of all training provided and take
                                                                              appropriate corrective actions for any deficiencies
                                                                              identified.




                                                                              PEIR successfully developed fillable forms for
                                                                              inspectors to use when completing approved forms
                                                                              as part of an inspection or investigation.
                               The Assistant Secretary should instruct the
                               Director of PEIR to develop, to the extent
                                                                              On September 27, 2012, PEIR incorporated fillable
                               possible, fillable forms to be used by
                                                                              forms to be used by inspectors into IPAL. The
                               inspectors when completing approved forms
                                                                              forms are pre-populated with information from the
 31        IS          PEIR    as part of an inspection or investigation.                                                           Completed    09/30/12        ---       09/27/12
                                                                              IPAL database automatically or will populate the
                               These fillable forms should be incorporated
                                                                              rest of the fields based on information entered by
                               into the IPAL application to allow the
                                                                              the inspector. This will save time by limiting the
                               inspector to interact with the directives
                                                                              number of forms that must be filled out manually
                               system in a seamless, user-friendly fashion.
                                                                              while allowing the inspector to interact with the
                                                                              Directives System in a seamless, user-friendly
                                                                              fashion.




                                                                                                               MSHA Making Progress To Implement Recommendations
                                                                              29                                                        Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                   Revised
                                                                                                                                                      Expected                   Actual
                   2                                                                                                                                               Expected
Count   Category       Lead                 Recommendation                                    Corrective Action Taken                     Status     Completion                Completion
                                                                                                                                                                  Completion
                                                                                                                                                        Date                      Date
                                                                                                                                                                     Date




                                                                                 CMS&H and EPD developed a distance learning
                                                                                 training course with a knowledge check for
                              The Administrator for CMS&H and the
                                                                                 temporarily promoted supervisors. This course
                              Director of EPD should develop a training
                                                                                 covers key materials and responsibilities individuals
                              program for temporarily promoted
                                                                                 will need after assuming a new supervisory
                              supervisors to address pertinent parts of the
                                                                                 position. EPD finalized the course on September
                              Coal Mine Safety and Health Supervisor’s
                                                                                 27, 2012.
                              Handbook. This training should include a
 32        T           EPD    knowledge check. Consideration should be                                                                   Completed    09/30/12        ---       09/27/12
                                                                                 In addition, the Administrator for CMS&H provided
                              given to utilizing distance learning options. In
                                                                                 uniform guidance to all district managers and
                              addition, guidelines should be developed for
                                                                                 assistant district managers to provide acting field
                              assistant district managers to provide the
                                                                                 office supervisors with the level of oversight
                              level of oversight necessary for work groups
                                                                                 necessary to manage their work groups on a
                              with inexperienced acting field office
                                                                                 temporary basis. The guidance will be included in
                              supervisors.
                                                                                 each district’s SOP for training newly promoted
                                                                                 field office supervisors.




                              The Director of PEIR should complete
                              revisions to IPAL to provide data-entry            PEIR completed the recommended data-entry and
                              validation and permit inspectors to upload air     upload revisions to IPAL on March 22, 2012. The
 33        IS          PEIR   sample collection data directly to the             automated rules will improve the quality of the data    Completed    03/31/12        ---       07/27/12
                              enterprise database for integration with the       in the air sample database while reducing the data-
                              Laboratory Information Management System           entry workload.
                              (LIMS).




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                 30                                                         Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                 Revised
                                                                                                                                                    Expected                   Actual
                   2                                                                                                                                             Expected
Count   Category       Lead                Recommendation                                   Corrective Action Taken                     Status     Completion                Completion
                                                                                                                                                                Completion
                                                                                                                                                      Date                      Date
                                                                                                                                                                   Date


                                                                               TS and PEIR collaborated to complete planned
                                                                               upgrades to the NADL. This included increased
                                                                               staffing, physical renovations to the facility, new
                                                                               equipment, updated computer systems, and
                                                                               integration of the LIMS into MSHA’s Standardized
                                                                               Information System (MSIS). MSHA inspectors are
                                                                               now able to upload air sample data directly from
                                                                               their laptop computers (through MSIS) to the LIMS
                              The Director of TS should collaborate with
                                                                               instead of having to manually fill out Mine
                              the Director of PEIR to complete planned
                                                                               Atmosphere Sample Record cards. The air
                              upgrades to the National Air and Dust
                                                                               samples are then routed to the lab for analysis.
 34        IS          TS     Laboratory (NADL) to replace outdated                                                                    Completed    12/31/12        ---       09/07/12
                                                                               The redesigned system eliminates duplicate data
                              equipment and computer systems and
                                                                               entry, allows for improved data entry validation, and
                              integrate LIMS into the MSHA enterprise
                                                                               provides the foundation for better management of
                              database.
                                                                               sample data through enforcement and oversight
                                                                               reports.

                                                                               The upgrades to the NADL have resulted in
                                                                               reduced turn-around times for air sample analysis
                                                                               with further improvements expected. The NADL
                                                                               will pursue laboratory accreditation by a nationally
                                                                               recognized body in the future.




                                                                               PEIR deployed IPAL version 3.0.12 on March 22,
                                                                               2012, to address this recommendation. IPAL now
                                                                               appends the text "This violation is an unwarrantable
                              The Director of PEIR should direct
                                                                               failure to comply with a mandatory standard" to the
                              modifications to IPAL to automatically insert
                                                                               Condition or Practice section of a citation or order
                              the following statement into the Condition or
 35        IS          PEIR                                                    form when an inspector cites an unwarrantable           Completed    03/31/12        ---       03/22/12
                              Practice for each Section 104(d) action: “This
                                                                               failure violation. This allows the inspector to
                              violation is an unwarrantable failure to
                                                                               automatically comply with Section 104(d)(1) of the
                              comply with a mandatory standard.”
                                                                               Mine Act which requires the inspector to include
                                                                               such finding when citing an unwarrantable failure
                                                                               violation.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                               31                                                         Report No. 05-13-003-06-001
                                                                                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                                                                                     Revised
                                                                                                                                                        Expected                   Actual
                   2                                                                                                                                                 Expected
Count   Category       Lead                 Recommendation                                    Corrective Action Taken                       Status     Completion                Completion
                                                                                                                                                                    Completion
                                                                                                                                                          Date                      Date
                                                                                                                                                                       Date




                                                                                 On February 23, 2012, the Assistant Secretary
                                                                                 assigned the Deputy Assistant Secretary for
                                                                                 Operations the responsibility for developing a
                                                                                 centralized administrative review process for
                                                                                 updating and monitoring all of MSHA’s directives
                              The Assistant Secretary should reestablish         and the Directives System so that MSHA’s
 36        PP          OAS    the functionality and improve the utility of the   enforcement and other personnel are well informed
                              MSHA Directives System.                            and MSHA programs operate in a fair and
                                                                                 consistent manner. Procedures are being
                                                                                                                                           Completed      N/A           ---       02/23/12
                                                                                 developed that will monitor policy development,
                                                                                 evaluate the directives for need, consistency and
                                                                                 impact on the agency, and facilitate the activities of
                                                                                 the policy coordinators from all MSHA programs.
                                                                                 See recommendation #89 in Exhibit 2 below.




                              The Assistant Secretary should direct the
                              revision of the APPM to incorporate
                              Administrative Policy Letter (APL) A11-I-01
                                                                                 The Assistant Secretary directed staff to
                              which established policies and procedures
                                                                                 incorporate APL A11-I-01, which establishes
                              for required continuing education of
                                                                                 policies and procedures for required continuing
                              Authorized Representatives (AR). In addition,
 37        PP          OAS                                                       education for ARs into the APPM no later than
                              the APPM should be revised to include a                                                                      Completed      N/A           ---       06/26/12
                                                                                 December 31, 2013. This includes permanent
                              permanent requirement for two-week
                                                                                 requirements for two-week biannual training for
                              biannual training for field office supervisors.
                                                                                 field office supervisors at the earliest possible date.
                              Newly-selected supervisors should be
                              provided this training at the earliest possible
                              date.




                                                                                                                     MSHA Making Progress To Implement Recommendations
                                                                                 32                                                           Report No. 05-13-003-06-001
                                                                                                                U.S. Department of Labor – Office of Inspector General


                                                                                                                                                            Revised
                                                                                                                                               Expected                   Actual
                   2                                                                                                                                        Expected
Count   Category       Lead                Recommendation                               Corrective Action Taken                    Status     Completion                Completion
                                                                                                                                                           Completion
                                                                                                                                                 Date                      Date
                                                                                                                                                              Date




                               The Administrator for CMS&H should
                               consider removing the Health/Safety/Other    The Administrator for CMS&H believes it is
                               block from the Mine Citation/Order Form.     beneficial to include the Health/Safety/Other block
                               The Administrator also should consider       on the Mine Citation/Order Form. Removing this
                               revising the Citation and Order Writing      block would require enforcement personnel to read
 38        PP          CMS&H   Handbook for Coal Mines and Metal and        the Condition or Practice for each citation to        Completed    09/30/12        ---       05/01/12
                               Nonmetal Mines to remove the direction for   determine whether the violation is health-related.
                               CMS&H inspectors to complete this field.     The Administrator for CMS&H reminded the
                               The Director of PEIR should make             CMS&H districts to check the appropriate blocks on
                               corresponding changes to the IPAL data       the Mine Citation/Order Form.
                               input screen.




                                                                                                             MSHA Making Progress To Implement Recommendations
                                                                            33                                                        Report No. 05-13-003-06-001
                         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       MSHA Making Progress To Implement Recommendations
        34                                      Report No. 05-13-003-06-001
                                                                                                                             U.S. Department of Labor – Office of Inspector General



                                                                                                                                                                        Exhibit 2
        Listing of all 100 Recommendations in Internal Review Report
          Lead                                                                                                                                                           Expected     Revised
Count   Program       Category 3                     Recommendation                                          Proposed Corrective Action                      Status     Completion   Completion
          Area                                                                                                                                                             Date        Date


                                                                                               EFS is developing procedures to ensure resources are
                                                                                               made available to monitor a representative number of
                                                                                               Part 48 approved instructors. EPD/EFS will monitor
                                                                                               instructors, especially contract trainers, to ensure the
                                                                                               training is appropriate and effectively delivered.
                                   The Director of EPD should evaluate the feasibility of
  1         EPD           PP       requiring a representative number of independent            The CMS&H Administrator will issue a memo to district        Completed    04/30/12        ---
                                   contractor training classes to be monitored by EFS.         managers requiring them to notify all operators and
                                                                                               entities with approved training that annual and new
                                                                                               miner training schedules must be provided to the
                                                                                               districts, 2 weeks prior to the training. The district
                                                                                               managers will refer the training schedule notifications to
                                                                                               EPD/EFS.




                                   The Administrator for CMS&H should collaborate with
                                   the Director of EPD to update the training programs for
                                   entry-level and journeyman inspectors to emphasize
                                                                                               CMS&H will collaborate with EPD on enhancing
                                   the value of a purposeful examination of training
                                                                                               inspector knowledge on training record examinations
                                   records and to guide inspectors on how to effectively
                                                                                               and compliance with other training requirements,
  2         EPD           T        determine compliance with Part 48 and other training                                                                     Completed    06/30/12        ---
                                                                                               including Part 48. This will also be addressed during
                                   requirements. The guidance in CMS&H Memo No. HQ-
                                                                                               the April 2012 training for all District 4 and District 12
                                   08-055-A that directs inspectors to question miners on
                                                                                               CMS&H inspectors and specialists.
                                   their training related to roof control plans and document
                                   such information should also be addressed in this
                                   training.




        3
            See Legend on the last page of this exhibit.

                                                                                                                         MSHA Making Progress To Implement Recommendations
                                                                                       35                                                         Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                    Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                      Status     Completion   Completion
          Area                                                                                                                                                      Date        Date



                             The Director of PEIR should collaborate with the            The MPA application will be modified to track overdue
                             Administrator for CMS&H to revise the MPA database          responses. PEIR will work closely with CMS&H on
                             system to track operator responses to MSHA requests         further defining requirements for these revisions. The
  3      PEIR        IS                                                                                                                              Completed    08/03/12        ---
                             for plan revisions. The Administrator should direct         Administrator will direct district managers to use MPA to
                             district managers to use MPA to identify overdue            identify responses from operators and take appropriate
                             responses from operators and take appropriate actions.      actions.




                             The Administrator for CMS&H should direct that District
                             4 and 12 managers reinforce MSHA policy and
                                                                                         This will be addressed during the April 2012, training of
                             procedure concerning standards that can be cited as
  4     CMS&H        T                                                                   all District 4 and District 12 CMS&H inspectors and         Completed    04/30/12        ---
                             Section 104(g)(1) training orders and on records that
                                                                                         specialists.
                             must be inspected to ensure that an operator is
                             providing all required training.




                             The Administrator for CMS&H should direct revisions to
                             the General Coal Mine Inspection Procedures and
                                                                                         This is included in the Evaluation of Enforcement
                             Inspection Tracking System Handbook to:
                                                                                         Policies and Procedures directed by the Assistant
                                                                                         Secretary on July 21, 2010, which is well underway. All
                             • Identify training records required by 30 CFR 75.338(a)
                                                                                         of the policies and procedures have been collected and
                             and 75.1501(a)(3) as records that are to be inspected
                                                                                         identified, and during the week of January 17, 2012, the
                             during a regular inspection, as well as any records of
                                                                                         Assistant Secretary created a task force to begin the
                             any other training required by MSHA regulations.
  5     CMS&H       PP                                                                   next phase to be overseen by the Deputy Assistant           Completed    12/31/12        ---
                             • Specify the percentage of miners for which training
                                                                                         Secretary of Operations. The next phase is the review
                             records are to be inspected during a regular inspection.
                                                                                         of the draft handbook and the development of a final
                             • Include the requirements of CMS&H Memo No. HQ-
                                                                                         handbook for inspectors to use. The final handbook will
                             08-055-A that direct inspectors to question miners on
                                                                                         also include the revisions outlined in this
                             their training related to roof control plans and document
                                                                                         recommendation and any additional procedure and
                             such information. The Administrator also should
                                                                                         policy changes identified in the internal review report.
                             consider similar guidance regarding training related to
                             ventilation plans.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 36                                                        Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                      Recommendation                                        Proposed Corrective Action                        Status     Completion   Completion
          Area                                                                                                                                                        Date        Date




                                                                                         MSHA provides training to all entry-level CMS&H
                             The Assistant Secretary should instruct the Directors of    inspectors on high voltage longwall equipment. Upon
                             EPD and TS to develop and provide advanced                  instructions from the Assistant Secretary, the Director of
                             technical training on longwall mining equipment. This       TS will work with the Director of EPD to develop and
  6      EPD         T                                                                                                                                 Completed    09/01/12     09/30/12
                             training should be provided to MSHA regular inspectors      provide advanced technical training on longwall mining
                             who are qualified electricians and electrical specialists   equipment for MSHA inspectors who are qualified
                             agency-wide.                                                electricians and electrical specialists. This training will
                                                                                         be provided agency-wide.




                                                                                         This is included in the Evaluation of Enforcement
                                                                                         Policies and Procedures directed by the Assistant
                                                                                         Secretary on July 21, 2010, which is well underway. All
                                                                                         of the policies and procedures have been collected and
                                                                                         identified, and during the week of January 17, 2012, the
                                                                                         Assistant Secretary created a task force to begin the
                             The Administrator for CMS&H should direct the revision      next phase to be overseen by the Deputy Assistant
                             of the General Coal Mine Inspection Procedures and          Secretary of Operations. The next phase is the review
                             Inspection Tracking System Handbook to direct               of the draft handbook and the development of a final
  7     CMS&H       PP       electrical or permissibility inspections of longwall        handbook for inspectors to use. The final handbook will       Completed    12/31/12        ---
                             systems to be conducted by electrical specialists or        also include any additional procedure and policy
                             inspectors who hold a current MSHA electrical               changes identified in the internal review report.
                             qualification card.
                                                                                         The Administrator has directed inter-district training for
                                                                                         coal mine inspectors from District 4 and District 12 to
                                                                                         travel and inspect at other longwall districts. Training
                                                                                         will be given to both electrical and non-electrical
                                                                                         inspectors on how to conduct permissibility inspections
                                                                                         on longwalls.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 37                                                        Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                     Expected     Revised
Count   Program   Category                     Recommendation                                        Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                       Date        Date
                                                                                        Consistent with the Assistant Secretary's instructions to
                                                                                        the Deputy Assistant of Secretary for Operations to
                             The Administrator for CMS&H should direct the revision     develop a draft centralized administrative review
                             of the PPM to establish policy for determining             process for directives, the CMS&H Administrator will
                             compliance with 30 CFR 75.1725(a) as it relates to         develop guidance to the district managers determining
  8     CMS&H       PP                                                                                                                              In Progress    12/31/13        ---
                             damaged or missing cutting bits, bit lugs, or bit lug      compliance with 30 CFR 1725(a) as it relates to bits.
                             inserts on continuous mining machines and longwall         The PPM will be revised for 30 CFR 75.1725(a) as it
                             shearers.                                                  relates to damaged or missing cutting bits, bit lugs, or
                                                                                        bit lug inserts on continuous mining machines and
                                                                                        longwall shearers.


                             The Administrator for CMS&H should direct the revision     Consistent with the Assistant Secretary's instructions to
                             of the Uniform Mine File (UMF) Procedures Handbook         the Deputy Assistant of Secretary for Operations to
                             to clarify what sections of the UMF inspectors and         develop a draft centralized administrative review
                             specialists must review for a “limited inspection” as      process for directives, the UMF Procedures Handbook
  9     CMS&H       PP       described in the Handbook. At a minimum, the roof          will be revised to clarify sections of the UMF that         In Progress    12/31/13        ---
                             control and ventilation plans and any other plans          inspectors and specialists must review for a limited
                             pertinent to that inspection should be reviewed. This      inspection. In the interim, the Administrator for CMS&H
                             revision should also clarify what constitutes a “limited   will instruct district managers on what constitutes a
                             inspection” as described in the Handbook.                  limited inspection for review.




                             The Administrator for CMS&H should direct the
                             committee revising the Carbon Monoxide (CO) and
                             AMS Inspection Procedures Handbook to identify the         The Administrator for CMS&H will instruct the
                             salient parts of an AMS or CO system inspection. The       committee to revise the AMS/CO Handbook to include
                             CO Handbook should describe how an inspector would         the salient parts of an AMS or CO inspection, so long
 10     CMS&H       PP       conduct an inspection to address each salient part to      as this is consistent with the Assistant Secretary's        In Progress    06/30/13        ---
                             determine the system is being operated and maintained      instructions to the Deputy Assistant of Secretary for
                             in compliance with the appropriate safety standards.       Operations to develop a draft centralized administrative
                             Any portions of the system inspection that require an      review process for directives.
                             electrical specialist’s attention should be clearly
                             identified.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                38                                                        Report No. 05-13-003-06-001
                                                                                                                   U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                  Expected     Revised
Count   Program   Category                     Recommendation                                        Proposed Corrective Action                     Status     Completion   Completion
          Area                                                                                                                                                    Date        Date

                                                                                        CMS&H's revisions to its General Inspection
                                                                                        Procedures Handbook and Inspection Tracking System
                                                                                        Handbook are included in the Evaluation of
                                                                                        Enforcement Policies and Procedures directed by the
                                                                                        Assistant Secretary on July 21, 2010, which is well
                             The Administrator for CMS&H should direct the revision     underway. All of the policies and procedures have
                             of the General Coal Mine Inspection Procedures and         been collected and identified, and during the week of
 11     CMS&H       PP       Inspection Tracking System Handbook to specify those       January 17, 2012, the Assistant Secretary created a        Completed    12/31/12        ---
                             procedures outlined in the CO Handbook that are to be      task force to begin the next phase to be overseen by
                             completed during each regular inspection.                  the Deputy Assistant Secretary for Operations. The
                                                                                        next phase is the review of the draft handbook and the
                                                                                        development of a final handbook for inspectors to use.
                                                                                        The final handbook is also to include any additional
                                                                                        procedure and policy changes as identified in the
                                                                                        internal review report that need to be included.


                             The Administrator for CMS&H should direct the revision
                             of the General Coal Mine Inspection Procedures and
                             Inspection Tracking System Handbooks to describe the
                             purpose of an inspector’s review of the operators’
                             examination records, and how the review should be          This is included in the Evaluation of Enforcement
                             utilized during inspections. The revised procedures        Policies and Procedures directed by the Assistant
                             should also identify specific items that should be         Secretary on July 21, 2010, which is well underway. All
                             checked when reviewing mine examination records,           of the policies and procedures have been collected and
                             such as whether:                                           identified, and during the week of January 17, 2012, the
                                                                                        Assistant Secretary created a task force to begin the
 12     CMS&H       PP       • examinations have been conducted at required             next phase to be overseen by the Deputy Assistant          Completed    12/31/12        ---
                             intervals;                                                 Secretary of Operations. The next phase is the review
                             • examination records indicate violations of mandatory     of the draft handbook and the development of a final
                             safety or health standards;                                handbook for inspectors to use. The final handbook will
                             • hazardous conditions have been properly recorded;        also include the revisions outlined in this
                             • records of violations or hazardous conditions indicate   recommendation and any additional procedure and
                             a need for inspectors to follow up;                        policy changes identified in the internal review report.
                             • corrective actions have been recorded for reported
                             hazardous conditions; and
                             • ventilation of worked out and outby areas have been
                             evaluated properly.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                                 39                                                      Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                     Expected     Revised
Count   Program   Category                     Recommendation                                        Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                       Date        Date

                                                                                        Consistent with the Assistant Secretary’s instructions to
                             The Administrator for CMS&H should direct the revision
                                                                                        the Deputy Assistant Secretary for Operations to
                             of the Coal Mine Safety and Health Supervisor’s
                                                                                        develop a draft centralized administrative review
                             Handbook to provide guidance to supervisors on
                                                                                        process for directives, the Administrator for CMS&H will
 13     CMS&H       PP       methods they can use during Accompanied Activities                                                                     In Progress    12/31/13        ---
                                                                                        direct revisions to the Coal Mine Safety and Health
                             (AA) to determine if inspectors are reviewing the mine
                                                                                        Supervisor's Handbook regarding records reviewed by
                             operators’ examination records and using information in
                                                                                        supervisors of pre-shift, on-shift and weekly
                             the records in accordance with inspection procedures.
                                                                                        examinations.

                             The Administrator for CMS&H should collaborate with
                             the Director of EPD to revise the curriculum at the
                             National Mine Health and Safety Academy regarding
                             inspection procedures for evaluating operator
                             compliance with examination standards. The training
                             should explain the purpose and utilization of an
                             inspector’s review of mine examination records. This
                             training should be provided to entry-level inspectors,
                             journeyman inspectors, specialists, supervisors, and
                             assistant district managers. The training should provide
                             instructions on:
                                                                                        National Mine Health and Safety Academy personnel
                             • determining whether adequate examinations have
                                                                                        have for the past several months, been working on a
                             been conducted;
                                                                                        revision of the curriculum concerning 75.364 to address
                             • determining whether the operator has recorded in the
 14      EPD         T                                                                  the purpose and utilization of an inspector's and           Completed      08/31/12     09/30/12
                             examination book the specific corrective action taken to
                                                                                        supervisor's review of mine examination records. The
                             eliminate the hazard;
                                                                                        training will be included in the journeyman, specialist,
                             • identifying incomplete records of examinations,
                                                                                        supervisory and entry-level training.
                             including missing air quantities and air quality
                             measurements;
                             • using examination records to aid in the enforcement of
                             30 CFR 75.360, 75.362, 75.363, and 75.364;
                             • traveling with and evaluating at least one pre-shift
                             examiner, one on-shift examiner, and one weekly
                             examiner during each regular inspection;
                             • determining whether the operator conducted on-shift
                             examinations of dust control parameters; and
                             • using examination records in the evaluation of the
                             operator’s negligence for violations of other safety and
                             health standards.



                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                                40                                                       Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                      Recommendation                                         Proposed Corrective Action                      Status      Completion   Completion
          Area                                                                                                                                                        Date        Date




                             The Director of PEIR should provide the following to
                             enhance enforcement of 30 CFR 75.403 and minimize
                             rock dust data input errors.

                             • The Rock Dust Sample Submission (RDSS) and the
                             Rock Dust Data Retrieval System (RDDR) applications
                             should be incorporated into IPAL and MSIS.
                             • The Rock Dust Sample Submission Form and the
                             MSHA enterprise database should be modified to
                             include fields to document the location of the last row of
                             samples collected during rock dust surveys.
                             • Lab analysis reports should be modified to include          PEIR has been working diligently over the last eight
                             surveys where no samples were submitted for analysis          months with TS and Enforcement on this effort. The
                             (e.g., all wet sample locations) to confirm data transfer.    team is currently working to deploy Air Gas Samples
                             Such documents should be included in inspection               within MSIS first as outlined by the stakeholders. PEIR
                             reports, consistent with current MSHA inspection              is anticipating a deployment date for Rock Dust
 15      PEIR        IS      procedures, rather than Rock Dust Sample Submission           (including the Rock Dust Sample Submission Form) in       In Progress    08/15/13        ---
                             Forms.                                                        MSIS in April 2013. PEIR estimates that the RDSS and
                             • Standard oversight reports should be developed and          RDDR applications will be implemented in IPAL April
                             distributed to headquarters, district, and field offices to   2013. The standard oversight reports will not be
                             monitor:                                                      developed until the above changes are implemented in
                             (a) Rock dust surveys with no samples collected,              MSIS and IPAL.
                             including surveys containing all “No Sample” or “Wet”
                             locations.
                             (b) Sample collection rates from previously wet
                             locations for each underground bituminous coal mine.
                             (c) Non-compliant spot rock dust samples with no
                             subsequent enforcement actions. This may
                             require additional fields on the Rock Dust Sample
                             Submission Form showing the purpose for collecting a
                             spot sample (i.e., previously wet
                             sample location, violation abatement sample, or
                             compliance sample).




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                   41                                                       Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                        Date        Date




                             The Administrator for CMS&H should direct the revision
                             of the PPM for 30 CFR 75.400-2 to clarify that the
                                                                                         Consistent with the Assistant Secretary's instructions to
                             cleanup program required by this standard also applies
                                                                                         the Deputy Assistant of Secretary for Operations to
                             to methods for preventing accumulations of coal and
                                                                                         develop a draft centralized administrative review
 16     CMS&H       PP       float coal dust on retreating sections, including                                                                       In Progress    12/31/13        ---
                                                                                         process for directives, the PPM for 75.400-2 and
                             longwalls. Policy should provide strategies for requiring
                                                                                         75.402 will be revised to clarify issues relating to the
                             operators to revise deficient cleanup programs or
                                                                                         clean-up program.
                             identify other enforcement incentives that can be used
                             when operators fail to comply with their programs.




                             The Administrator for CMS&H should issue a Program
                                                                                         CMS&H's Administrator will issue a PIB to advise mine
                             Information Bulletin (PIB) advising operators of the
 17     CMS&H       PP                                                                   operators to sample or test mine dust to ensure             Completed      12/31/12        ---
                             need for them to sample or test mine dust to ensure
                                                                                         compliance with 30 CFR 75.403.
                             compliance with 30 CFR 75.403.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 42                                                        Report No. 05-13-003-06-001
                                                                                                                   U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                  Expected     Revised
Count   Program   Category                     Recommendation                                        Proposed Corrective Action                     Status     Completion   Completion
          Area                                                                                                                                                    Date        Date
                             The Administrator for CMS&H should direct the revision
                             of the General Coal Mine Inspection Procedures and
                             Inspection Tracking System Handbook to improve
                             planning, tracking, and oversight of rock dust sampling.

                             • Inspectors should be directed to evaluate the
                             adequacy of rock dust maintenance by collecting spot
                             samples from a representative number of locations in
                             outby areas. Sampling strategies should provide
                             analysis results ahead of second mining, including
                             longwall gate entries.
                             • Inspectors should be directed to plot rock dust sample
                             locations on regular inspection tracking maps. Sample
                             collection dates and locations too wet to sample should    This is included in the Evaluation of Enforcement
                             be specified on the map.                                   Policies and Procedures directed by the Assistant
                             • Consideration should be given to replacing the Rock      Secretary on July 21, 2010, which is well underway. All
                             Dust Survey Wet Locations Tracking Form with tracking      of the policies and procedures have been collected and
                             maps, or provide instruction to use the Form in the        identified, and during the week of January 17, 2012, the
                             Handbook. If retained, the Form should be modified to      Assistant Secretary created a task force to begin the
 18     CMS&H       PP       include documentation of the inspector’s name and          next phase to be overseen by the Deputy Assistant          Completed    12/31/12        ---
                             date that the wet area was re-inspected. Also, the         Secretary of Operations. The next phase is the review
                             sample location status options on the Form should          of the draft handbook and the development of a final
                             match those available on the computer application.         handbook for inspectors to use. The final handbook will
                             • Inspectors should be directed to document in their       also include the revisions outlined in this
                             notes the locations of section loading points and the      recommendation and any additional procedure and
                             last row of samples collected during rock dust surveys.    policy changes identified in the internal review report.
                             • When collecting rock dust samples, inspectors should
                             be directed to document in their notes the facts needed
                             to evaluate negligence and gravity of potential 30 CFR
                             75.403 violations.
                             • Inspectors should be directed to collect crosscut
                             samples in the first row of each rock dust survey and in
                             each third row thereafter.
                             • Inspectors should be directed to resample non-
                             compliant locations after re-dusting and before
                             terminating any related enforcement actions.
                             • Enforcement procedures should ensure re-dusting at
                             all noncompliant sample locations, even if the survey
                             was compliant.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                                43                                                       Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                    Expected     Revised
Count   Program   Category                     Recommendation                                       Proposed Corrective Action                        Status     Completion   Completion
          Area                                                                                                                                                      Date        Date


                             The Administrator for CMS&H should direct that training   Training will be provided to supervisors on using
                             be provided to supervisors on using standard oversight    standard oversight reports to ensure inspectors have
 19     CMS&H        T       reports to ensure inspectors have valid reasons for not   valid reasons for not collecting samples, including           Completed    09/30/12        ---
                             collecting samples, including visiting some areas that    visiting some areas that inspectors indicated were too
                             inspectors indicated were too wet to sample.              wet to sample.




                                                                                       Recent NIOSH research has suggested possible
                                                                                       changes to the longstanding band sampling method
                                                                                       which has historically been used by CMS&H. For
                                                                                       instance, information has been presented in various
                                                                                       NIOSH publications suggesting sampling of ⅛ to ¼ inch
                                                                                       from the mine floor. NIOSH has also mentioned
                             The Administrator for CMS&H should collaborate with
                                                                                       possible plug samples as an alternative or supplement
                             the Director of TS and NIOSH to develop a standard
                                                                                       to band samples during recent discussions. Ultimately,
                             method for collecting mine dust samples for operators
                                                                                       the true measure of the validity of a sampling procedure
                             and inspectors to use to determine compliance with 30
 20       TS        PP                                                                 is how well it correlates with explosion test results. This   Completed    06/01/12        ---
                             CFR 75.403. The agency should consider recent
                                                                                       is information that only NIOSH can address through
                             research regarding sample collection methodology,
                                                                                       their extensive body of research, laboratory, and large-
                             including that related to sample depth and elevated
                                                                                       scale testing. The CMS&H Administrator will issue a
                             surfaces.
                                                                                       memo to TS requesting their assistance and guidance.
                                                                                       MSHA will draft a letter to NIOSH to recommend an
                                                                                       appropriate and practical rock dust sampling procedure
                                                                                       and methodology for inspectors or operators to use
                                                                                       which will ensure the proper detection of potentially
                                                                                       hazardous conditions in underground coal mines.



                             The Administrator for CMS&H should direct the District
                             4 and 12 Managers to: reinstruct inspectors in the
                             General Coal Mine Inspection Procedures and
                                                                                       This will be included in the training that will be provided
                             Inspection Tracking System Handbook directive to
 21     CMS&H        T                                                                 to all District 4 and District 12 CMS&H inspectors and        Completed    04/30/12        ---
                             check and document checking Part 50 records during
                                                                                       specialists in April 2012.
                             every regular inspection. The district managers should
                             hold inspection supervisors accountable for enforcing
                             compliance with this directive.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                               44                                                         Report No. 05-13-003-06-001
                                                                                                                  U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                    Expected     Revised
Count   Program   Category                     Recommendation                                     Proposed Corrective Action                         Status      Completion   Completion
          Area                                                                                                                                                      Date        Date



                             The Administrator for CMS&H should collaborate with     The CMS&H Administrator will request TS and EPD
                             the Directors of EPD and TS to provide refresher        assistance on refresher training on electrical violations.
 22      EPD         T       training for District 4 and 12 regular inspectors to    This will be included in the training that will be provided   Completed      04/30/12        ---
                             assure they have appropriate skills to ensure uniform   to all District 4 and District 12 CMS&H inspectors and
                             recognition of electrical violations.                   specialists in April 2012.




                                                                                     CMS&H's revisions to its General Inspection
                                                                                     Procedures Handbook are included in the Evaluation of
                                                                                     Enforcement Policies and Procedures directed by the
                                                                                     Assistant Secretary on July 21, 2010, which is well
                                                                                     underway. All of the policies and procedures have
                                                                                     been collected and identified, and during the week of         Completed     12/31/2012
                                                                                     January 17, 2012, the Assistant Secretary created a
                                                                                     task force to begin the next phase to be overseen by
                                                                                     the Deputy Assistant Secretary for Operations. The
                                                                                     next phase is the review of the draft handbook and the
                             The Administrators for CMS&H and Metal and              development of a final handbook for inspectors to use.
                             Nonmetal should direct the revision of their general    The final handbook is also to include any additional
        CMS&H /
 23                 PP       inspection procedures handbooks to be consistent with   procedure and policy changes as identified in the                                            ---
        MNMS&H
                             the recommended revisions of the PPM regarding          internal review report that need to be included.
                             enforcement of Section 103(a).                          MNMS&H has established a handbook committee to
                                                                                     update and revise its General Inspection Procedures
                                                                                     Handbook.

                                                                                     Consistent with the Assistant Secretary's instructions to
                                                                                     the Deputy Assistant of Secretary for Operations to           In Progress   12/31/2013
                                                                                     develop a draft centralized administrative review
                                                                                     process for directives, CMS&H and MNMS&H will take
                                                                                     the lead to ensure that revisions to their General
                                                                                     Procedures Handbooks are consistent with revisions to
                                                                                     the PPM.




                                                                                                               MSHA Making Progress To Implement Recommendations
                                                                               45                                                       Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                       Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                        Status      Completion   Completion
          Area                                                                                                                                                         Date        Date

                                                                                         On August 26, 2010, MSHA issued PIB P10-15 to
                             The Administrators for CMS&H and MNMS&H should              remind operators, miners’ representatives, MSHA
                             consult with the SOL, Mine Safety and Health Division,      personnel and other interested parties that Section 103      Completed     6/30/2012
                             to revise the PPM to address actions by operators, their    of the Mine Act prohibits advance notice. The
                             agents, or their employees that constitute advance          Administrators will consult with SOL and instruct district
                             notice of inspections. The Manual explicitly should         managers regarding advance notice of inspectors to
        CMS&H /              instruct that Section 103(a) is violated when an operator   address this recommendation.
 24                 PP                                                                                                                                                               ---
        MNMS&H               gives advance notice of MSHA’s presence on mine
                             property to outlying surface and underground facilities     Consistent with the Assistant Secretary's instructions to
                             with the intent to impede an inspection, regardless of      the Deputy Assistant of Secretary for Operations to
                             whether the inspection already has commenced or             develop a draft centralized administrative review
                             whether the inspector explicitly has warned the operator    process for directives, CMS&H will revise the PPM to         In Progress   12/31/2013
                             against providing such notice.                              address actions that constitute advance notice of
                                                                                         inspections.
                                                                                         Consistent with the Assistant Secretary's instructions to
                                                                                         the Deputy Assistant Secretary for Operations to
                             The Director of EPD should collaborate with the             develop a draft centralized administrative review
                             Administrators for CMS&H and MNMS&H to revise the           process for directives, EPD will collaborate with
                             On the Job Training (OJT) Booklet to include only           CMS&H and MNMS&H to update the APPM to clarify
                             practical competency skills that need to be                 the duties and responsibilities concerning OJT training.
 25      EPD        PP                                                                                                                                In Progress    12/31/13        ---
                             demonstrated in the field. The National Mine Health         EPD is in the process of incorporating OJT
                             and Safety Academy should track the academic                responsibility training into both journeyman and
                             components of entry level training; demonstration of        supervisor training. EPD is implementing the electronic
                             OJT tasks should be tracked by field personnel.             tracking of the OJT tasks and will re-train those
                                                                                         individuals responsible for the execution of this
                                                                                         program.

                                                                                         Consistent with the Assistant Secretary's instructions to
                                                                                         the Deputy Assistant Secretary for Operations to
                                                                                         develop a draft centralized administrative review
                                                                                         process for directives, EPD will collaborate with
                                                                                         CMS&H and MNMS&H to update the APPM to clarify
                             The Director of EPD should collaborate with the
                                                                                         the duties and responsibilities concerning OJT training.
 26      EPD        PP       Administrators for CMS&H and MNMS&H to revise the                                                                        In Progress    12/31/13        ---
                                                                                         EPD is in the process of incorporating OJT
                             APPM to include the OJT responsibilities guidance.
                                                                                         responsibility training into both journeyman and
                                                                                         supervisor training. EPD is implementing the electronic
                                                                                         tracking of the OJT tasks and will re-train those
                                                                                         individuals responsible for the execution of this
                                                                                         program.



                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 46                                                        Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                     Expected     Revised
Count   Program   Category                      Recommendation                                       Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                       Date        Date

                                                                                        Consistent with the Assistant Secretary's instructions to
                                                                                        the Deputy Assistant Secretary for Operations to
                                                                                        develop a draft centralized administrative review
                                                                                        process for directives, EPD will collaborate with
                             The Director of EPD should collaborate with the
                                                                                        CMS&H and MNMS&H to update the APPM to clarify
                             Administrators for CMS&H and MNMS&H to
                                                                                        the duties and responsibilities concerning OJT training.
 27      EPD        PP       incorporate OJT responsibilities into journeyman                                                                       In Progress    12/31/13        ---
                                                                                        EPD is in the process of incorporating OJT
                             inspector and supervisor training and develop and
                                                                                        responsibility training into both journeyman and
                             provide training for District OJT Coordinators.
                                                                                        supervisor training. EPD is implementing the electronic
                                                                                        tracking of the OJT tasks and will re-train those
                                                                                        individuals responsible for the execution of this
                                                                                        program.


                             The Director of OAASEI should collaborate with the
                             Administrators for CMS&H and MNMS&H to revise the
                             Accountability Program Handbook to:                        OAASEI will, in collaboration with CMS&H and
                                                                                        MNMS&H, revise the Accountability Handbook to
                             • Remove references to accountability reviews led by       remove references to MSHA Headquarters
                             MSHA Headquarters.                                         accountability reviews, replacing those reviews with
 28     OAASEI      PP       • Provide for evaluation of the effectiveness of           those conducted by the Office of Accountability. The        Completed      12/31/12        ---
                             corrective actions. Where practical, these evaluations     Handbook revisions will also contain requirements for
                             should include objective measurements of results and       Accountability Office reviews to evaluate the
                             effects of the corrective actions. In cases where          effectiveness of corrective actions taken to address
                             training is identified as a corrective action, knowledge   previously identified issues.
                             checks or equivalent means should be conducted to
                             ensure an adequate understanding of the material.



                                                                                        The CMS&H Administrator will instruct district
                             The Administrator for CMS&H should direct the revision     managers to promptly complete and document
                             of the Coal Mine Safety and Health Supervisor’s            oversight of the required number of FARs, AAs, and
                             Handbook to instruct managers and supervisors on           mine visits. Consistent with the Assistant Secretary's
 29     CMS&H       PP                                                                                                                              In Progress    12/31/13        ---
                             methods for tracking Field Activity Reviews (FAR), AAs,    instructions to the Deputy Assistant Secretary for
                             and mine visits to ensure that they are properly           Operations to develop a draft centralized administrative
                             completed and documented.                                  review process for directives, CMS&H will revise the
                                                                                        Coal Mine Safety and Health Supervisor's Handbook.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                  47                                                      Report No. 05-13-003-06-001
                                                                                                                            U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                             Expected     Revised
Count   Program      Category                        Recommendation                                         Proposed Corrective Action                        Status      Completion   Completion
          Area                                                                                                                                                               Date        Date
                                                                                               The CMS&H Administrator concurs with this
                                                                                               recommendation and will explore actions to improve
                                  The Administrator for CMS&H should investigate and
                                                                                               timeliness of promptly filling district manager and
                                  resolve issues surrounding double-encumbering
                                                                                               supervisory vacancies. Once vacancy announcements
 30         CMS&H       HR        temporarily vacant positions to improve oversight and to                                                                  In Progress    Ongoing 4       ---
                                                                                               have been posted and closed, CMS&H will interview
                                  maintain an experienced staff of enforcement
                                                                                               and fill vacancies prior to their expiration. However, the
                                  personnel.
                                                                                               Administrator does not have the authority to double
                                                                                               encumber.


                                  The Administrator for CMS&H should direct staff to           The Administrator for CMS&H will direct the safety
                                  audit the District 4 and 12 ventilation plans to determine   division to conduct audits of the District 4 and 12
 31         CMS&H       PP        whether the methane and dust control plans have been         ventilation plans to determine whether the methane and       Completed      10/01/12        ---
                                  incorporated into the mine ventilation plans, subject to a   dust control plans have been incorporated into the mine
                                  single review date.                                          ventilation plans, subject to a single review date.



                                  The Director of PEIR should collaborate with the
                                                                                               PEIR will collaborate with CMS&H to revise the MPA
                                  Administrator for CMS&H to revise the MPA database
                                                                                               database system to track the time required to process
                                  system to track the time required to process ventilation
                                                                                               ventilation plans and supplements. The Administrator
 32         PEIR         IS       plans and supplements. The Administrator should                                                                           Completed      12/07/12        ---
                                                                                               for CMS&H will direct district managers to use MPA to
                                  direct district managers to use MPA to monitor the time
                                                                                               monitor the time required to process plans and take
                                  required to process plans and take appropriate
                                                                                               appropriate administrative actions when necessary.
                                  administrative actions when necessary.


                                  The Administrator for CMS&H should direct the District
                                  4 and 12 managers to provide inspectors and
                                                                                               This will be addressed during April 2012 training for all
                                  specialists with training to ensure that six-month
                                                                                               District 4 and District 12 CMS&H inspectors and
                                  reviews are conducted and documented in accordance
                                                                                               specialists. Inspectors and specialists will also be
 33         CMS&H        T        with the Mine Ventilation Plan Approval Procedures                                                                        Completed      04/30/12        ---
                                                                                               provided training regarding the conduct and
                                  Handbook. District managers should monitor the six-
                                                                                               documentation of six-month reviews of ventilation
                                  month reviews after the training is completed to verify
                                                                                               plans.
                                  its effectiveness and take follow-up corrective action if
                                  necessary.


        4
         MSHA has implemented actions to promptly fill enforcement positions within MSHA, which it will continue to do, subject to sequestration and other budgetary events. It has also
        developed a succession plan underway to help improve oversight and maintain an experienced staff of enforcement personnel, which---again subject to sequestration and other
        budgetary events---it intended to begin to implement in FY 2013.



                                                                                                                        MSHA Making Progress To Implement Recommendations
                                                                                       48                                                        Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                        Date        Date
                                                                                         Consistent with the Assistant Secretary's instructions to
                                                                                         the Deputy Assistant Secretary for Operations to
                             The Administrator for CMS&H should direct the revision      develop a draft centralized administrative review
                             of the Mine Ventilation Plan Approval Procedures            process for directives, the Administrator for CMS&H will
                             Handbook to specify that ventilation specialists conduct    direct revisions to the Mine Ventilation Plan Approval
 34     CMS&H       PP                                                                                                                               In Progress    12/31/13        ---
                             the physical inspection portion of six-month ventilation    Procedures Handbook to specify that ventilation
                             plan reviews for mines with complex ventilation             specialists conduct the physical inspection portion of
                             systems, such as those with longwall mining.                the six-month ventilation plan reviews for mines with
                                                                                         complex ventilation systems, such as those with
                                                                                         longwall mining.

                             The Administrator for CMS&H should direct the District
                             4 and 12 managers to revise SOPs to ensure that both        SOP revisions will be completed by June 30, 2012, and
 35     CMS&H       PP       the Health and Ventilation Departments contribute to        follow-up will be addressed in the Performance              Completed      06/30/12        ---
                             the correspondence sent to mine operators after each        Management System and Accountability Reviews.
                             six-month ventilation plan review.

                             The Administrator for CMS&H should direct the District
                             4 and 12 managers to revise the technical department
                             SOPs to provide for the review of each proposed plan
                             or revision by appropriate technical departments to
                             check for consistency with other plans approved for the     CMS&H has already directed District 4 and 12
 36     CMS&H       PP       mine. A method for documenting this process should          managers to revise the technical department SOPs.           Completed      06/30/12        ---
                             be established. These SOPs should direct specialists        Those revisions will be completed by June 30, 2012.
                             to maintain a record of all written correspondence with
                             mine operators regarding proposed plan reviews,
                             particularly regarding changes to proposed plans
                             submitted by operators during the review process.


                                                                                         Consistent with the Assistant Secretary's instructions to
                             The Administrator for CMS&H should direct the revision
                                                                                         the Deputy Assistant Secretary for Operations to
                             of the PPM to provide guidance on when it is
                                                                                         develop a draft centralized administrative review
                             appropriate to cite an operator for a violation of 30 CFR
                                                                                         process for directives, the Mine Ventilation Plan
                             75.372(a) or (b) when it fails to submit an up-to-date
 37     CMS&H       PP                                                                   Approval Procedures Handbook and the PPM will be            In Progress    12/31/13        ---
                             and complete mine ventilation map. The Administrator
                                                                                         revised to provide guidance on when it is appropriate to
                             should also direct the revision of the Mine Ventilation
                                                                                         cite an operator for a violation of 30 CFR 75.372(a) or
                             Plan Approval Procedures Handbook to implement the
                                                                                         (b) when it fails to submit an up-to-date and complete
                             revised policy.
                                                                                         mine ventilation map.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 49                                                        Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                        Expected     Revised
Count   Program   Category                      Recommendation                                          Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                          Date        Date

                                                                                           The policy governing the establishment of MMU
                                                                                           numbers contained in 70.207 will be modified to
                             The Administrator for CMS&H should direct the revision        indicate that the respirable dust standard due to the
                             of the PPM to apply reduced respirable dust standards,        presence of quartz will continue when equipment on the
                             including those from deactivated MMUs, to other MMUs          MMU is changed. This particular provision of the PPM
 38     CMS&H       PP                                                                                                                                 Completed      06/30/13        ---
                             working in the same section of the mine with similar          is being revised and is in the process for review and
                             mining equipment, until sampling establishes a new            approval, subject to the Assistant Secretary's
                             standard.                                                     instructions to the Deputy Assistant Secretary for
                                                                                           Operations to develop a draft centralized administrative
                                                                                           review process for directives.


                                                                                           The CMS&H Administrator will instruct districts to
                             The Administrator for CMS&H should direct the revision
                                                                                           create a new file to include accident reports and
                             of the Mine Ventilation Plan Approval Procedures
                                                                                           technical studies and to retain these documents in the
                             Handbook to require pertinent accident reports and
                                                                                           mine file as part of the mine ventilation plan and
                             technical studies to be maintained in the appropriate
                                                                                           supplements reviews. Consistent with the Assistant
 39     CMS&H       PP       department active mine files to ensure that relevant                                                                      In Progress    12/31/13        ---
                                                                                           Secretary's instructions to the Deputy Assistant of
                             historical information is available to specialists and
                                                                                           Secretary for Operations to develop a draft centralized
                             supervisors. Consideration should also be given to
                                                                                           administrative review process for directives, the
                             including this information in the active mine file of other
                                                                                           Administrator for CMS&H will direct revisions to the
                             mines with similar seam and geological conditions.
                                                                                           Mine Ventilation Plan Approval Handbook.


                                                                                           Consistent with the Assistant Secretary’s instructions to
                                                                                           the Deputy Assistant Secretary for Operations to
                             The Administrator for CMS&H should direct the revision
                                                                                           develop a draft centralized administrative review
                             of the UMF Procedures Handbook to require pertinent
 40     CMS&H       PP                                                                     process for directives, the UMF Procedures Handbook         In Progress    12/31/13        ---
                             accident reports and technical studies to be maintained
                                                                                           will be revised to require pertinent accident reports and
                             in the UMF for the subject mine.
                                                                                           technical studies to be maintained in the UMF for the
                                                                                           subject mine.

                                                                                           Chapter 1 of the Health Inspection Procedure
                             The Administrator for CMS&H should direct that training
                                                                                           Handbook is being revised to (1) clarify the application
                             be provided to appropriate CMS&H personnel on the
                                                                                           of the reduced standards to MMUs and (2) clarify the
                             agency policy requiring reduced standards on
                                                                                           abatement time for excessive dust citations. This
 41     CMS&H        T       deactivated MMUs to be continued with newly-activated                                                                     In Progress    06/30/13        ---
                                                                                           requirement has been communicated to the districts
                             MMUs. The training should include instruction on the
                                                                                           multiple times during health supervisor meetings.
                             revised guidelines of the Mine Ventilation Plan Approval
                                                                                           Training will be provided to all District Health
                             Procedures Handbook.
                                                                                           Supervisors on the 70.207 policy.



                                                                                                                    MSHA Making Progress To Implement Recommendations
                                                                                   50                                                        Report No. 05-13-003-06-001
                                                                                                                        U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                          Expected     Revised
Count   Program   Category                      Recommendation                                          Proposed Corrective Action                         Status      Completion   Completion
          Area                                                                                                                                                            Date        Date


                             The Administrator for CMS&H should direct staff to
                                                                                           The Administrator will direct staff to monitor the
                             monitor the implementation of new regulations to
 42     CMS&H       PP                                                                     implementation of new rules/regulations through FARs,         Completed      04/30/12        ---
                             ensure districts enforce the provisions of final rules
                                                                                           AA, Second Level reviews, and District Peer reviews.
                             within the effective dates specified.



                                                                                           All CMS&H inspectors will be trained to inspect
                             The Administrator for CMS&H should direct that training
                                                                                           ventilation controls when haulage entries are inspected
                             be provided to enforcement personnel, including
 43     CMS&H        T                                                                     paying particular attention to the maintenance of             Completed      06/30/12        ---
                             supervisors and managers, to apply the policy during
                                                                                           ventilation controls and ensuring equipment doors
                             inspections of haulage ventilation controls.
                                                                                           maintained reasonably airtight construction.




                                                                                           The CMS&H Administrator and the Director of EPD will
                                                                                           collaborate on providing periodic retraining on bleeder
                                                                                           system evaluations to CMS&H underground
                                                                                           enforcement personnel, including supervisors and
                                                                                                                                                                       6/30/2013
                                                                                           managers. Training will be provided for supervisors by
                                                                                           October 2012, and all enforcement by July 2013.
                             The Administrator for CMS&H should collaborate with
                             the Director of EPD to provide instruction on bleeder         Seals and Bleeders training is part of the FY 2011-2012
 44      EPD         T                                                                                                                                   In Progress                    ---
                             system evaluations during biannual retraining of all          Journeyman Coal Mine Inspectors curriculum and will
                             underground enforcement personnel and supervisors.            be given to all Journeyman inspectors by the end of this
                                                                                           fiscal year. Bleeder evaluation training is provided to all
                                                                                           CMS&H entry level inspectors in the Ventilation II
                                                                                                                                                                       3/31/2013
                                                                                           course that is required prior to graduation from the
                                                                                           program. Bleeder evaluation training will also be part of
                                                                                           upcoming CMS&H supervisors training, currently in
                                                                                           development.




                                                                                                                    MSHA Making Progress To Implement Recommendations
                                                                                      51                                                     Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                      Recommendation                                        Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                        Date        Date
                             The Administrator for CMS&H should direct revision of
                             the PPM to:

                             • Establish policy for 30 CFR 75.1716-1 to define the
                             manner in which mine operators must provide notice to
                             the district manager prior to the commencement of
                             mining operations when planning to mine under any
                             river, stream, lake, or other body of water. The policy
                             also should state explicitly that “other body of water,”
                             includes water pools in overlying mines.
                             • Clearly state the agency’s interpretation of “water
                                                                                         Consistent with the Assistant Secretary's instructions to
                             pools above,” as referenced in 30 CFR 75.1200(j), by
                                                                                         the Deputy Assistant Secretary for Operations to
                             explicitly stating that the phrase “water pools above”
 45     CMS&H       PP                                                                   develop a draft centralized administrative review           In Progress    12/31/13        ---
                             includes water pools in overlying mines.
                                                                                         process for directives, the PPM will be revised
                             • Instruct district personnel to request that an operator
                                                                                         accordingly.
                             identify pools of water in overlying mines where
                             applicable when submitting mine ventilation maps.
                             • Clarify the detail to be shown on mine ventilation
                             maps to include elevations on 10-foot contours in
                             overlying and underlying mines when elevations are
                             available on overlying or underlying mine maps.
                             • Direct district managers to exercise their authority
                             under 30 CFR 75.1203 to require that operators furnish
                             a current 75.1200 map at the same time the annual
                             mine ventilation map is submitted. Both maps should
                             be updated as of the same date.

                             The Administrator for CMS&H should direct that a Roof
                             Control Plan Approval Handbook be developed to
                             consolidate the numerous Procedure Instruction Letters
                             (PIL), PIBs, and CMS&H memoranda. This will provide         Consistent with the Assistant Secretary's instructions to
                             plan reviewers with a discrete set of guidelines and        the Deputy Assistant Secretary for Operations to
                             instructions for evaluating and processing roof control     develop a draft centralized administrative review
 46     CMS&H       PP                                                                                                                               In Progress    12/31/13        ---
                             plans. The handbook should specify that                     process for directives, CMS&H will develop, issue and
                             correspondence between the coal operators and plan          implement a Roof Control Plan Approval Handbook to
                             reviewers be maintained as part of the plan approval        address this recommendation.
                             record. This should include procedures for tracking
                             responses due from operators following MSHA
                             requests for plan revisions.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 52                                                        Report No. 05-13-003-06-001
                                                                                                                          U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                         Expected         Revised
Count   Program      Category                       Recommendation                                        Proposed Corrective Action                      Status      Completion       Completion
          Area                                                                                                                                                           Date            Date

                                  The Administrator for CMS&H should direct the District
                                                                                             The CMS&H Administrator will direct the District 4
                                  4 and 12 managers to revise the roof control plan SOP
 47     CMS&H           PP                                                                   Manager (with instructions) to revise the roof control     Completed      04/30/12            ---
                                  to comply with the established PPM requirements as
                                                                                             plan SOP to comply with the PPM requirements.
                                  identified by the OIG report.


                                  The Administrator for CMS&H should direct the District
                                                                                             This will be addressed in the training that will be
                                  4 and 12 managers to provide training to inspectors and
 48     CMS&H            T                                                                   provided to all District 4 and District 12 CMS&H           Completed      04/30/12            ---
                                  specialists regarding the use of the required checklists
                                                                                             inspectors and specialists in April 2012.
                                  and proper documentation of six-month plan reviews.

                                  The Administrator for CMS&H should direct the District     PIL I11-V-01 provides instructions that the six-month
                                  4 and 12 managers to ensure that the six-month             reviews of roof control plans for complex mines are
                                  reviews of roof control plans for complex mines be         conducted by the roof control specialists as required,
 49     CMS&H            T                                                                                                                              Completed      04/30/12            ---
                                  conducted by roof control specialists. When deemed         and that complex plans should be forwarded to TS as
                                  appropriate, complex mine plans should continue to be      appropriate for evaluation. This corrective action is
                                  forwarded to TS for evaluation.                            completed.


                                  The Administrators for CMS&H and MNMS&H should
                                                                                             CMS&H and MNMS&H Administrators will act
                                  direct the revision of the Mine Rescue Instruction Guide
        CMS&H /                                                                              according to the instructions of the Assistant Secretary
 50                     PP        to require a “firewall” to prevent personnel who have                                                                 In Progress      TBD 5             ---
        MNMS&H                                                                               in addressing the recommendation to MSHA to revise
                                  had personal contact with family members from
                                                                                             the Mine Rescue Instruction Guide.
                                  participating in command center decisions.


                                  The Administrators for CMS&H and MNMS&H should
                                  re-instruct Family Liaisons to keep a log of significant
                                  events. The Administrators should direct revisions to
                                  the instructions in the Headquarters Mine Emergency        The CMS&H and MNMS&H Administrators will
        CMS&H /                   Response Guidelines and the Accident/Illness               reinstruct the Family Liaisons to keep a log of
 51                     PP                                                                                                                              Completed      07/31/12            ---
        MNMS&H                    Investigations Procedures Handbooks to clarify that        significant events and remind them of the Handbook
                                  notes should be recorded privately away from the areas     instructions.
                                  where families are gathered and at a time that does not
                                  disrupt the interaction between the liaisons and the
                                  family members.



        5
          MSHA has held a number of meetings with its stakeholders and is pursuing a plan to develop a single mine rescue response strategy. As a result, MSHA has deferred the issue of
        creating a “firewall” to the group of experts developing the response strategy.



                                                                                                                      MSHA Making Progress To Implement Recommendations
                                                                                     53                                                        Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                    Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                      Status     Completion   Completion
          Area                                                                                                                                                      Date        Date




                             The Administrator for CMS&H with the assistance of the
                             Chief of Mine Emergency Operations should modify the
                             existing Mine Emergency Response Development
                             (MERD) program to train appropriate MSHA personnel
                             in command center duties and responsibilities and
                             established mine rescue protocols. This training should     The CMS&H Administrator will collaborate with the
                             include: how to evaluate the level of acceptable risk to    Chief of Emergency Operations to modify existing
 52     CMS&H        T                                                                                                                               Completed    11/30/12        ---
                             mine rescue teams using all available relevant              MERD training to address these recommendations and
                             information; the use of back-up and standby teams;          provide training to managers and supervisors.
                             systematic exploration, including “tying in” areas of the
                             mine; communications between mine rescue teams and
                             the fresh air base; re-ventilation of areas affected by
                             explosions; use and evaluation of inert gases; and
                             possible survivors in refuge alternatives.




                                                                                         CMS&H, MNMS&H, and OAASEI will collaborate with
                                                                                         PEIR to develop a tool to monitor special investigation
                                                                                         resources using the DOL-required System Design
                             The Administrators for CMS&H and MNMS&H, the
                                                                                         Lifecycle Management to process. CMS&H, MNMS&H,
                             Director of OAASEI, and the Director of PEIR should
 53     OAASEI       IS                                                                  and OAASEI in consultation with PEIR will develop the       Completed    07/31/12        ---
                             collaborate in developing a management tool to monitor
                                                                                         business requirements and PEIR will develop the tool.
                             the resources districts devote to special investigations.
                                                                                         Using data currently available in MSIS, reports and key
                                                                                         indicators will be developed to monitor time and activity
                                                                                         reported against special investigation events.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                 54                                                       Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                      Recommendation                                        Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                        Date        Date




                             The Administrators for CMS&H and MNMS&H should
                             collaborate with SOL and the Director of OAASEI to
                             revise Volume III of the PPM:

                             • Define a “potentially flagrant violation” using the
                             numbered objective criteria referenced in the Citation
                             and Order Writing Handbook for Coal and Metal and
                             Nonmetal Mines.
                             • Add “potentially flagrant violations” to the list of
                             violations that are required to be reviewed for special
                             assessment. The matrix that follows this list also          Consistent with the Deputy Assistant Secretary for
                             should be clarified to include “potentially flagrant        Operations to develop a draft centralized administrative
                             violations.”                                                review process for directives, CMS&H, MNMS&H,
        CMS&H /              • Explicitly require that all Special Assessment Review     OAASEI and SOL will collaborate to revise Volume III of
 54                 PP                                                                                                                               In Progress    12/31/13        ---
        MNMS&H               Forms for potentially flagrant violations be submitted to   the PPM to address flagrant violation issues in the
                             the Administrator along with supporting documentation,      internal review report. These revisions will include each
                             even if the district manager does not recommend a           of the five recommended changes enumerated in this
                             flagrant violation special assessment because of the        recommendation.
                             perceived absence of substantial and proximate cause
                             or the presence of mitigating factors.
                             • Include the “Potential Flagrant Violations Not
                             Assessed” oversight report with the reference to the
                             “Assessable Violations Not Marked Report (R-119
                             Report) for regular review by district personnel.
                             • Update guidance on legal requirements for
                             implementing assessments of flagrant violations,
                             including whether repeat flagrant violations must be
                             related to the same distinct hazard.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                 55                                                       Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                          Expected     Revised
Count   Program   Category                     Recommendation                                          Proposed Corrective Action                          Status      Completion   Completion
          Area                                                                                                                                                            Date        Date
                             The Administrators for CMS&H and MNMS&H should
                             collaborate with the SOL, Mine Safety and Health
                             Division, to revise the Citation and Order Writing
                             Handbook for Coal and Metal and Nonmetal Mines to
                             incorporate applicable provisions from PIL I08-III-02.
                             The Handbook should:
                                                                                         Consistent with the Assistant Secretary's instructions to
                                                                                         the Deputy Assistant Secretary for Operations to
                             • Define the term “substantial and proximate cause” and
                                                                                         develop a draft centralized administrative review
                             explain the inspector’s role, if any, in its evaluation.
                                                                                         process for directives, CMS&H and MNMS&H will work
        CMS&H /              • Include instructions that clearly direct inspectors and
 55                 PP                                                                   with SOL to issue a new PIL and the Citation and Order          In Progress    12/31/13        ---
        MNMS&H               specialists to complete a SAR Form for each violation
                                                                                         Writing Handbook will be revised to address this
                             that meets the “numbered objective criteria” for
                                                                                         recommendation.
                             screening potentially flagrant violations. The second
                             scenario in the “Flagrant Citations and Orders” chapter
                             of the Handbook should reference whether the example
                             should be reviewed as a potentially flagrant violation.
                             • Direct inspectors and specialists to include a SAR
                             Form in the packet to be sent to the District Office for
                             each violation meeting the “numbered objective
                             criteria.”

                                                                                         OAASEI will take the lead in revising the PPM and Special
                                                                                         Investigations Procedures Handbook to be consistent with
                                                                                         the applicable sections of the Citation and Order Writing
                                                                                         Handbook. In addition, OAASEI will revise MSHA Form
                             The Administrators for CMS&H and MNMS&H and the             7000-20 and the instructions for completing the form and        Completed     12/31/2012
                             Director of OAASEI should revise the PPM and the            will work with CMS&H and MNMS&H to include these
                             Special Investigations Procedures Handbook to be            instructions in the Citation and Order Writing Handbook.
                             consistent with the procedures and instructions
                                                                                         Consistent with the Assistant Secretary's instructions to the
                             contained in the Citation and Order Writing Handbook
 56     OAASEI      PP                                                                   Deputy Assistant of Secretary for Operations to develop a                                      ---
                             for Coal and Metal and Nonmetal Mines pertaining to
                                                                                         draft centralized administrative review process for
                             possible knowing and/or willful violation reviews.          directives, OAASEI will work with CMS&H and MNMS&H to
                             Instructions for completing MSHA Form 7000-20 should        include these instructions in the Citation and Order Writing
                             be included in the Citation and Order Writing Handbook      Handbook. Consistent with the Deputy Assistant Secretary
                             for Coal and Metal and Nonmetal Mines.                      for Operations’ development of a draft centralized
                                                                                         administrative review process for directives, CMS&H,            In Progress   12/31/2013
                                                                                         MNMS&H, OAASEI and SOL will revise Volume III of the
                                                                                         PPM to address flagrant violation issues identified in the
                                                                                         internal review report.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                 56                                                         Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                    Expected     Revised
Count   Program   Category                      Recommendation                                        Proposed Corrective Action                      Status     Completion   Completion
          Area                                                                                                                                                      Date        Date

                             The Administrator for CMS&H should consult with
                             district managers to determine whether the additional       The Administrator will consider more positions within
 57     CMS&H       HR       staffing is sufficient to address Section 110(c) special    the special investigations branch on an as needed           Completed    06/30/12        ---
                             investigation demands, particularly at highly               basis as the budget allows.
                             noncompliant mines.
                             The Administrator for CMS&H should direct the District
                             4 and District 12 managers to require their Supervisory
                             Special Investigators (SSI) to prepare and maintain a       The CMS&H Administrator will instruct District 4 and
                             memorandum detailing the reasons for not conducting a       District 12 to require their SSIs to prepare and maintain
 58     CMS&H        T                                                                                                                               Completed    04/30/12        ---
                             special investigation in cases where the district           a memorandum detailing the reasons for not conducting
                             manager decides to take no further action, in               special investigations.
                             accordance with the Special Investigations Procedures
                             Handbook.
                                                                                         OAASEI will take the lead and, in collaboration with
                                                                                         CMS&H and MNMS&H, will revise the Accountability
                                                                                         Handbook to include a requirement for Accountability
                             The Assistant Secretary should direct OAASEI to             Office reviews to evaluate the effectiveness of
 59     OAASEI      PP       evaluate implementation of corrective actions resulting     corrective actions taken to address previously identified   Completed    12/31/12        ---
                             from internal reviews during each annual district review.   issues, including issues identified during both internal
                                                                                         and accountability reviews. OAASEI will also address
                                                                                         recommendations from the OIG’s ongoing review of the
                                                                                         Accountability Program.

                             The Administrator for CMS&H should collaborate with
                                                                                         OAASEI will, in collaboration with CMS&H and
                             the Director of OAASEI to provide a means for
                                                                                         MNMS&H, revise the Accountability Handbook to
                             evaluation of the effectiveness of corrective actions for
                                                                                         remove references to MSHA Headquarters
                             deficiencies identified in this report and in future
                                                                                         accountability reviews, replacing those reviews with
                             accountability reviews. Where practical, these
                                                                                         those conducted by the Office of Accountability. The
                             evaluations should include objective measurements of
                                                                                         Handbook revisions will also contain requirements for
                             results and effects of the corrective actions. In cases
                                                                                         Accountability Office reviews to evaluate the
 60     OAASEI      PP       where training is identified as a corrective action,                                                                    Completed    12/31/12        ---
                                                                                         effectiveness of corrective actions taken to address
                             knowledge checks or equivalent means should be
                                                                                         previously identified issues. OAASEI will address
                             conducted to ensure an adequate understanding of the
                                                                                         recommendations from the OIG’s ongoing review of the
                             material. In the “General Conclusions and
                                                                                         Accountability Program.
                             Recommendations” section of the report, the Internal
                             Review team has outlined an approach that could be
                                                                                         CMS&H, MNMS&H and EPD will collaborate on
                             used for evaluating the effectiveness of corrective
                                                                                         developing an online training with knowledge checks.
                             actions implemented to address identified deficiencies.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                  57                                                       Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                       Expected     Revised
Count   Program   Category                      Recommendation                                         Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                         Date        Date
                             The Administrator for CMS&H should direct the revision
                             of the PPM to:

                             • Clarify when it is appropriate to establish a new MMU
                             number, including situations when mining equipment is
                             replaced with similar machinery. Policy should clearly
                             explain procedures for assigning respirable dust
                                                                                          CMS&H will modify Chapter I (Respirable Dust) in the
                             standards when a new MMU is approved to account for
                                                                                          Health Inspection Procedures Handbook to specify
                             the mine’s history of reduced respirable dust standards
                                                                                          when MMU numbers may be changed and what
                             and expected geological conditions.
                                                                                          historical information such as the reduced dust
                             • Clarify application of 30 CFR 70.207(a) as it relates to
                                                                                          standard due to quartz must be continued even when a
                             the collection of bimonthly samples by mine operators
                                                                                          new MMU number is generated. In addition, consistent
 61     CMS&H       PP       and provide training on the revised policy. This policy                                                                  In Progress    06/30/13        ---
                                                                                          with the Assistant Secretary's instructions to the Deputy
                             should provide guidance on when an MMU has
                                                                                          Assistant Secretary for Operations to develop a draft
                             operated a sufficient number of days during a bimonthly
                                                                                          centralized administrative review process for directives,
                             period to warrant operator sampling.
                                                                                          the PPM will be revised to clearly state the requirement
                             • Establish criteria for determining abatement times for
                                                                                          to collect valid respirable dust sample as part of a
                             citations issued for excessive respirable dust
                                                                                          complete inspection.
                             concentrations.
                             • Provide consistent guidance between Section I.103-4
                             of the PPM and the Coal Mine Health Inspection
                             Procedures Handbook. Revisions should clarify when
                             MSHA will collect respirable dust samples on
                             each operating MMU and state that invalid or voided
                             samples do not count for fulfilling this obligation.




                                                                                          MSHA form 2000-142 will be modified in conjunction
                                                                                          with the implementation of the new respirable dust
                             The Administrator for CMS&H should direct revisions to
                                                                                          computer system scheduled for release in March 2012.
                             MSHA Form 2000-142 to eliminate the reference
                                                                                          The setting of the standard due to percentage of quartz
                             “Headquarters Only” for Item 7C and to require the
 62     CMS&H        IS                                                                   has been available since 1981 to the districts as noted     Completed      05/30/12        ---
                             serial number of the mining machine(s) and an explicit
                                                                                          in the instructions for completion of MSHA Form
                             reference to the section or location in the mine for each
                                                                                          2000-142. Form 2000-142 has been revised and is
                             MMU to be recorded for Item 11 (Remarks).
                                                                                          being shared with the National Council of Field Labor
                                                                                          Locals for approval.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                  58                                                       Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                   Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                     Status     Completion   Completion
          Area                                                                                                                                                     Date        Date


                             The Administrator for CMS&H should collaborate with
                                                                                         EPD through the Training Committee will work with
                             the Director of EPD to provide training on the revised
                                                                                         CMS&H to ensure the National Mine Health and Safety
                             policies for district health department supervisors,
                                                                                         Academy curriculum is up-to-date with all revised
 63      EPD         T       assistant district managers–technical, and other                                                                       Completed    07/31/12        ---
                                                                                         policies. Training being developed for potential
                             appropriate CMS&H personnel. This training should
                                                                                         supervisors will cover changes made based on revised
                             also include procedures for using the revised MSHA
                                                                                         policies.
                             Form 2000-142.




                             The Administrator for CMS&H should consider whether
                                                                                         The new respirable dust computer system scheduled
                             it is appropriate to store serial numbers and the
 64     CMS&H        IS                                                                  for release in March 2012 has a required field for         Completed    03/31/12     04/18/12
                             section/location designations for each MMU in the
                                                                                         specifying the location of the MMU.
                             MSHA enterprise database.




                             The Administrator for CMS&H should direct that training     Training has been provided to all district health
                             be provided to District 4 and 12 inspectors, specialists,   supervisors on the conduct, documentation and review
                             supervisors, assistant district managers, and other         of respirable dust surveys during multiple national
 65     CMS&H        T                                                                                                                              Completed    04/30/12        ---
                             appropriate personnel on proper procedures for              health supervisor meetings. This will also be
                             conducting, documenting, and reviewing MSHA                 addressed during the April 2012, training for District 4
                             respirable dust surveys.                                    and District 12 CMS&H inspectors and specialists.




                                                                                         PEIR will develop the requested report to track
                             The Director of PEIR should develop and implement a         abatement times for respirable dust violations. The
                             standard report to track abatement times for respirable     development is dependent on the successful Samples
 66      PEIR        IS      dust violations, and the Administrator for CMS&H            COBOL Conversion release to allow for the linkage of       Completed    05/30/12        ---
                             should direct the Health Division to use the report to      the sample and the violation. The Administrator for
                             monitor district performance.                               CMS&H will direct the Health Division to use the report
                                                                                         to monitor district performance.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                 59                                                       Report No. 05-13-003-06-001
                                                                                                                        U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                         Expected     Revised
Count   Program   Category                      Recommendation                                          Proposed Corrective Action                        Status      Completion   Completion
          Area                                                                                                                                                           Date        Date
                                                                                           EPD currently has a system to track retraining of
                                                                                           inspectors and is working on updating the reports to
                                                                                           better reflect the retraining inspectors receive at the
                                                                                                                                                        Completed     10/31/2012
                                                                                           National Mine Health and Safety Academy.
                                                                                           Additionally, EPD will begin working on integrating input
                             The Director of EPD should collaborate with the
                                                                                           screens for use by CMS&H and MNMS&H to track
                             Administrators for CMS&H and MNMS&H to improve
                                                                                           retraining conducted at other sites and certified by
                             the tracking of retraining of supervisors, inspectors, and
 67      EPD         IS                                                                    CMS&H and MNMS&H. After these changes are                                                   ---
                             specialists. The Administrators should provide an
                                                                                           completed, reports on retraining will be available from
                             annual report to the Assistant Secretary detailing
                                                                                           one reporting system.
                             compliance with this policy.
                                                                                           The estimated completion date for integrating a
                                                                                                                                                        In Progress   3/31/2013
                                                                                           common tracking system along with tracking
                                                                                           journeyman training through the program areas is
                                                                                           March 2013.


                                                                                           Consistent with the Assistant Secretary's instructions to
                             The Administrators for CMS&H and MNMS&H should                the Deputy Assistant of Secretary for Operations to
                             direct the revision of the PPM to clarify MSHA’s              develop a draft centralized administrative review
        CMS&H /
 68                 PP       interpretation of the phrase “mine in its entirety at least   process for directives, the PPM will be revised to clarify   In Progress    12/31/13        ---
        MNMS&H
                             four times a year,” as referenced by Section 103(a) of        MSHA's interpretation of the phrase “mine in its entirety
                             the Mine Act.                                                 at least four times a year” as referenced in Section
                                                                                           103(a) of the Mine Act.


                             The Administrator for CMS&H should direct the revision
                             of the Coal Mine Safety and Health Supervisor’s               Consistent with the Assistant Secretary’s instructions to
                             Handbook to address correction of inspection                  the Deputy Assistant of Secretary for Operations to
                             deficiencies identified after a fiscal quarter expires, so    develop a draft centralized administrative review
                             that salient inspection activities can be conducted four      process for directives, the Coal Mine Safety and Health
                             times a year. Supervisors should direct inspectors            Supervisor's Handbook will be revised to address
                             responsible for deficiencies to reopen regular                correction of inspection deficiencies identified after a
 69     CMS&H       PP                                                                                                                                  In Progress    12/31/13        ---
                             inspections and complete deficient activities related to      fiscal quarter expires, so that salient inspection
                             salient parts of regular inspections. Prior to                activities can be conducted four times a year. CMS&H
                             implementation, the Administrator should consult with         will consult with PEIR to ensure that other programs or
                             the Director of PEIR to ensure that other programs or         computer-based oversight tools will not be adversely
                             computer-based oversight tools will not be adversely          affected when regular inspections are reopened after
                             affected when regular inspections are reopened after          the end of a fiscal quarter.
                             the end of a fiscal quarter.




                                                                                                                    MSHA Making Progress To Implement Recommendations
                                                                                    60                                                       Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                    Expected     Revised
Count   Program   Category                      Recommendation                                         Proposed Corrective Action                     Status     Completion   Completion
          Area                                                                                                                                                      Date        Date




                             The Administrator for CMS&H should direct the
                             following revisions to the General Coal Mine Inspection
                             Procedures and Inspection Tracking System Handbook:
                             • Define the salient parts of a regular inspection
                             consistent with the requirements of subsections
                             103(a)(3) and (4) of the Mine Act.

                             • Provide instruction on preparing Inspection Tracking
                             System (ITS) lists at the start of a regular inspection,
                             and update them thereafter, to provide a complete list
                             of salient items that need to be inspected. Inspection
                             activities currently listed only in the Inspection           This is included in the Evaluation of Enforcement
                             Procedure Header Documentation tables should be              Policies and Procedures directed by the Assistant
                             incorporated into ITS lists in a manner that permits         Secretary on July 21, 2010, which is well underway. All
                             eliminating the former. The Handbook should explain          of the policies and procedures have been collected and
                             that the purpose of the ITS includes planning and            identified, and during the week of January 17, 2012, the
                             coordinating inspection activities, rather than proving      Assistant Secretary created a task force to begin the
 70     CMS&H       PP                                                                                                                               Completed    12/31/12        ---
                             their completion.                                            next phase to be overseen by the Deputy Assistant
                             • Provide instruction on obtaining, preparing, and           Secretary for Operations. The next phase is the review
                             maintaining regular inspection tracking maps.                of the draft handbook and the development of a final
                             Inspectors should be directed to label MMUs and              handbook for inspectors to use. The final handbook will
                             approved evaluation/measurement point locations on           also include any additional procedure and policy
                             tracking maps. Inspectors should update the map to           changes identified in the internal review report.
                             show the extent of mining when the MMU was
                             inspected. Instruction to show the “extent of
                             daily travels” on the map should be clarified to also
                             direct inspectors to show travel start and stop points,
                             the inspector’s initials, and date of inspection. Where
                             possible, the ITS should be streamlined to avoid
                             duplication with the tracking map documentation. Line
                             diagrams should not be used in lieu of tracking maps.
                             • Define activities that Right of Entry inspector trainees
                             may perform at a mine before they receive their AR
                             credentials.




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                   61                                                      Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General



          Lead                                                                                                                                                      Expected     Revised
Count   Program   Category                     Recommendation                                        Proposed Corrective Action                        Status      Completion   Completion
          Area                                                                                                                                                        Date        Date


                                                                                        This is included in the Evaluation of Enforcement
                                                                                        Policies and Procedures directed by the Assistant
                                                                                        Secretary on July 21, 2010, which is well underway. All
                             The Administrator for CMS&H should establish a             of the policies and procedures have been collected and
                             procedure to update the list of records and postings       identified, and during the week of January 17, 2012, the
                             contained in the General Coal Mine Inspection              Assistant Secretary created a task force to begin the
 71     CMS&H       PP                                                                                                                               Completed      12/31/12        ---
                             Procedures and Inspection Tracking System Handbook         next phase to be overseen by the Deputy Assistant
                             when new regulations require the operator to maintain      Secretary for Operations. The next phase is the review
                             additional records or postings.                            of the draft handbook and the development of a final
                                                                                        handbook for inspectors to use. The final handbook is
                                                                                        also to include any additional procedure and policy
                                                                                        changes as identified in the internal review report.


                             The Administrator for CMS&H should direct District 4
                                                                                        This will be addressed during the April 2012, training for
                             and 12 managers to conduct follow-up reviews of
                                                                                        all District 4 and District 12 CMS&H inspectors and
 72     CMS&H        T       inspection reports to evaluate the effectiveness of                                                                     Completed      04/30/12        ---
                                                                                        specialists. Annual training will be scheduled for all
                             training provided and take appropriate corrective
                                                                                        new supervisors on a recurring basis.
                             actions for any deficiencies identified.


                                                                                        This is included, in part, with the Evaluation
                                                                                        of Enforcement Policies and Procedures directed by the
                                                                                        Assistant Secretary on July 21, 2010, which is well
                             The Administrator for CMS&H should direct a complete
                                                                                        underway. All of the policies and procedures have
                             evaluation of the effectiveness of the ITS. This
                                                                                        been collected and identified, and during the week of
                             evaluation should consider the time used to maintain
                                                                                        January 17, 2012, the Assistant Secretary created a
                             and update the system and the value realized in
                                                                                        task force to begin the next phase to be overseen by
                             tracking the progress of an inspection. Continued use
                                                                                        the Deputy Assistant Secretary of Operations. The next
 73     CMS&H        IS      of the ITS and possible modifications to the system                                                                     In Progress    09/30/13        ---
                                                                                        phase is the review of the draft handbook and the
                             would be determined from this analysis. Modifications
                                                                                        development of a final handbook for inspectors to use.
                             should eliminate areas of duplication, minimize the time
                                                                                        The final handbook will also include any additional
                             required to document complete inspections, and
                                                                                        procedure and policy changes identified in the internal
                             provide enforcement personnel with a useful resource
                                                                                        review report. Following the completion of the
                             for conducting quality inspections.
                                                                                        handbook by December 31, 2012, the Administrator for
                                                                                        CMS&H will evaluate the effectiveness of the ITS in
                                                                                        accordance with this recommendation.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                62                                                        Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                       Expected     Revised
Count   Program   Category                      Recommendation                                         Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                         Date        Date


                                                                                          PEIR will modify IPAL to pre-populate data such as
                             The Assistant Secretary should instruct the Director of      Event Number, Mine ID, Mine Name and Operator
                             PEIR to develop, to the extent possible, fillable forms to   Name, etc. The following forms will be fillable: 2000-34
                             be used by inspectors when completing approved forms         new, 2000-84 new, 2000-86, 2000-87, 2000-96,
 74      PEIR        IS      as part of an inspection or investigation. These fillable    2000-142 new, 2000-146, 2000-207 new, 2000-209,             Completed      09/30/12        ---
                             forms should be incorporated into the IPAL application       2000-223, 4000-29, 4000-125a, 4000-127a, 7000-33
                             to allow the inspector to interact with the directives       new, 7000-34 new, 7000-35 new, ATF Form 5030.5,
                             system in a seamless, user-friendly fashion.                 and ATF Form 5400.5. The expected implementation
                                                                                          date is dependent on union notification and acceptance.


                                                                                          EPD is working with CMS&H to develop the curriculum
                                                                                          for a course for newly promoted or acting supervisors.
                             The Administrator for CMS&H and the Director of EPD
                                                                                          The course will cover key material and responsibilities
                             should develop a training program for temporarily
                                                                                          that individuals need to have as soon as possible after
                             promoted supervisors to address pertinent parts of the
                                                                                          assuming a new supervisory position. This course will
                             Coal Mine Safety and Health Supervisor’s Handbook.
                                                                                          be developed and delivered online through the existing
                             This training should include a knowledge check.
 75      EPD         T                                                                    distance learning format and will contain knowledge         Completed      09/30/12        ---
                             Consideration should be given to utilizing distance
                                                                                          checks.
                             learning options. In addition, guidelines should be
                             developed for assistant district managers to provide the
                                                                                          CMS&H will issue guidelines for assistant district
                             level of oversight necessary for work groups with
                                                                                          managers to provide the level of oversight necessary
                             inexperienced acting field office supervisors.
                                                                                          for work groups with inexperienced acting field office
                                                                                          supervisors.


                             The Administrators for CMS&H and MNMS&H should
                             direct the revision of the PPM to address criteria for
                             determining when Section 103(i) inspections will be
                                                                                          Consistent with the Assistant Secretary's instructions to
                             required for reasons other than methane liberation.
                                                                                          the Deputy Assistant of Secretary for Operations to
        CMS&H /              Criteria should define when section 103(i) inspections
 76                 PP                                                                    develop a draft centralized administrative review           In Progress    12/31/13        ---
        MNMS&H               are required at a mine where there exists “some other
                                                                                          process for directives, CMS&H and MNMS&H will
                             especially hazardous condition.” The PPM also should
                                                                                          revise the PPM to address this issue.
                             be revised to define the degree of injury resulting from
                             an ignition or explosion that would require Section
                             103(i) inspections.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                  63                                                        Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                        Expected     Revised
Count   Program   Category                      Recommendation                                          Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                          Date        Date

                                                                                           Consistent with the Assistant Secretary's instructions to
                             The Administrator for CMS&H should direct the revision        the Deputy Assistant Secretary for Operations to
                             of the UMF Procedures Handbook to include an up-to-           develop of a draft centralized administrative review
 77     CMS&H       PP                                                                                                                                 In Progress    12/31/13        ---
                             date copy of the Mine Information Form generated from         process for directives, the UMF Procedures Handbook
                             MSIS.                                                         will be revised to include an up-to-date copy of the Mine
                                                                                           Information Form generated from MSIS.

                             The Administrator for CMS&H should collaborate with
                             the Director of PEIR to revise the General Coal Mine
                             Inspection Procedures and Inspection Tracking System
                             Handbook to:                                                  This is included in the Evaluation of Enforcement
                                                                                           Policies and Procedures directed by the Assistant
                             • Include procedures for inspectors to use IPAL to            Secretary on July 21, 2010, which is well underway. All
                             upload air sample collection data.                            of the policies and procedures have been collected and
                             • Define when inspectors are to collect total methane         identified, and during the week of January 17, 2012, the
                             liberation air samples, consistent with guidance in the       Assistant Secretary created a task force to begin the
                             Coal Mine Safety and Health Supervisor’s Handbook.            next phase to be overseen by the Deputy Assistant
                             In addition, guidance should address sample collection        Secretary for Operations. The next phase is the review
                             timing with respect to coal production and major air          of the draft handbook and the development of a final
 78     CMS&H       PP       changes.                                                      handbook for inspectors to use. The final handbook is       Completed      12/31/12        ---
                             • Define situations where more precise methods are to         also to include any additional procedure and policy
                             be used for measuring air velocity and provide                changes as identified in the internal review report that
                             instruction on how to take them.                              need to be included.
                             • Include checks for compliance with 30 CFR 75.400
                             and 75.403 in the listing of inspection activities that can   PEIR will collaborate with CMS&H to ensure that the
                             be conducted during Section 103(i) spot inspections at        General Coal Mine Inspection Procedures and
                             mines selected for such inspections due to excessive          Inspection Tracking System Handbooks as well as the
                             methane liberation, methane hazards, or ignitions.            IPAL users’ guide include procedures for inspectors to
                             • Direct inspectors to review each item on the Mine           upload air sample collection data into IPAL.
                             Information Form for completeness and accuracy
                             during a regular inspection. This should include
                             instructions for when and how to update the form.

                                                                                           IPAL coding changes to upload air sample collection
                             The Director of PEIR should complete revisions to IPAL
                                                                                           data have been completed. Union notification occurred
                             to provide data-entry validation and permit inspectors to
 79      PEIR        IS                                                                    on February 15, 2012. PEIR is awaiting union                Completed      03/31/12        ---
                             upload air sample collection data directly to the
                                                                                           acceptance to begin implementation of this IPAL
                             enterprise database for integration with the LIMS.
                                                                                           modification.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                   64                                                       Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                  Expected     Revised
Count   Program   Category                     Recommendation                                         Proposed Corrective Action                    Status     Completion   Completion
          Area                                                                                                                                                    Date        Date




                                                                                         Effective June 1, 2011, the management and operation
                                                                                         of the NADL was transferred from CMS&H to TS. It is
                                                                                         being incorporated into the Pittsburgh Safety and
                                                                                         Health Technology Center as a new division. This
                                                                                         laboratory processes approximately 50,000 inspector
                                                                                         rock dust samples for Total Incombustible Content and
                                                                                         40,000 mine gas samples per year. The assigned goal
                                                                                         is to decrease the turn-around-time and eventually
                                                                                         receive accreditation by a nationally recognized body.
                                                                                         Currently, the staffing of the laboratory has been
                                                                                         increased by 3 contract employees (an increase of 10
                             The Director of TS should collaborate with the Director
                                                                                         FTE is planned for FY 2012). New equipment has been
                             of PEIR to complete planned upgrades to NADL to
 80       TS         IS                                                                  procured and implemented to a limited extent. A local     Completed    12/31/12        ---
                             replace outdated equipment and computer systems and
                                                                                         area network was installed including a complete
                             integrate LIMS into the MSHA enterprise database.
                                                                                         computer system upgrade. Through MSHA funding, a
                                                                                         general upgrade to the physical site (space renovation,
                                                                                         increased HVAC) has been designed by the General
                                                                                         Services Administration, and construction is scheduled
                                                                                         to begin in April 2012. The integration of the NADL
                                                                                         data system, the Pittsburgh LIMS, and MSIS is on-
                                                                                         target and is consistent with the contemplated changes
                                                                                         of MSIS for CMS&H. Further improvements to meet
                                                                                         the assigned goals are dependent on the completion of
                                                                                         the laboratory physical site upgrade which is targeted
                                                                                         for August 2012.




                             The Director of PEIR should direct modifications to
                             IPAL to automatically insert the following statement into   IPAL will be modified to automatically insert text for
 81      PEIR        IS      the Condition or Practice for each Section 104(d)           Section 104(d) violations with minimal development        Completed    03/31/12        ---
                             action: “This violation is an unwarrantable failure to      time.
                             comply with a mandatory standard.”




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 65                                                        Report No. 05-13-003-06-001
                                                                                                                       U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                        Expected     Revised
                                                                                                        Proposed Corrective Action
Count   Program   Category                      Recommendation                                                                                           Status      Completion   Completion
          Area                                                                                                                                                          Date        Date




                                                                                           EPD will develop refresher online training for inspectors
                                                                                           on citation and order writing. Knowledge checks will be     Completed     7/31/2012
                                                                                           used to determine the effectiveness of the training.
                             The Director of EPD should direct the revision of
                             training programs for citation and order writing to reflect
                             changes in policies and procedures. The training              EPD will work with the Deputy Assistant Secretary for
 82      EPD         T                                                                                                                                                                ---
                             should be provided to all enforcement personnel,              Operations to put a procedure in place ensuring that
                             supervisors, and managers. Knowledge checks should            training programs for all enforcement personnel,
                             be used to determine the effectiveness of the training.       supervisors and managers on citation and order writing
                                                                                           incorporate in a timely fashion, all changes in new
                                                                                           policies and procedures, including regulatory changes.      In Progress   6/30/2013




                             The Administrators for CMS&H and MNMS&H should
                             collaborate with the SOL, Mine Safety and Health
                             Division, to revise the Citation and Order Writing
                             Handbook for coal mines and metal and nonmetal
                                                                                           SOL guidance on this issue is pending. Once received,
                             mines to provide a clear evaluation process for
                                                                                           and consistent with the Assistant Secretary's
                             inspectors to determine gravity and negligence for each
        CMS&H /                                                                            instructions to the Deputy Assistant of Secretary for
 83                 PP       relevant item on the Mine Citation/Order Form. This                                                                       In Progress    06/30/13        ---
        MNMS&H                                                                             Operations to develop a draft centralized administrative
                             direction should include definitions for each level of
                                                                                           review process for directives, CMS&H and MNMS&H
                             likelihood listed on the Form. The revised Handbook
                                                                                           will begin efforts to address this recommendation.
                             also should incorporate definitions for the levels of
                             negligence that are consistent with those listed in 30
                             CFR Part 100 and clearly incorporate the meaning of
                             “mitigating circumstances.”




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                   66                                                       Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                     Expected     Revised
Count   Program   Category                     Recommendation                                        Proposed Corrective Action                       Status      Completion   Completion
          Area                                                                                                                                                       Date        Date



                                                                                        Guidance will be provided to supervisors and managers
                                                                                        through either face-to-face or video teleconferencing
                             The Administrator for CMS&H should direct the revision
                                                                                        training on the proper review of inspection reports and
                             of the Coal Mine Safety and Health Supervisor’s
                                                                                        enforcement actions. Key indicator reports are              Completed     9/30/2012
                             Handbook to provide supervisors with a list of
                                                                                        reviewed at the district and the headquarters level on
                             fundamental procedures for reviewing enforcement
                                                                                        outstanding violations that are not abated. Managers at
                             actions. The Handbook should direct assistant district
                                                                                        the district level will be trained to address extensions
                             managers to routinely review a representative number
                                                                                        and assure that extensions are warranted.
 84     CMS&H       PP       of enforcement actions for conformity to these                                                                                                        ---
                             procedures. Managers should review a representative
                                                                                        Consistent with the Assistant Secretary's instructions to
                             number of extensions to citations to ensure that
                                                                                        the Deputy Assistant Secretary for Operations to
                             inspectors provide specific reasons for extending
                                                                                        develop a draft centralized administrative review
                             termination due times that give primary consideration to
                                                                                        process for directives, CMS&H will revise the Coal Mine     In Progress   12/31/2013
                             the health and safety of miners and are not for the
                                                                                        Safety and Health Supervisor's Handbook to provide
                             convenience of the mine operator or MSHA.
                                                                                        supervisors with a list of procedures for reviewing
                                                                                        enforcement actions.




                             The Administrator for CMS&H should consider
                             removing the Health/Safety/Other block from the Mine
                             Citation/Order Form. The Administrator also should
                                                                                        CMS&H will consider this recommendation, and if
                             consider revising the Citation and Order Writing
 85     CMS&H       PP                                                                  appropriate, work with PEIR to remove these blocks on       Completed      09/30/12        ---
                             Handbook for Coal Mines and Metal and Nonmetal
                                                                                        the citation and order form.
                             Mines to remove the direction for CMS&H inspectors to
                             complete this field. The Director of PEIR should make
                             corresponding changes to the IPAL data input screen.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                                67                                                       Report No. 05-13-003-06-001
                                                                                                                      U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                       Expected     Revised
Count   Program   Category                      Recommendation                                          Proposed Corrective Action                      Status      Completion   Completion
          Area                                                                                                                                                         Date        Date


                                                                                           This is included in the Evaluation of Enforcement
                                                                                           Policies and Procedures directed by the Assistant
                             The Administrators for CMS&H and MNMS&H should                Secretary on July 21, 2010, which is well underway. All
                             direct the revision of their General Inspection Procedure     of the policies and procedures have been collected and
                             Handbooks to move note-taking instructions related to         identified, and during the week of January 17, 2012, the
                             enforcement actions to the Citation and Order Writing         Assistant Secretary created a task force to begin the
                             Handbook for coal mines and metal and nonmetal                next phase to be overseen by the Deputy Assistant
                             mines. The Handbook should direct inspectors to               Secretary for Operations. The next phase is the review
        CMS&H
 86                 PP       document both the facts necessary for evaluating              of the draft handbook and the development of a final       In Progress    12/31/12     12/31/13
        /MNMS&H
                             compliance, gravity, and negligence and the logic for         handbook for inspectors to use. The final handbook is
                             deriving conclusions from the facts. Inspectors should        also to include any additional procedure and policy
                             identify in their notes the records (specific to the record   changes as identified in the internal review report that
                             type, dates, and relevant information from such               need to be included. MNMS&H has established a
                             records) used as a factor to determine negligence for         handbook committee to update and revise all
                             each violation.                                               handbooks, including its General Inspection
                                                                                           Procedures. That handbook will be revised to address
                                                                                           the issue of note-taking instructions.




                                                                                           CMS&H's revisions to its General Inspection
                                                                                           Procedures Handbook are included the Evaluation of
                                                                                           Enforcement Policies and Procedures directed by the
                                                                                           Assistant Secretary on July 21, 2010, which is well
                             The Administrator for CMS&H should revise the
                                                                                           underway. All of the policies and procedures have
                             General Coal Mine Inspection Procedures and
                                                                                           been collected and identified, and during the week of
                             Inspection Tracking Handbook to include a statement
                                                                                           January 17, 2012, the Assistant Secretary created a
 87     CMS&H       PP       that approved plans for the first panel in a longwall                                                                    Completed      12/31/12        ---
                                                                                           task force to begin the next phase to be overseen by
                             district are often unique. Inspectors should review
                                                                                           the Deputy Assistant Secretary for Operations. The
                             these plans carefully and focus on compliance with
                                                                                           next phase is the review of the draft handbook and the
                             these requirements during inspections of longwalls.
                                                                                           development of a final handbook for inspectors to use.
                                                                                           The final handbook is also to include any additional
                                                                                           procedure and policy changes as identified in the
                                                                                           internal review report that need to be included.




                                                                                                                   MSHA Making Progress To Implement Recommendations
                                                                                   68                                                       Report No. 05-13-003-06-001
                                                                                                                 U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                               Expected     Revised
Count   Program   Category                     Recommendation                                           Corrective Action                        Status     Completion   Completion
          Area                                                                                                                                                 Date        Date




                                                                                      On May 7, 2012, the Assistant Secretary convened a
                                                                                      two-day mine rescue summit at the National Mine
                             The Assistant Secretary should convene a panel of        Health and Safety Academy. Mine rescue experts from
                             mine rescue experts from industry, state and federal     all sectors of the mining world were invited to attend.
                             government, labor, and academia to review, refine, and   The summit coincided with mine rescue competitions,
                             develop mine rescue and recovery protocol to address     so that participants could attend the summit as well.
 88      OAS         C       lessons learned from the UBB disaster. The panel         The goal of the summit was to provide information from    Completed     5/7/12         ---
                             should also consider the conditions and events           all sectors about the latest improvements in mine
                             surrounding other recent mine accidents, including       rescue, to identify gaps in mine rescue response and
                             events occurring in other countries. The panel should    preparedness, and to decide what further actions are
                             include mine rescue team members or trainers.            needed to ensure that a swift and comprehensive
                                                                                      response occurs from government, industry and others
                                                                                      when a mine emergency occurs.




                                                                                                              MSHA Making Progress To Implement Recommendations
                                                                               69                                                      Report No. 05-13-003-06-001
                                                                                                                  U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                 Expected     Revised
Count   Program   Category                     Recommendation                                           Corrective Action                          Status     Completion   Completion
          Area                                                                                                                                                   Date        Date

                                                                                      In a Memorandum dated July 21, 2010, the Assistant
                                                                                      Secretary asked the Administrators for CMS&H and
                                                                                      MNMS&H to establish a detailed plan for the review of
                                                                                      all of the policies and procedures inspectors must follow
                                                                                      when conducting inspections. A plan was then put into
                                                                                      place that has resulted in a draft of the General Coal
                                                                                      Mine Inspection Procedures and Inspection Tracking
                                                                                      System Handbook (MNMS&H has established its own
                                                                                      committee to revise all of the MNMS&H handbooks,
                                                                                      including its General Procedures Handbook).

                                                                                      On January, 17, 2012, the Assistant Secretary created
                                                                                      a task force to be overseen by the Deputy Assistant
                                                                                      Secretary for Operations to begin the next phase of the
                                                                                      project to review the draft coal mine enforcement
                                                                                      handbook and develop an improved handbook for use
                                                                                      by CMS&H mine inspectors. The improved handbook
                                                                                      will also include any additional procedure and policy
                             The Assistant Secretary should reestablish the
                                                                                      changes identified by the internal review report. The
 89      OAS        PP       functionality and improve the utility of the MSHA
                                                                                      task force has also been charged with identifying and
                                                                                                                                                  Completed    2/23/12        ---
                             Directives System.
                                                                                      developing changes to the Directives System’s ITS
                                                                                      technology so that the handbook and forms included in
                                                                                      the handbook interact in a seamless user-friendly
                                                                                      fashion.

                                                                                      On February 23, 2012, the Assistant Secretary also
                                                                                      assigned the Deputy Assistant Secretary for Operations
                                                                                      the responsibility for developing a centralized
                                                                                      administrative review process for updating and
                                                                                      monitoring all of MSHA’s directives and the Directives
                                                                                      System so that MSHA’s enforcement and other
                                                                                      personnel are well informed and MSHA programs
                                                                                      operate in a fair and consistent manner. The
                                                                                      administrative process will have procedures in place to
                                                                                      monitor policy development, evaluate the program
                                                                                      directives for need, consistency and impact on the
                                                                                      agency, and facilitate the activities of the policy
                                                                                      coordinators from all MSHA programs.




                                                                                                              MSHA Making Progress To Implement Recommendations
                                                                                 70                                                    Report No. 05-13-003-06-001
                                                                                                                          U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                            Expected       Revised
Count   Program      Category                        Recommendation                                              Corrective Action                         Status        Completion     Completion
          Area                                                                                                                                                              Date          Date

                                  The Assistant Secretary should direct the revision of the
                                                                                               The Assistant Secretary directed staff to incorporate
                                  APPM to incorporate APL A11-I-01 which established
                                                                                               APL A11-I-01, which establishes policies and
                                  policies and procedures for required continuing
                                                                                               procedures for required continuing education for ARs
                                  education of ARs. In addition, the APPM should be
 90         OAS         PP                                                                     into the APPM no later than December 31, 2013. This       Completed        6/26/12           ---
                                  revised to include a permanent requirement for two-
                                                                                               includes permanent requirements for two-week
                                  week biannual training for field office supervisors.
                                                                                               biannual training for field office supervisors at the
                                  Newly-selected supervisors should be provided this
                                                                                               earliest possible date.
                                  training at the earliest possible date.


                                                                                               The Assistant Secretary and MSHA have held many
                                                                                               stakeholder meetings on mine rescue (such as
                                  As outlined in the May 11, 2011 Memorandum of
                                                                                               meetings in May, July and September 2012), including
                                  Understanding (MOU) with the Interstate Mining
                                                                                               several with the states and the IMCC (the organization
                                  Compact Commission (IMCC), the Assistant Secretary
                                                                                               representing a group of states with significant mining
                                  should continue to pursue MOUs with states having
                                                                                               interests). State by state MOUs were discussed with
 91         OAS         PP        enforcement agencies or state-sponsored mine rescue                                                                    In Progress 6    Ongoing           ---
                                                                                               the IMCC state agency group, and a plan is being
                                  teams for the mining industry. These MOUs should
                                                                                               pursued to develop a single mine rescue response
                                  focus on the cooperation of federal and state agencies
                                                                                               strategy, instead of entering into MOUs with each state
                                  during a mine emergency operation, including an
                                                                                               (In coal, for example, in 2012, there were 25 coal
                                  agreement that the agencies will not act independently.
                                                                                               producing states), which could result in varying and
                                                                                               conflicting agreements.

                                  The Assistant Secretary should direct the completion
                                  and implementation of his succession plan already in
                                  development. The plan should address required
                                  staffing levels and projected attrition to ensure that the
                                                                                               MSHA has developed a succession plan that has been
                                  agency can effectively fulfill its enforcement
 92         OAS         HR                                                                     transmitted to DOL for its review. MSHA intends to        In Progress      09/30/13          ---
                                  responsibilities under the Mine Act. The plan also
                                                                                               begin implementation of the plan in 2013.
                                  should identify the level of staffing necessary to
                                  maintain a core of fully trained and experienced
                                  inspectors. This plan should explore the feasibility of
                                  enabling double-encumbering enforcement positions.


        6
          MSHA has held several meetings with stakeholders, including the IMCC, the organization that represents states with significant mining interests. As a result of these meetings,
        MSHA has decided that rather than pursue state-by-state MOUs, which could result in varying and conflicting agreements, a plan involving a single mine rescue strategy with an
        organization outside of MSHA, should be pursued. The first step is development of an organization structure for implementation and this is in progress. MSHA cannot at this time
        reasonably predict when it will be completed.



                                                                                                                       MSHA Making Progress To Implement Recommendations
                                                                                        71                                                      Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                   Expected     Revised
Count   Program   Category                     Recommendation                                             Corrective Action                           Status    Completion   Completion
          Area                                                                                                                                                     Date        Date




                                                                                        The Assistant Secretary considered the
                                                                                        recommendations to make EFS specialists ARs as
                                                                                        recommended by the Internal Review report and
                                                                                        determined that the role of EFS training specialists
                             The Assistant Secretary should consider making some
                                                                                        should not be changed to include enforcement
                             EFS specialists ARs to assist in the inspection of
                                                                                        authority. Inspectors, as part of their regular
 93      OAS        HR       training records and establish protocol for coordinating                                                               Completed    02/11/13        ---
                                                                                        inspections, review training records. EFS training
                             with district managers to provide these services when
                                                                                        specialists assist enforcement personnel by conducting
                             needed.
                                                                                        evaluations of training programs. If an EFS review
                                                                                        uncovers noncompliance issues, this information is
                                                                                        forwarded to the district manager for appropriate
                                                                                        enforcement action.




                                                                                        The Assistant Secretary considered the
                                                                                        recommendations to make EFS specialists ARs as
                                                                                        recommended by the Internal Review report and
                                                                                        determined that the role of EFS training specialists
                                                                                        should not be changed to include enforcement
                             The Assistant Secretary should instruct the Director of
                                                                                        authority. EFS specialists have a long history of working
                             EPD to provide resources to assist CMS&H by
                                                                                        successfully within the mining industry, without having
                             conducting additional Part 50 Audits. The Assistant
 94      OAS        HR                                                                  enforcement authority. While the enforcement and EFS        Completed    02/11/13        ---
                             Secretary should consider making some EFS
                                                                                        roles are different, they complement each other as they
                             specialists ARs to enable them to conduct audits
                                                                                        are now structured, and their responsibilities are both
                             independently of CMS&H inspectors.
                                                                                        important in ensuring miners receive necessary and
                                                                                        effective training. The Assistant Secretary agrees that
                                                                                        EFS specialists should continue to provide resources to
                                                                                        assist inspectors conduct Part 50 audits upon request
                                                                                        as they have in the past.




                                                                                                                MSHA Making Progress To Implement Recommendations
                                                                                 72                                                      Report No. 05-13-003-06-001
                                                                                                                           U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                              Expected       Revised
Count   Program      Category                        Recommendation                                              Corrective Action                           Status        Completion     Completion
          Area                                                                                                                                                                Date          Date

                                                                                               The Internal Review report recommended that the
                                                                                               Assistant Secretary request that NIOSH develop a
                                                                                               method to identify operators or mines for Part 50 audits.
                                                                                               The Internal Review report suggested that potential
                                                                                               criteria could include a handful of factors, including
                                  The Assistant Secretary should request that NIOSH            allegations of under-reporting of accidents and injuries.
                                  develop a method to identify operators or mines for Part     MSHA and DOL are very interested in the issue of
                                  50 Audits. Potential criteria could include compliance       underreporting and agree that further study is needed.                       No date
 95         OAS          C                                                                                                                                 In Progress 7                      ---
                                  records of operators, hazardous condition complaints,        As a result, DOL's Office of Policy commissioned an                          provided
                                  respirable dust issues, and allegations of under-            outside entity to perform a study on underreporting, its
                                  reporting.                                                   scope, causes and potential improvements to MSHA’s
                                                                                               auditing program. That study is ongoing. In addition, in
                                                                                               March, 2013, one of the Independent panel members is
                                                                                               presenting a research proposal on Part 50 audits.
                                                                                               Following the review of these studies, MSHA will
                                                                                               determine next steps.




                                  The Assistant Secretary should consider rulemaking to
                                  revise 30 CFR 75.402 to require the use of:
                                                                                                                                                                             Cannot
                                                                                               On October 19, 2010, MSHA published a proposed rule
                                  • high-pressure rock-dusting machines to continuously                                                                                    predict with
                                                                                               to lower miners’ exposure to respirable coal dust. The
                                  apply rock dust into the air stream at the tailgate end of                                                                               reasonable
                                                                                               remaining recommendation related to rock dust is
                                  the longwall face whenever cutting coal;                                                                                                  certainty
 96         OAS          R                                                                     currently under consideration for rulemaking. Any           In Progress                        ---
                                  • rock-dusting machines to regularly apply rock dust at                                                                                     when
                                                                                               regulatory action MSHA undertakes must be done in
                                  the outby edges of active pillar lines on retreating                                                                                     rulemaking
                                                                                               accordance with the Mine Act and Administration
                                  continuous mining machine sections; and                                                                                                     will be
                                                                                               regulatory procedures and will extend beyond 2013.
                                  • rock-dusting machines to regularly apply rock dust at                                                                                  completed
                                  approaches to other inaccessible areas downwind of
                                  coal dust-generating sources.




        7
          DOL commissioned an outside entity to perform a study of underreporting, its scope, causes and potential improvements to MSHA’s auditing program. MSHA is awaiting the
        completion of that study so it can review it. When that study is complete, MSHA will be in a position to determine if assistance from NIOSH or other entity is needed. Until MSHA
        has had an opportunity to analyze the results of ongoing research, it cannot reasonably predict an expected completion date for this recommendation.



                                                                                                                       MSHA Making Progress To Implement Recommendations
                                                                                        73                                                      Report No. 05-13-003-06-001
                                                                                                                    U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                   Expected       Revised
                  Category
Count   Program                                 Recommendation                                             Corrective Action                        Status      Completion     Completion
          Area                                                                                                                                                     Date          Date


                             The Assistant Secretary should consider rulemaking to
                                                                                                                                                                   Cannot
                             require the use of equipment doors in lieu of permanent
                                                                                                                                                                predict with
                             stoppings, or to control ventilation within an air course,   The recommendation as it relates to ventilation is
                                                                                                                                                                reasonable
                             be subject to approval in the mine ventilation plan. This    currently under consideration for rulemaking. Any
                                                                                                                                                                  certainty
 97      OAS         R       regulation also should consider a provision which would      regulatory action MSHA undertakes must be done in       In Progress                      ---
                                                                                                                                                                    when
                             require all equipment doors installed in travelways to       accordance with the Mine Act and Administration
                                                                                                                                                                rulemaking
                             utilize an interlock system to ensure only one door can      regulatory procedures and will extend beyond 2013.
                                                                                                                                                                   will be
                             be opened at any time to maintain the separation of air
                                                                                                                                                                 completed
                             courses.




                                                                                                                                                                  Cannot
                             The Assistant Secretary should consider rulemaking to        The final Pattern of Violations rule, published on
                                                                                                                                                                predict with
                             modify the provisions of 30 CFR Parts 100 and 104 to         January 23, 2013, revises Part 104. The remaining
                                                                                                                                                                reasonable
                             minimize the effect of the more subjective gravity and       recommendation related to 30 CFR Part 100 is
                                                                                                                                                                 certainty
 98      OAS         R       negligence determinations on penalty proposals and           currently under consideration for rulemaking. Any       In Progress                      ---
                                                                                                                                                                   when
                             pattern of violation determinations, without reducing the    regulatory action MSHA undertakes must be done in
                                                                                                                                                                rulemaking
                             incentive for operators to comply with standards and         accordance with the Mine Act and Administration
                                                                                                                                                                   will be
                             regulations.                                                 regulatory procedures and will extend beyond 2013.
                                                                                                                                                                completed




                                                                                          MSHA has drafted a proposed rule addressing the
                                                                                                                                                                   Cannot
                                                                                          assessment of civil penalties, and this proposed rule
                                                                                                                                                                predict with
                                                                                          was submitted to the Office of Management and Budget
                             The Assistant Secretary should consider rulemaking to                                                                              reasonable
                                                                                          for review on December 2, 2011. The remaining
                             modify the provisions of 30 CFR Part 100 to provide for                                                                              certainty
99       OAS         R                                                                    recommendation related to 30 CFR Part 100 is            In Progress                      ---
                             increased penalties for the failure of mine operators to                                                                               when
                                                                                          currently under consideration for rulemaking. Any
                             report accidents, injuries, and illnesses.                                                                                         rulemaking
                                                                                          regulatory action MSHA undertakes must be done in
                                                                                                                                                                   will be
                                                                                          accordance with the Mine Act and Administration
                                                                                                                                                                 completed
                                                                                          regulatory procedures and will extend beyond 2013.




                                                                                                                 MSHA Making Progress To Implement Recommendations
                                                                                  74                                                      Report No. 05-13-003-06-001
                                                                                                                     U.S. Department of Labor – Office of Inspector General


          Lead                                                                                                                                                       Expected       Revised
                  Category
Count   Program              Recommendation                                              Corrective Action                                              Status      Completion     Completion
          Area                                                                                                                                                         Date          Date




                             The Assistant Secretary should consider rulemaking to
                                                                                         The recommendation as it relates to rock dust is
                             require mine operators to regularly determine the
                                                                                         currently under consideration for rulemaking. Any
                             adequacy of rock dusting using a method approved by
                                                                                         regulatory action MSHA undertakes must be done in
                             the Secretary. This could be achieved by requiring
                                                                                         accordance with the Mine Act and Administration
                             mine operators to sample mine dust for analysis or
                                                                                         regulatory procedures and will extend beyond 2013. In
                             conduct CDEM testing at sufficient locations and                                                                                          Cannot
                                                                                         advance of rulemaking on rock dust sampling, the
                             intervals to determine if any area of the mine needs re-                                                                               predict with
                                                                                         Administrator for CMS&H, on January 25, 2013, issued
                             dusting. The rule should consider requirements for                                                                                     reasonable
                                                                                         a PIB encouraging operators to collect and measure
                             certification, recordkeeping (including a map of sample                                                                                  certainty
 100     OAS         R                                                                   mine dust samples to verify sufficient application of rock   In Progress                      ---
                             locations), and corrective actions similar to examination                                                                                  when
                                                                                         dust in underground coal mines. CMS&H is also
                             standards. During the interim, the Administrator for                                                                                   rulemaking
                                                                                         instituting additional enforcement measures, including
                             CMS&H should issue a PIB advising operators of the                                                                                        will be
                                                                                         improving sampling for incombustible content to ensure
                             need for them to sample or test mine dust to ensure                                                                                     completed
                                                                                         operators are properly rockdusting throughout mines,
                             compliance with 30 CFR 75.403. Upon implementation
                                                                                         and focusing on the highest risk areas, float coal dust in
                             of such rule, the Administrator should consider revising
                                                                                         mines, and operator clean-up programs. On August 16,
                             inspection procedures to replace tracking of wet sample
                                                                                         2010, the Administrator for CMS&H issued 4 PIBs
                             locations with a spot sampling program in outby areas
                                                                                         regarding ventilation.
                             sufficient to evaluate the operators’ sampling program.




                                                                                          Legend
                                                            Broad Categories
                                                            Training                                                                T
                                                            Information Systems                                                    IS
                                                            Policies and Procedures                                                PP
                                                            Human Resources and Succession Planning                                HR
                                                            Rulemaking                                                              R
                                                            Collaboration with External Entities                                    C




                                                                                                                  MSHA Making Progress To Implement Recommendations
                                                                                 75                                                        Report No. 05-13-003-06-001
                         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       MSHA Making Progress To Implement Recommendations
        76                                      Report No. 05-13-003-06-001
                                                                                          U.S. Department of Labor – Office of Inspector General



                                                                                                                                        Exhibit 3
Independent Panel Report Recommendations

                                                          Recommendation # 1

                                  Modify the strategic paradigm that informs MSHA enforcement activities

                                                           Does MSHA
           Independent Panel’s Suggested Goals to
                                                         believe goal has
 Goal #        Assist in the Implementation of                                                        MSHA’s Response
                                                              merit?
                     Recommendations

          Replace technical rules with performance
          standards.


                                                                            MSHA has reviewed this Independent Panel recommendation and has
                                                                            concluded that the model developed by Congress when it was
                                                                            considering passage of the 1969 Mine Act is still sound and the correct
   1                                                             N          approach for MSHA going forward. Making the change suggested by
                                                                            the Independent Panel, which is not supported in its report, could well
                                                                            reverse the long-term safety and health gains made with the current
                                                                            approach.




          Incentivize mine operators to hire in-house
          specialists.

                                                                            Some mine operators should take greater responsibility for the
                                                                            development and oversight of mining plans. The Internal Review
                                                                            report contained a number of recommendations for regulatory action,
                                                                            including certification of mining personnel, and MSHA will be
                                                                            addressing those in the near future in its regulatory actions. For all the
   2                                                             Y
                                                                            certification of mining personnel recommendations contained in the
                                                                            Independent Panel report that require rulemaking action, MSHA has a
                                                                            number of regulatory actions in process, and its rulemaking agenda
                                                                            going forward has not yet been determined. This is subject to Office of
                                                                            Management and Budget review.




                                                                                       MSHA Making Progress To Implement Recommendations
                                                            77                                                  Report No. 05-13-003-06-001
                                                                                         U.S. Department of Labor – Office of Inspector General


                                                         Recommendation # 1

                                Modify the strategic paradigm that informs MSHA enforcement activities

                                                          Does MSHA
          Independent Panel’s Suggested Goals to
                                                        believe goal has
Goal #        Assist in the Implementation of                                                        MSHA’s Response
                                                             merit?
                    Recommendations

         Encourage the use of occupational safety and
         health management systems.
                                                                           MSHA believes that effective safety and health management programs
                                                                           in mining will create a sustained industry-wide effort to eliminate
                                                                           hazards and will result in the prevention of injuries and illnesses. As a
  3                                                             Y
                                                                           result, MSHA has been gathering information about these systems,
                                                                           and on September 9, 2010, published a request for information in the
                                                                           Federal Register and gave notice of three public meetings.



                                                                           The requirement for quarterly inspections at underground mines has
                                                                           been the keystone of the Mine Act since 1969. Frequent MSHA
                                                                           inspections identify and require the correction of hazards and
                                                                           violations that have not been corrected by the mine operator, thereby
                                                                           exposing miners to harm. Congress concluded decades ago that
                                                                           quarterly inspections were needed to protect the Nation’s miners, and
                                                                           these inspections have been highly effective in reducing deaths,
                                                                           injuries and illnesses in the Nation’s mines. MSHA believes that
                                                                           Congress had it right and disagrees with altering this important
                                                                           protection, which could unravel the improvements made and place
                                                                           miners in greater jeopardy. The fatal rate has dropped approximately
         Evaluate the requirement that MSHA inspect                        88% since the passage of the 1969 Mine Act.
  4                                                             N
         all underground mines on a quarterly basis.




                                                                                      MSHA Making Progress To Implement Recommendations
                                                           78                                                  Report No. 05-13-003-06-001
                                                                                            U.S. Department of Labor – Office of Inspector General


                                                            Recommendation # 1

                                  Modify the strategic paradigm that informs MSHA enforcement activities

                                                             Does MSHA
          Independent Panel’s Suggested Goals to
                                                           believe goal has
Goal #        Assist in the Implementation of                                                           MSHA’s Response
                                                                merit?
                    Recommendations




                                                                              MSHA agrees that it should evaluate the effectiveness of its
                                                                              enforcement authorities and it has a process in place to do this. These
                                                                              evaluations have increased since the Assistant Secretary arrived at
         Evaluate MSHA's use of, and the potential
                                                                              MSHA. Several new enforcement initiatives have been implemented
  5      effectiveness of, MSHA's enforcement                      Y
                                                                              recently, and MSHA is evaluating them for effectiveness and
         authorities.
                                                                              improvements. They include the impact inspection initiative, revised
                                                                              PPOV program, End Black Lung Act Now, Rules to Live By, and pre-
                                                                              contest conference initiatives.




                                                                              Mine operators are currently required by regulation to collect
                                                                              considerable data and information, including information on air
                                                                              measurements, sampling of respirable dust, and other safety and
         Place responsibility for data collection on the
                                                                              health information. More data collection by mine operators could
         mine operator.                                            Y
  6                                                                           improve mine safety and better sampling procedures are needed.
                                                                              MSHA provided technical advice supporting technologies, such as
                                                                              atmospheric monitoring and use of CDEMs to determine the
                                                                              combustibility of coal mine dust quickly, to the drafters of the Byrd Act,
                                                                              which was introduced in both the Senate and House in 2010.




                                                                                         MSHA Making Progress To Implement Recommendations
                                                              79                                                  Report No. 05-13-003-06-001
                                                                                        U.S. Department of Labor – Office of Inspector General


                                                        Recommendation # 1

                                Modify the strategic paradigm that informs MSHA enforcement activities

                                                         Does MSHA
          Independent Panel’s Suggested Goals to
                                                       believe goal has
Goal #        Assist in the Implementation of                                                      MSHA’s Response
                                                            merit?
                    Recommendations

                                                                          MSHA agrees that increased training is important but that more needs
                                                                          to be done and NIOSH has already taken a number of steps to
         Explore new solutions to improve workforce                       respond. MSHA is already utilizing new creative forms of training,
         readiness.                                                       including distance learning and web-accessible training, for not only
  7                                                            Y
                                                                          MSHA employees, but for operators and miners as well. Some of this
                                                                          is being done as part of its corrective actions in response to the
                                                                          Internal Review report.




                                                                          MSHA agrees that improvements are needed in the utilization of
                                                                          information technology and to upgrade its technological systems.
                                                                          Many of the reforms that MSHA has undertaken involved the
         Improve MSHA's utilization of information                        reorganization of MSHA’s Office of Assessments into OAASEI. This
  8                                                            Y
         technology.                                                      restructuring has resulted in better management and oversight over
                                                                          MSHA’s special enforcement and investigations, worker voice and
                                                                          accountability audit programs, and better information sharing across
                                                                          the special enforcement, investigation and auditing groups.




                                                                                     MSHA Making Progress To Implement Recommendations
                                                          80                                                  Report No. 05-13-003-06-001
                                                                                             U.S. Department of Labor – Office of Inspector General


                                                             Recommendation #2

                                           Improve the scope and value of MSHA’s internal reviews
                                                              Does MSHA
          Independent Panel’s Suggested Goals to
                                                            believe goal has
Goal #        Assist in the Implementation of                                                            MSHA’s Response
                                                                 merit?
                    Recommendations




                                                                               MSHA agrees that the APPM, which governs the conduct of the
                                                                               Internal Review, needs to be revised. For several months, the agency
                                                                               has been working on those revisions, which include requiring root
  1      Revise Section 1204(b).                                    Y
                                                                               cause analyses and changes to the interview section. Provided MSHA
                                                                                                                                          rd
                                                                               has resources available, these should be finalized by the 3 quarter of
                                                                               FY2013.




                                                                               MSHA agrees that the quality of the Internal Review interviews could
                                                                               have been better, and it is exploring options, such as greater SOL
                                                                               involvement and mandating special training on interview techniques
                                                                               for those who conduct interviews, to correct this. Prior to the issuance
  2      Utilize specially trained, outside interviewers.           Y          of the IP report, MSHA had already been working with the Federal
                                                                               Bureau of Investigation to provide training to agency accident and
                                                                               special investigators on agency investigation and interview
                                                                               techniques.




                                                                                          MSHA Making Progress To Implement Recommendations
                                                               81                                                  Report No. 05-13-003-06-001
                                                                                            U.S. Department of Labor – Office of Inspector General


                                                             Recommendation #3

                                         Ensure that corrective actions are effectively implemented.
                                                              Does MSHA
          Independent Panel’s Suggested Goals to
                                                            believe goal has
Goal #        Assist in the Implementation of                                                          MSHA’s Response
                                                                 merit?
                    Recommendations




                                                                               MSHA does not believe that the Chief Evaluation Office is equipped to
                                                                               perform this function. Instead, the agency has charged OAASEI with
         The IP proposed that DOL's Chief Evaluation
                                                                               evaluating the effectiveness of MSHA’s corrective actions which plan
         Office (in the Office of the Assistant Secretary
                                                                               should be completed in FY 2013. In addition, MSHA program areas
  1      for Policy) appoint an Independent Monitor to              N
                                                                               are responsible for implementing the corrective actions, meeting time
         oversee implementation of the corrective
                                                                               lines and reporting the results through an MSHA internal review
         actions.
                                                                               process to assure that corrections have been implemented. A final
                                                                               review is made at the Assistant Secretary level.




                                                                                         MSHA Making Progress To Implement Recommendations
                                                               82                                                 Report No. 05-13-003-06-001
                                                                                            U.S. Department of Labor – Office of Inspector General


                                                            Recommendation #4

                         Address technical deficiencies in current mining practice that could compromise safety.
                                                             Does MSHA
          Independent Panel’s Suggested Goals to
                                                           believe goal has
Goal #        Assist in the Implementation of                                                          MSHA’s Response
                                                                merit?
                    Recommendations




         Develop best practices for ventilating the                           The Internal Review report contained a number of recommendations
         longwall face and its tailgate corner to                             for regulatory action regarding ventilation, and there were other
  1                                                                Y
         minimize dangerous accumulations of                                  ventilation issues, including recommendations in the IP report which
         methane gas.                                                         MSHA will be addressing in the near future.




                                                                              MSHA has engaged in extensive discussions about the ventilation of
                                                                              mines with bleeder and bleederless systems over the years. The
                                                                              agency has conducted training sessions and workshops addressing
                                                                              this issue and plans to continue them in the future. Bleeder systems
         Define relative merits of bleeder and
                                                                              are governed by MSHA regulations, and the merits of bleeder vs.
  2      bleederless ventilation systems for controlling           Y
                                                                              bleederless systems were thoroughly debated during the 1992 and
         methane accumulation on longwall panels.
                                                                              1996 revisions of the ventilation rules; the final rule reflected public
                                                                              input. MSHA’s rule permits bleederless systems only in mines that
                                                                              have the highest potential for spontaneous combustion. The UBB mine
                                                                              was not such a mine.




                                                                                         MSHA Making Progress To Implement Recommendations
                                                              83                                                  Report No. 05-13-003-06-001
                                                                                          U.S. Department of Labor – Office of Inspector General


                                                           Recommendation #4

                        Address technical deficiencies in current mining practice that could compromise safety.
                                                            Does MSHA
          Independent Panel’s Suggested Goals to
                                                          believe goal has
Goal #        Assist in the Implementation of                                                         MSHA’s Response
                                                               merit?
                    Recommendations
                                                                             The application of improved atmospheric monitoring technology is long
                                                                             overdue in this country, and MSHA supports its use. MSHA provided
                                                                             technical advice on this technology to the drafters of the Byrd Act,
                                                                             which was first introduced in both the Senate and House in 2010.
         Develop best practices for the location of
                                                                             Under the draft legislation, NIOSH would develop recommendations
  3      monitors on and around the face to readily               Y
                                                                             on the implementation of atmospheric monitoring technology, and the
         detect dangerous levels of methane.
                                                                             Secretary of Labor would develop regulations based on those
                                                                             recommendations. The atmospheric monitoring issues addressed in
                                                                             the Internal Review, Independent Panel, and elsewhere will be
                                                                             considered as part of MSHA’s regulatory review.




                                                                             MSHA stated that the application of improved atmospheric monitoring
                                                                             technology is long overdue in this country, and MSHA supports its use.
                                                                             MSHA provided technical advice on this technology to the drafters of
                                                                             the Byrd Act, which was first introduced in both the Senate and House
                                                                             in 2010. Under the draft legislation, NIOSH would develop
         Develop best practices for employing
                                                                             recommendations on the implementation of atmospheric monitoring
         monitoring systems to detect unexpected
  4                                                               Y          technology, and the Secretary of Labor would develop regulations
         changes to ventilation systems and to identify
                                                                             based on those recommendations. The atmospheric monitoring
         and forecast potentially dangerous conditions.
                                                                             issues addressed in the Internal Review, Independent Panel and
                                                                             elsewhere will be considered as part of MSHA’s regulatory review.
                                                                             This includes best practices for employing monitoring systems to
                                                                             detect unexpected changes to ventilation systems and to identify and
                                                                             forecast potentially dangerous conditions.




                                                                                       MSHA Making Progress To Implement Recommendations
                                                             84                                                 Report No. 05-13-003-06-001
                                                                                             U.S. Department of Labor – Office of Inspector General


                                                             Recommendation #4

                        Address technical deficiencies in current mining practice that could compromise safety.
                                                              Does MSHA
          Independent Panel’s Suggested Goals to
                                                            believe goal has
Goal #        Assist in the Implementation of                                                           MSHA’s Response
                                                                 merit?
                    Recommendations


                                                                               MSHA agrees that better sampling procedures are needed. The
                                                                               agency provided technical advice supporting the CDEM technology to
                                                                               the drafters of the Byrd Act, which was first introduced in both the
                                                                               Senate and House in 2010. MSHA has completed other Internal
         Develop appropriate sampling procedures to                            Review corrective action recommendations related to rock dust,
  5      detect and determine if adequate inertization              Y          including: beginning a collaboration with NIOSH on developing a
         of float dust has occurred                                            standard method for collecting mine samples for operators and
                                                                               inspectors to be used to determine compliance with 30 CFR 75.403;
                                                                               and providing training for supervisors on using standard oversight
                                                                               reports to ensure that inspectors have valid reasons for not collecting
                                                                               samples.




                                                                               Considerable research has been conducted on the prevention of coal
                                                                               dust-fueled coal mine disasters over the years. Recent research by
                                                                               NIOSH, completed in 2010, recommended that rock dust be increased
                                                                               in coal mines so that coal mine dust would have a total incombustible
                                                                               content of at least 80% in order to prevent mine explosions. MSHA
                                                                               acted on that recommendation and immediately published (on
         Determine the relative merits of applying active
                                                                               September 23, 2010) an emergency temporary standard that adopted
  6      and passive barriers in specific circumstances.            Y
                                                                               NIOSH’s recommendation. After notice and comment by the public,
                                                                               MSHA published its final rule in June 2011. This rule required all
                                                                               underground coal mine operators to meet the 80% total incombustible
                                                                               standard, which MSHA believes will prevent coal dust-fueled
                                                                               explosions. If the operator at UBB had adequately rock dusted the
                                                                               mine, the localized methane ignition would not have propagated into a
                                                                               massive coal dust explosion




                                                                                          MSHA Making Progress To Implement Recommendations
                                                               85                                                  Report No. 05-13-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
          86                        Report No. 05-13-003-06-001
                U.S. Department of Labor – Office of Inspector General




Appendices




              MSHA Making Progress To Implement Recommendations
             87                        Report No. 05-13-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
          88                        Report No. 05-13-003-06-001
                                                   U.S. Department of Labor – Office of Inspector General



                                                                                           Appendix A
Background

The mission of MSHA is to prevent death, disease, and injury from mining and to
promote safe and healthful workplaces for the Nation's miners. To fulfill this mission, the
Mine Act, as amended by the Mine Improvement and New Emergency Response Act of
2006, requires MSHA to develop and promulgate mandatory safety and health
standards, inspect mines to determine whether there is compliance with those
standards, and investigate accidents to determine their causes. Moreover, MSHA’s
APPM (Volume Ill, Chapter 1200) requires that an Internal Review of MSHA’s
enforcement activities be conducted after each mining accident that results in three or
more fatalities.

On April 5, 2010, a longwall face methane ignition at the UBB Mine-South transitioned
into a small methane explosion that propagated into a massive coal dust explosion.
Twenty-nine miners were killed and two seriously injured in the deadliest U.S. coal mine
disaster in nearly 40 years. The MSHA accident investigation team determined that the
explosion occurred because Performance Coal Company and its parent company,
Massey Energy Company, violated fundamental safety standards and failed to take
corrective actions to prevent the catastrophic explosion.

Prior to the explosion, the level of enforcement at UBB was among the highest in the
nation. Beginning FY 2009 and ending April 5, 2010, MSHA issued 689 citations and
orders pursuant to Section 104 for violations at UBB. 8 These included the second
highest number of Section 104(d) citations and orders issued at any coal mine in the
Nation. 9 Section 104(d) orders require the mine operator to withdraw all persons from
the area affected by the violation except those necessary to correct the condition until
the violation has been abated.

On April 29, 2010, MSHA’s Assistant Secretary instructed the Director of PEIR to
conduct an Internal Review of MSHA’s actions at UBB. The Internal Review team was
comprised of MSHA employees with various specialties and expertise who did not have
current enforcement responsibility in CMS&H District 4. The Internal Review team
evaluated MSHA’s actions relative to the UBB explosion and made recommendations to
improve MSHA’s performance in order to better protect the Nation’s miners from similar
disasters in the future. The Internal Review team primarily focused on MSHA
enforcement and plan approval activities during the 18 months preceding the explosion.
Where appropriate, the team examined relevant historical information beyond the 18-
month review period.

On March 6, 2012, MSHA issued the Internal Review report. The Internal Review team
did not find evidence that the actions of District 4 personnel or inadequacies in MSHA
safety and health standards, policies, or procedures caused the explosion, but the
Internal Review team found several instances where enforcement efforts at UBB were
8
    This does not include five citations and orders that subsequently were vacated.
9
    During FY 2009, UBB received the highest number of Section 104(d) actions in the nation.

                                                MSHA Making Progress To Implement Recommendations
                                               89                        Report No. 05-13-003-06-001
                                           U.S. Department of Labor – Office of Inspector General



compromised because MSHA and District 4 did not follow MSHA’s policies and
procedures. The Internal Review team also found inspectors would have benefited if
certain policies and procedures had been more clearly drafted and more effectively
implemented. The significant findings contained in the Internal Review report were
related to deficiencies with the following:

      Inspections
      Use of elevated enforcement tools
      Float coal dust and rock dust sampling
      Mine plans (ventilation plan and roof control plan)
      Review and use of mine examination records
      Respirable dust

The Internal Review found that some of the agency deficiencies were related to funding
limitations at MSHA in years prior to the UBB disaster that resulted in a shortfall of
experienced agency enforcement personnel that had hampered MSHA in enforcement
of the Mine Act at the time of the UBB tragedy. The OIG audit did not address that
matter.

Some of the deficiencies identified in the Internal Review report are currently being
addressed or have already been addressed by MSHA. Where appropriate, the Internal
Review report also included recommendations to enhance MSHA’s performance and
better promote the safety and health of miners. The Internal Review report contains 100
recommendations, and as of September 30, 2012, MSHA reported on its ‘Corrective
Action Tracking’ website that 38 recommendations were completed. The 38
recommendations addressed deficiencies related to the following:

      Mine plan approvals
      Respirable dust at UBB
      Inspections (i.e., Sections 103a and 103i)
      Use of Section 104 enforcement authority
      Enforcement of specific provisions and standards for contributory violations (i.e.,
       enforcement of 30 CFR parts 48.3,75.360, 75.362, 75.363, 75.364,75.400, and
       75.403)
      Enforcement of specific standards for non-contributory violations (i.e.,
       enforcement of electrical standards and enforcement of 30 CFR part 50)
      Management issues
      Mine rescue and recovery
      Proposed assessment of civil penalties

For the fourth quarter in Calendar Year 2012 (October 1, 2012 through December 31,
2012) MSHA completed 16 recommendations, and these recommendations were
posted in MSHA's ‘Corrective Action Tracking’ website on January 31, 2013. As of
February 15, 2013, MSHA told the OIG it was moving steadily forward in implementing
the remaining 44 recommendations.



                                        MSHA Making Progress To Implement Recommendations
                                       90                        Report No. 05-13-003-06-001
                                         U.S. Department of Labor – Office of Inspector General



On April 16, 2010, the Secretary of Labor asked the Director of NIOSH to identify a
team with relevant experience to provide an independent analysis of MSHA’s internal
review for UBB. The purpose of this independent assessment was to assure
transparency and accountability, and this independent assessment focused on the
policy, process, and outcomes of the UBB internal review. On March 22, 2012, the
Independent Panel issued its report, which contained four recommendations intended to
complement the recommendations contained in the Internal Review report:

   1. Modify the strategic paradigm that currently informs MSHA’s enforcement
      activities.
   2. Improve the quality of internal investigations that MSHA (or independent
      investigators) conduct following mine disasters such as UBB.
   3. Ensure that corrective actions are effectively implemented.
   4. Address technical deficiencies in current mining practice that could compromise
      safety.

MSHA formally met with the Independent Panel on March 20, 2013 to discuss the
recommendations.




                                      MSHA Making Progress To Implement Recommendations
                                     91                        Report No. 05-13-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
          92                        Report No. 05-13-003-06-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to answer the following questions:

   1. What methodology did MSHA use to prioritize the recommendations for
      implementation?

   2. Can MSHA document the recommendations reported as completed?

   3. Is MSHA on track to meet its milestones for implementation of
      recommendations?

Scope

Our audit covered the 100 recommendations in the Internal Review report, and the four
recommendations in the Independent Panel report.

We conducted all audit work at MSHA’s headquarters located in Arlington, VA. We
tested 38 of the 100 recommendations in the Internal Review report, completed
between February 2012 and September 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

We obtained an understanding of the internal review process established by MSHA in
March 2012 to implement the recommendations in the Internal Review report. To
answer our audit objectives, we (1) determined whether MSHA has policies and
procedures for the implementation of corrective actions to address the
recommendations from internal reviews; (2) interviewed key officials from OAS and the
MSHA program areas; (3) determined the methodology that MSHA used to prioritize the
implementation of the recommendations in the Internal Review report; (4) determined if
MSHA could document the Internal Review recommendations reported as completed in
MSHA’s ‘Corrective Action Tracking’ website; and (5) determined if MSHA is on track to
meet its implementation milestones for the recommendations in the Internal Review
report.




                                       MSHA Making Progress To Implement Recommendations
                                      93                        Report No. 05-13-003-06-001
                                           U.S. Department of Labor – Office of Inspector General



Independent Panel Report

We met with MSHA officials to discuss the implementation progress for the
recommendations in the Independent Panel report, and we interviewed two
Independent Panel members to gain an understanding of the four recommendations.
We also asked MSHA to complete a questionnaire regarding the implementation status
(i.e., completed, in progress, or will not be completed) and the milestones (i.e., expected
completion date) for the recommendations.

Data Reliability

To determine the reliability of the data contained in the ‘Internal Tracking’ spreadsheet,
we used an approach consistent with the Government Accountability Office’s Assessing
the Reliability of Computer-Processed Data (GAO-09-680G, July 2009, External Version
I). The ‘Internal Tracking’ spreadsheet contains the 87 recommendations from the
Internal Review report that were assigned to the MSHA program areas. We used the
data contained in the ‘Internal Tracking’ spreadsheet to identify the recommendations
that were completed between February 2012 and September 2012, and to determine
the milestones established for these recommendations. Based on our assessment and
tests, we concluded the data on the ‘Internal Tracking’ spreadsheet were sufficiently
reliable to be used in meeting our objectives.

Sampling

We determined that some of the Internal Review recommendations that were completed
between March 2012 and September 2012 required that training be provided to the ARs
in CMS&H Districts 4 and 12, and we obtained attendance sheets for a random sample
of ARs in these two districts. Specifically, we identified the number of district and field
offices in CMS&H Districts 4 and 12, and we randomly selected four field offices from a
universe of nine field offices. Also for the ARs located in these four field offices, we
obtained attendance sheets and we determined that the ARs completed the required
training. Projections were not necessary because the purpose of the sample was to
determine whether MSHA could document that the required training was provided to the
ARs in CMS&H Districts 4 and 12.

Testing

Policies and Procedures

We reviewed MSHA's APPM, Volume Ill, Chapter 1200 (April 24, 1992), and we
determined that MSHA is revising Chapter 1200 of the APPM. Specifically, MSHA is
revising the interview section (Chapter 1240) and adding a section that will require root
cause analyses to be performed in future internal reviews. MSHA expects to complete
the APPM revisions by the end of FY 2013.




                                        MSHA Making Progress To Implement Recommendations
                                       94                        Report No. 05-13-003-06-001
                                          U.S. Department of Labor – Office of Inspector General



Documentation of Recommendations

For the 38 recommendations reported as completed in MSHA’s ‘Corrective Action
Tracking’ website as of September 30, 2012, we obtained the documentation that
supported the corrective actions taken by OAS and the MSHA program areas. We
reviewed the documentation and determined whether the documentation supported the
corrective actions taken.

Implementation Prioritization

We interviewed MSHA officials to determine the methodology that MSHA used to
prioritize the implementation of the recommendations in the Internal Review report. We
analyzed the recommendations assigned to the MSHA program areas and determined
that the recommendations can be classified in one of the following broad categories: (1)
training; (2) information systems; (3) policies and procedures; (4) human resources and
succession planning; (5) collaboration with external entities; and (6) rulemaking. We
also analyzed the types and the number of recommendations completed between
February 2012 and September 2012 and the fourth quarter of CY 2012, and the nature
and type of recommendations that MSHA expects to implement during CY 2013.

Implementation Milestones

To determine whether MSHA is on track to meet its implementation milestones for the
recommendations in the Internal Review report, we analyzed the information contained
in the ‘Internal Tracking’ spreadsheet (dated January 4, 2013) and the spreadsheet
containing the OAS recommendations. Specifically, we identified (1) the milestones
(expected completion dates) that were set for the recommendations; (2) whether the
milestones were regularly revised; (3) the number and the nature and type of
recommendations completed during the last quarter of CY 2012; and (4) the number
and the nature and type of recommendations that MSHA expects to complete during CY
2013. Also for the 44 recommendations remaining to be implemented, we asked MSHA
to provide information (as of February 2013) about the following:

      A description of the corrective actions accomplished to date (i.e., February 2012
       through February 2013);
      A description of what needs to be accomplished; and
      Any anticipated circumstances or challenges that may delay implementation
       beyond December 31, 2013.

We determined that by December 31, 2013, MSHA expects to complete 91 of the 100
recommendations. MSHA has not set due dates for implementation of the remaining
nine recommendations, such as those involving rulemaking, funding contingencies,
research, and legal reviews.




                                        MSHA Making Progress To Implement Recommendations
                                       95                        Report No. 05-13-003-06-001
                                          U.S. Department of Labor – Office of Inspector General



Internal Control

In planning and performing our audit, we considered MSHA’s internal controls that were
relevant to our audit objectives by obtaining an understanding of those controls, and
assessing control risk for the purposes of achieving our objectives. The objective of our
audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as a whole. Our consideration of MSHA’s
internal controls relevant to our audit objectives would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

Criteria

      Federal Mine Safety & Health Act of 1977
      MSHA's Administrative Policy and Procedures Manual, Volume Ill, Chapter 1200
       (April 24, 1992)




                                        MSHA Making Progress To Implement Recommendations
                                       96                        Report No. 05-13-003-06-001
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix C
Acronyms and Abbreviations

AA                    Accompanied Activity

AMS                   Atmospheric Monitoring System

APL                   Administrative Policy Letter

APPM                  Administrative Policy and Procedures Manual

AR                    Authorized Representative

Byrd Act              Robert C. Byrd Safety Protection Act

CDEM                  Coal Dust Explosibility Meter

CMS&H                 Coal Mine Safety and Health

CO                    Carbon Monoxide

EFS                   Educational Field Services

EPD                   Educational Policy and Development

FAR                   Field Activity Review

FY                    Fiscal Year

IMCC                  Interstate Mining Compact Commission

IPAL                  Inspectors’ Portable Application for Laptops

ITS                   Inspection Tracking System

LIMS                  Laboratory Information Management System

MERD                  Mine Emergency Response Development

Mine Act              Federal Mine Safety and Health Act of 1977

MMU                   Mechanized Mining Unit

MNMS&H                Metal and Nonmetal Mine Safety and Health

MOU                   Memorandum of Understanding

                                     MSHA Making Progress To Implement Recommendations
                                    97                        Report No. 05-13-003-06-001
                         U.S. Department of Labor – Office of Inspector General



MPA      Mine Plan Approval

MSHA     Mine Safety and Health Administration

MSIS     MSHA’s Standardized Information System

NADL     National Air and Dust Laboratory

NIOSH    National Institute for Occupational Safety and Health

OAASEI   Office of Assessments, Accountability, Special Enforcement
         and Investigations

OAS      Office of the Assistant Secretary

OIG      Office of Inspector General

OJT      On the Job Training

Panel    Independent Panel

PEIR     Program Evaluation and Information Resources

PIB      Program Information Bulletin

PIL      Procedure Instruction Letter

PPM      Program Policy Manual

PPOV     Potential Pattern of Violation

RDDR     Rock Dust Data Retrieval

RDSS     Rock Dust Sample Submission

SI       Special Investigations

SOL      Office of the Solicitor

SOP      Standard Operating Procedures

TS       Technical Support

UBB      Upper Big Branch

UMF      Uniform Mine File

                      MSHA Making Progress To Implement Recommendations
                     98                        Report No. 05-13-003-06-001
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix D
MSHA's Response to Draft Report




                                   MSHA Making Progress To Implement Recommendations
                                  99                        Report No. 05-13-003-06-001
   U.S. Department of Labor – Office of Inspector General




 MSHA Making Progress To Implement Recommendations
100                       Report No. 05-13-003-06-001
   U.S. Department of Labor – Office of Inspector General




 MSHA Making Progress To Implement Recommendations
101                       Report No. 05-13-003-06-001
   U.S. Department of Labor – Office of Inspector General




 MSHA Making Progress To Implement Recommendations
102                       Report No. 05-13-003-06-001
   U.S. Department of Labor – Office of Inspector General




 MSHA Making Progress To Implement Recommendations
103                       Report No. 05-13-003-06-001
   U.S. Department of Labor – Office of Inspector General




 MSHA Making Progress To Implement Recommendations
104                       Report No. 05-13-003-06-001
   U.S. Department of Labor – Office of Inspector General




 MSHA Making Progress To Implement Recommendations
105                       Report No. 05-13-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
          106                       Report No. 05-13-003-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix E
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), S. Marisela
Sookraj (Audit Manager), Donald Evans, Elizabeth Garcia, N. Renee Kelly, Carmelle
Paytes, and Mary Lou Casazza.




                                        MSHA Making Progress To Implement Recommendations
                                       107                       Report No. 05-13-003-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




           MSHA Making Progress To Implement Recommendations
          108                       Report No. 05-13-003-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
